U.S. DEPARTMENT OF JUSTICE
  AUDIT OF THE CONVICTED
  OFFENDER DNA BACKLOG
   REDUCTION PROGRAM

       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 09-23
             March 2009
                      CONVICTED OFFENDER DNA
                    BACKLOG REDUCTION PROGRAM

                            EXECUTIVE SUMMARY

       Advances in DNA technology provide law enforcement powerful new
tools to identify suspects from biological evidence where older techniques
could not. While this increase in the usage of DNA profiling is helping to
solve crimes and exonerate the innocent across the country, many public
and private crime laboratories are not fully equipped to handle the increased
demand for DNA testing. The increased demand for DNA analyses, without a
corresponding growth in forensic laboratory capacity, has caused a large
backlog of unanalyzed DNA samples from convicted offenders and crime
scenes, and this backlog can significantly delay criminal investigations.

      To aid in reducing this national convicted offender DNA sample backlog
the Department of Justice (DOJ) – through its Office of Justice Programs’
(OJP), National Institute of Justice (NIJ) – used approximately $14.5 million
appropriated by Congress under the Crime Information Technology Act to
fund the first year of the Convicted Offender DNA Backlog Reduction
Program (Backlog Reduction Program) in fiscal year (FY) 2000.

      To further promote the use of DNA technology, the DOJ established a
strategic objective to increase the availability and use of technological
resources for combating crime. As part of this effort, in 2004 DOJ
implemented a 5-year, $1 billion DNA initiative to improve the capacity to
solve crimes using DNA evidence by eliminating casework and convicted
offender backlogs, funding research and development, improving crime
laboratory capacity, and providing training for all stakeholders in the justice
system.

      In support of this DNA initiative, funding is provided to help states
reduce the backlog of convicted offender samples awaiting analysis and
entry into the Combined DNA Index System (CODIS) maintained by the
Federal Bureau of Investigation (FBI). 1 As a result, DOJ – through its OJP,



       1
         CODIS is a national DNA-profile matching service administered by the FBI, which is
comprised of databases containing DNA profiles from crime scenes, convicted offenders and
arrestees, and missing persons.



                                           -i-
NIJ – has funded several programs to strengthen DNA capabilities in state
and local laboratories. 2

       This audit examines the Backlog Reduction Program, which is designed
to accelerate the analysis of convicted offender and arrestee DNA samples
collected by states and to provide timely CODIS-compatible data for state
and national DNA databases. 3 The Backlog Reduction Program is intended
to help states with existing laboratories that conduct DNA analysis of
samples from convicted offenders or arrestees to reduce their backlog of
such samples by either in-house analysis or by sending samples to vendor
laboratories for analysis. Specifically, funds for the in-house portion of the
Backlog Reduction Program (In-house Program) are to be used by a state's
designated existing and accredited DNA database laboratory to reduce the
backlog of DNA database samples through in-house analysis of samples and
through in-house technical review of DNA profiles generated by vendor
laboratories. Through the outsourcing contracts portion of the Backlog
Reduction Program (Outsourcing Program), the NIJ contracts directly with
vendor laboratories on behalf of the states so that states can outsource the
analysis of their backlogged samples. 4

       As shown in Figure 1, between FYs 2005 and 2007, 39 states received
funding totaling $41.3 million to analyze 1.46 million DNA samples. Of the
39 states, 15 participated in the In-house Program only, 15 participated in
the Outsourcing Program only, and 9 participated in both programs. Figure
1 also indicates the names and locations of the six vendor laboratories that
participated in the Outsourcing Program.




       2
          The NIJ is the research, development, and evaluation part of OJP that examines
crime control and justice issues. Within the NIJ, the Office of Science and Technology
manages technology research and development, development of technical standards,
testing, forensic sciences capacity building, and technology assistance to state and local law
enforcement and corrections agencies.
       3
          The Backlog Reduction Program funds the analysis of samples that have been
collected by the states pursuant to applicable laws. Therefore, for the purposes of this
audit, the convicted offender backlog consists of samples that have been collected but not
uploaded into CODIS. The Backlog Reduction Program does not provide funding for the
collection of DNA samples.
       4
         Beginning in FY 2008, the Outsourcing Program provided funding to allow states to
contract directly with vendor laboratories.




                                            - ii -
FIGURE 1. VENDOR AND STATE LABORATORIES PARTICIPATION IN
          THE BACKLOG REDUCTION PROGRAM 5




                                         Identity


                                                                                           Orchid

                                                                  Strand
                                                                                        Bode



                                                                     Orchid       Lab Corp




                                                         Reliagene




                                         Vendor Laboratories

                                         States participating in the In-house Program

                                         States participating in the Outsourcing Progam

                                         States participating in both the In-house and Outsourcing Programs

                                         States not participating in either the In-house or Outsourcing Programs


Source: In-house Program awards and Outsourcing Program contracts

Office of the Inspector General Audit Approach

      The Office of the Inspector General (OIG) conducted this audit to
evaluate the NIJ’s administration of the Backlog Reduction Program by
evaluating:

   •   the impact of the Backlog Reduction Program on reducing the
       convicted offender DNA backlog;

   •   the NIJ’s administration and oversight of the In-house Program;

       5
           Orchid has two laboratory locations, the headquarters is located in New Jersey and
the facility that performs the convicted offender DNA analysis is in Nashville, Tennessee.



                                            - iii -
   •   the extent to which the In-house Program award recipients have
       administered their awards in accordance with applicable laws,
       regulations, guidelines, and terms and conditions of the award;

   •   the NIJ’s oversight of the Outsourcing Program; and

   •   the compliance by vendor laboratories with contractual requirements.

      We conducted audit work at the NIJ, where we interviewed officials
responsible for administering and monitoring the Backlog Reduction
Program, examined In-house and Outsourcing Program files, and reviewed
other materials to assess the Backlog Reduction Program performance and
accomplishments. We also conducted audits of selected award recipients to
determine whether reimbursements claimed for costs under the In-house
Program were allowable, supported, and in accordance with applicable laws,
regulations, guidelines, and the terms and conditions of the award.
Additionally, we conducted site visits at two vendor laboratories to evaluate
vendor compliance with the terms and conditions of the contracts awarded
under the Outsourcing Program, as well as to assess the adequacy of the
NIJ’s oversight of the vendor laboratories.

      Finally, we conducted a national survey of all state and vendor
laboratories to collect statistics on each state’s backlog, as well as to obtain
feedback on the NIJ’s management and oversight of the Backlog Reduction
Program.

      The results of our audit are detailed in the Findings and
Recommendations section of this report, and Appendix I contains a more
detailed description of our audit objectives, scope, and methodology.

Results in Brief

      The national backlog of convicted offender DNA samples has been
reduced significantly as a result of efforts by the states to analyze their
backlog of convicted offender DNA samples. We found that the backlog of
DNA samples has been reduced by between 36 and 43 percent from FY 2005
through FY 2007. In addition, our audit found that the Backlog Reduction
Program has had a significant impact on this effort by the states, and has
funded the analysis, technical review, and upload of approximately
1.46 million of these backlogged convicted offender DNA samples during the



                                      - iv -
same time period. As of June 30, 2008, the analysis of 971,764 samples of
the approximately 1.46 million samples that have been funded has been
completed under the Backlog Reduction Program. Of those 971,764
analyzed, 617,550 have been uploaded to CODIS as of June 30, 2008.

      According to the state laboratories, the profiles corresponding to the
617,550 samples uploaded to CODIS under the Backlog Reduction Program
have generated 7,023 “hits” or matches that provide law enforcement with
investigative leads that would not otherwise have been developed. 6

       However, many states have received an influx of convicted offender
samples because of recent legislative changes that increase the number of
qualifying offenses and arrests for which samples from offenders can be
collected. As a result, even while the Backlog Reduction Program has been
successful at increasing the number of convicted offender samples that are
analyzed, the backlog may continue to grow.

      While we found the Backlog Reduction Program has resulted in an
increased analysis of DNA samples, we identified several awards to the state
laboratories where no financial or programmatic activity had occurred, which
delayed the entry of backlogged profiles into CODIS.

      We also determined that the NIJ continued to award In-house Program
funding to several state laboratories that had not utilized previous award
funding. 7 To prevent this situation from occurring in the future, the NIJ
added requirements to the FY 2008 In-house Program solicitation to reject
applications from laboratories with prior In-house Program awards that
remain entirely unobligated as of the posting date of the solicitation. Yet,
we found that despite these measures the NIJ continued to award In-house
Program funds to applicants that met this criteria.

     The OJP Financial Guide requires that the award recipients collect data
appropriate for facilitating reporting requirements established by the
Government Performance and Results Act (GPRA). The award recipient must
ensure that valid and auditable source documentation is available to support


       6
           Throughout the report, we refer to matches within the CODIS database as “hits.”
A “hit” is when one or more DNA profiles from a crime scene are linked to a convicted felon.
       7
          This condition was identified in a prior OIG audit. See U.S. Department of Justice
Office of the Inspector General, No Suspect Casework DNA Backlog Reduction Program,
Audit Report No. 05-02 (November 2004), 10, 12.



                                            -v-
all data collected for each performance measure specified in the In-house
Program solicitation.

      Based on the results of our individual audits of In-house Program
award recipients, we found that the majority of the state laboratories were
unable to provide auditable source documentation on the performance
information reported under the awards. As a result, we were unable to
verify the accuracy of the performance information reported to the NIJ by
the state laboratories. In our opinion, to comply with the requirements of
the OJP Financial Guide and ensure that the NIJ has reliable performance
data from which to accurately monitor the In-house Program, the NIJ should
require award recipients to establish an auditable mechanism to track the
performance data required under the In-house Program.

      We also found that although the NIJ required state laboratories
receiving In-house and Outsourcing Program funding to include information
on performance measures in quarterly performance metric reports
(performance reports), the NIJ did not adequately use the reported
information to evaluate the effectiveness of the individual awards and
contracts under the Backlog Reduction Program, or to manage the Backlog
Reduction Program.

      Finally, during our site visits of two vendor laboratories that received
awards under the Outsourcing Program, we found that in general vendor
invoices were accurate, and adequate controls were in place to ensure the
accuracy and integrity of samples. However, we identified several areas of
concern related to the timely completion and return of samples to the state
laboratories under the contracts awarded. We believe that as the liaison
between the state and vendor laboratory, the NIJ should work with both the
vendors and the state laboratories to ensure that the problems causing
delays to the analysis and uploading of DNA samples are resolved.

      Our report contains detailed information on the full results of our
audit, and includes 11 recommendations to assist the NIJ in its monitoring
and oversight of the Backlog Reduction Program participants. The remaining
sections of this Executive Summary describe in more detail our audit
findings.




                                     - vi -
Background

     The processing of convicted offender DNA samples involves collecting
DNA samples, analyzing the samples, technically reviewing the profiles, and
uploading the profiles into the CODIS database.

FIGURE 2. PROCESS OF CONVICTED OFFENDER DNA ANALYSIS




Source: OIG

      As shown in Figure 2, in certain states individuals convicted of or
arrested for a qualifying offense are required to provide a DNA sample. 8
These samples are collected by the states’ designated officials by drawing a
blood sample or collecting a “buccal” swab sample, which is a swabbing of
the inside of the cheek, from the individual. The sample is then sent to
the crime laboratory where analysts extract DNA from the sample and
develop a unique DNA profile by performing additional laboratory testing. 9
The resulting DNA profile is technically reviewed for accuracy and then
electronically uploaded into the CODIS database, which is linking known
offenders to crime scene evidence.

      When a state laboratory does not have sufficient resources to
complete any step in the overall process, including the collection of
convicted offender samples, a backlog is created. 10 The size of the backlog
in each state results from the number of crimes committed, the statutes

       8
         As of August 2008, 13 states allow for the collection of DNA samples from
arrestees, including Alaska, Arizona, California, Kansas, Louisiana, Maryland, Minnesota,
New Mexico, North Dakota, South Dakota, Tennessee, Texas, and Virginia.
       9
        A DNA profile consists of the actual DNA characteristics, which permit the DNA
from one person to be distinguished from that of another person.
       10
          For the purposes of this audit, the convicted offender backlog consists of samples
that have been collected but not uploaded into CODIS.



                                           - vii -
defining from whom samples can be collected, and available resources to
analyze the samples.

      In our national survey, 16 percent of the state laboratories reported
that they were aware of specific instances where additional crimes may have
been committed by an offender while that offender’s DNA sample was part of
the backlog in their state. 11

Backlog Reduction Program Performance

       While there is no single comprehensive resource that tracks or
estimates the backlog in local and state laboratories, we attempted to assess
the backlog to evaluate the effectiveness of the Backlog Reduction Program
in reducing the backlog of DNA samples. To this end, we interviewed NIJ,
vendor laboratory, and state laboratory officials and reviewed statistical
information contained in the performance reports, quarterly financial status
reports, and semiannual progress reports (progress reports) submitted by
each award recipient under the Backlog Reduction Program. Additionally, we
surveyed all state laboratories conducting analysis of convicted offender and
arrestee samples and all vendor laboratories with outsourcing contracts to
obtain statistical information of trends in the overall backlog and customer
satisfaction information concerning the NIJ’s oversight and management of
the Backlog Reduction Program.

       As illustrated in Chart 1, based on Backlog Reduction Program
statistics obtained from the NIJ and our survey of state laboratories, we
determined that the national backlog of convicted offender samples awaiting
analysis has declined since FY 2005. Specifically, as reported by the NIJ, the
number of samples awaiting analysis has decreased by 35.9 percent from
1,106,200 in FY 2005 to 708,706 in FY 2007. Likewise, the numbers
obtained from the OIG survey also indicated a decline, decreasing by
43.1 percent from 1,053,617 in FY 2005 to 599,622 in FY 2007.




       11
          See Appendix II, questions 11 and 12 for complete details concerning state
laboratories’ survey responses on the impact of the backlog.



                                          - viii -
CHART 1. CONVICTED OFFENDER SAMPLES AWAITING ANALYSIS

  1,800,000

  1,500,000
                    1,106,200                  1,138,072
  1,200,000

    900,000           1,053,617
                                             962,895                     708,706

    600,000
                                                                      599,622
    300,000

           0
                     FY 2005                 FY 2006                 FY 2007


                                NIJ Estimate           OIG Estimate



Source: The NIJ and OIG

       Additionally, we determined that the analysis of 971,764 convicted
offender samples, 617,550 of which have been uploaded into CODIS as of
June 30, 2008, can be attributed to the efforts of the Backlog Reduction
Program. This represents 19 percent of the 3.2 million convicted offender
profiles uploaded to CODIS from all funding sources, including funds from
states and other federal programs, between January 2006 and July 2008, as
noted in Chart 2. 12




      12
           The percentage of uploaded samples generated by the Backlog Reduction
Program was calculated by taking the number of profiles uploaded as a result of Backlog
Reduction Program funding as reported in the quarterly performance reports for both the
In-house and Outsourcing Programs (617,550) and dividing it by the total number of
profiles uploaded to CODIS between January 2006 and June 2008 as reported by the FBI
(3,187,923).



                                          - ix -
CHART 2. BREAKDOWN OF CODIS UPLOADS FROM JANUARY 2006
         TO JULY 2008 13

                                 5.5%


                                                  13.9%




                                                             Profiles Attributable to
                                                             Outsource Program
                                                             Profiles Attributable to
                                                             In-house Program
                                                             Profiles Attributable to
                                                             Other Funding Sources




     80.6%



Source: The NIJ and FBI

      As a result of the 617,550 profiles uploaded under the Backlog
Reduction Program, there were an additional 7,023 hits that provided law
enforcement with investigative leads that would not otherwise have been
developed. These hits represent 19 percent of the 37,110 hits that occurred
between January 2006 and June 2008, as noted in Chart 3. 14

      13
           Differences in totals throughout the report are due to rounding (the sum of
individual numbers prior to rounding may differ from the sum of the individual numbers
rounded).
      14
          The percentage of hits generated by the Backlog Reduction Program was
calculated by taking the number of hits generated with Backlog Reduction Program funding
as reported in the quarterly performance reports for both the In-house and Outsourcing
Programs (7,023) and dividing it by the total hits between January 2006 and June 2008 as
reported by the FBI (37,110).



                                          -x-
CHART 3. BREAKDOWN OF CODIS HITS FROM JANUARY 2006 TO
         JUNE 2008
                          3.5%

                                             15.4%




                                                     Hits Attributable to
                                                     Outsource Program
                                                     Hits Attributable to In-
                                                     house Program
                                                     Hits Attributable to
                                                     Other Funding Sources




     81.1%



Source: The NIJ and FBI

       Thus, our analysis indicates that the Backlog Reduction Program had a
positive impact on reducing the convicted offender backlog and increasing
the uploading of DNA profiles into CODIS for investigative leads. However, it
is important to note that we identified several inconsistencies and omissions
in the statistical information reported by NIJ, which prevent a complete
assessment of the overall Backlog Reduction Program performance. These
inconsistencies and omissions include double-counting of samples, reporting
of samples analyzed in excess of those funded, incorrectly reporting
cumulative statistics, and failure to submit required metric reports. These
issues are discussed in detail in Finding II of the report.

      As noted above, the backlog from FY 2005 through FY2007 has been
reduced in part due to funding provided by the Backlog Reduction Program.
However, to prevent a future increase in the backlog, state laboratories



                                    - xi -
require additional capacity to keep up with the expected increase in the
submission of samples as state legislation expands current state DNA
collection statutes to include more categories of offenders and arrestees.

Adequacy of the NIJ’s Administration and Oversight

      While our analysis indicated the Backlog Reduction Program is having
a positive impact on reducing the backlog, we identified several concerns
about the In-house and Outsourcing Programs. We believe that addressing
these concerns could improve the effectiveness of the Backlog Reduction
Program and further reduce the number of backlog samples in a more timely
manner.

       First, we found that the NIJ did not provide adequate guidance to the
state laboratories on how to collect and report performance information,
resulting in inaccuracies in the statistical information reported to the NIJ by
the state laboratories. We believe that the NIJ should:

   •   Develop a reliable and reasonable method for award recipients to
       determine the number of samples analyzed and uploaded using
       Backlog Reduction Program funds; and

   •   Ensure that the state laboratories submit required performance
       measures that include the number of samples analyzed and uploaded
       as well as the number of hits generated as a result of using In-house
       and Outsourcing Program funding.

      Second, we found significant delays to the start of several Backlog
Reduction Program awards, which caused over 180,000 convicted offender
samples to not be uploaded to CODIS in a timely manner. These Backlog
Reduction Program awards lacked any indication of activity in both financial
and programmatic reports that were submitted to the NIJ, suggesting that
award recipients may have encountered problems fulfilling the award
requirements or that the Backlog Reduction Program may not be meeting
the specific needs of the award recipient. To ensure that the Backlog
Reduction Program is successful, the NIJ should monitor both financial and
programmatic activity by individual award recipients and address any
problems to ensure that the overall objective of reducing the backlog is
accomplished.




                                     - xii -
       Finally, we found that the NIJ had awarded additional In-house
Program funds to state laboratories before they had utilized previous award
funding. In our judgment, awarding additional In-house Program funds
when previous funds have not yet been drawn down limits the amount of
funds that can be awarded to different laboratories that are in a position to
immediately utilize federal funds. Program officials acknowledged to us that
new awards were made to state laboratories that had not begun work on a
previous award. The NIJ therefore added language to the FY 2008 In-house
Program solicitation to reject applications from state laboratories with prior
awards that remain entirely unobligated as of the posting date of the
solicitation. However, despite these corrective measures, we determined
that the NIJ continued to award In-house Program funds to laboratories that
had yet to obligate any of the previous award funding before new awards
were made.

In-house Program Recipients Award Administration

       After the awards have been accepted by the state laboratories, the NIJ
is responsible for ensuring that the award recipients comply with the
requirements of the award. To determine whether the award recipients were
compliant with applicable laws, regulations, guidelines, and the terms and
conditions of the awards, we conducted audits of 8 selected state
laboratories awarded funds under the In-house portion of the Program.
These 8 state laboratories held 19 In-house Program awards totaling
approximately $11.49 million.

      Based on the results of the individual audits, we found that the state
laboratories were generally in compliance with the relevant laws, rules, and
regulations covering the Backlog Reduction Program, with the following
exceptions: (1) unallowable items purchased using award funds;
(2) unallowable overtime expenditures charged to the In-house Program;
and (3) funds that could be put to better use. In total, we questioned
$561,861 of the $11.49 million in awards.

      In addition, we found that several of these 8 state laboratories did not
maintain auditable source documentation for the performance information
reported to the NIJ, which is required under the OJP Financial Guide. Based
on the individual audits, we found that award recipients did not specifically
track the samples completed with funding from each award separately, or
distinguish samples analyzed using federal funds from samples analyzed
using other sources. We also found that some amounts reported on the



                                    - xiii -
performance reports included samples sent to contractors that were not
affiliated with the awards. As a result, we were unable to verify the
accuracy of the performance data reported to the NIJ by award recipients
funded under the In-house Program. We recommend that, to comply with
the requirements of the OJP Financial Guide and to ensure that the NIJ has
reliable performance data from which to accurately monitor In-house
Program performance, the NIJ should require award recipients to establish
an auditable mechanism to track the performance data required under the
In-house Program.

Adequacy of the NIJ’s Administration and Oversight of the
Outsourcing Program

      We conducted site visits of two vendor laboratories that received
awards under the Outsourcing Program. We found that these vendors
regularly performed quality and technical reviews of the convicted offender
samples analyzed, that in general the vendor invoices were accurate, and
that adequate controls were in place to ensure the accuracy and integrity of
samples.

      However, we identified several areas of concern related to the timely
completion and return of samples to the state laboratories under the
contracts awarded. We found that delays in the analysis of samples were
caused by:

  •   changes to the contract,

  •   equipment problems which reduced sample capacity,

  •   delays in receipt of payment preventing the purchase of supplies,

  •   low quality samples preventing DNA analysis, and

  •   staff turnover impacting the productivity of the vendor laboratories.

       As the liaison between the states and vendor laboratories, the
NIJ should implement policies and procedures to initiate conference
calls between vendors and state laboratories at the beginning of the
contracts to ensure that both parties are in agreement on the
interpretation of the terms of the statement of work. In addition, the
NIJ should implement regular communications with vendor and state



                                    - xiv -
laboratories to identify and address problems that arise throughout the
life of contracts to ensure that the goals and objectives of the
Outsourcing Program are met.

Conclusion

      Our audit found evidence that the Backlog Reduction Program has
contributed significantly to a reduction in the backlog of convicted offender
samples.

       However, while we identified a declining trend in the backlog of
convicted offender DNA samples from FY 2005 through FY 2007, due in part
to the Backlog Reduction Program, the overall backlog could grow in the
future due to circumstances outside of the control of either the NIJ or the
state laboratories. In particular, many states are considering expanding
current DNA collection statutes to include convictions and arrests for
additional qualifying offenses. If these legislative expansions are enacted
without an appropriate increase in funding for DNA analysis, state
laboratories will not have the capacity to handle the increase in DNA
submissions.

      It is important to note that our analysis relied on metrics reported to
the NIJ by the state laboratories; however, we also found that the NIJ did
not provide guidance to the state laboratories on collecting and reporting
performance information, which resulted in incomplete data.

      Additionally, we found that although the NIJ required state laboratories
receiving In-house and Outsourcing Program funding to include information
on performance measures in performance reports, the NIJ did not use the
reported information to manage its Backlog Reduction Program as a whole,
or to evaluate the effectiveness of the individual awards and contracts under
the Backlog Reduction Program.

       We also identified awards that lacked any indication of financial or
programmatic activity, delaying the entry of backlogged convicted offender
profiles into CODIS. We also identified state laboratories that had been
awarded new contracts when they had not yet used any of the funds from a
previous award.




                                    - xv -
Recommendations

      In this report, we make 11 recommendations to strengthen the NIJ’s
oversight and administration of the Backlog Reduction Program. Key
recommendations include:

  •   Providing improved guidance on reporting the performance
      information.

  •   Ensuring that performance reports are submitted timely and include all
      required performance measurement data for the Outsourcing Program.

  •   Summarizing and using the performance information reported by state
      laboratories to report on and evaluate the effectiveness of the Backlog
      Reduction Program.

  •   Monitoring financial and programmatic activities to determine if award
      funds are being utilized in a timely manner, and follow up with award
      recipients on any difficulties in using Backlog Reduction Program
      funds.

  •   Ensuring that award recipients substantially accomplish the objectives
      of an award before any new awards are funded.




                                   - xvi -
                                TABLE OF CONTENTS


INTRODUCTION ................................................................................ 1

     Combined DNA Index System .......................................................... 3

     National Institute of Justice ............................................................. 5

     Convicted Offender DNA Backlog Reduction Program .......................... 5

         Allowable Uses of Backlog Reduction Program Funding ................... 9

         Performance Measures Required under the Backlog Reduction
         Program.................................................................................. 10

     Prior Reviews ............................................................................... 11

     OIG Audit Approach ...................................................................... 12

FINDINGS AND RECOMMENDATIONS.............................................. 14

I.   IMPACT OF THE BACKLOG REDUCTION PROGRAM ON THE
     CONVICTED OFFENDER BACKLOG ............................................. 14

     NIJ Estimates of the Convicted Offender Backlog .............................. 15

     OIG Survey of State Laboratories Regarding the Convicted Offender
     Backlog ....................................................................................... 17

     Discrepancies in Statistical Information Regarding the Convicted
     Offender Backlog .......................................................................... 18

     Number of Convicted Offender Samples Awaiting Analysis ................. 20

     Number of Convicted Offender Samples Analyzed ............................. 22

     Number of Convicted Offender Profiles Uploaded into CODIS ............. 24

     Number of CODIS Hits Resulting from Profiles Reviewed ................... 25

     Effect of Expansions of DNA Collection Legislation on the Backlog....... 27

         Texas ..................................................................................... 29

         California ................................................................................ 29
        New York ................................................................................ 30

    Potential Impact of Adding Arrestees to Collection Legislation ............ 30

II. ADEQUACY OF THE NATIONAL INSTITUTE OF JUSTICE
    OVERSIGHT AND ADMINISTRATION OF THE BACKLOG
    REDUCTION PROGRAM ............................................................. 33

    Utilization of Backlog Reduction Program Funding ............................. 35

        In-house Program .................................................................... 35
            Analysis of Inactive Awards ................................................... 36
            Initial Drawdown Analysis ..................................................... 37
            Funds Awarded to Recipients without Previous
              Award Drawdowns ........................................................... 39

        Outsourcing Program ................................................................ 41

     Utilization of Performance Information Collected .............................. 43
        In-house Program .................................................................... 45
        Outsourcing Program ................................................................ 49

    OIG Analysis of Collected Performance Information .......................... 51

    Conclusion ................................................................................... 52

    Recommendations ........................................................................ 53

III. COMPLIANCE WITH IN-HOUSE PROGRAM REQUIREMENTS ..... 55

     Common Findings Identified .......................................................... 57
        Untimely Submission of Performance Reports .............................. 57
        Data Reported in Performance Reports Were Not Verifiable ........... 58

     Isolated Instances of Non-compliance ............................................. 59
        New Jersey Department of Law and Public Safety ......................... 59
            In-house Program Performance ............................................. 60

        Kansas Bureau of Investigation .................................................. 61
            In-House Program Performance ............................................. 61

        North Dakota Office of the Attorney General ................................ 62
         Georgia Bureau of Investigation ................................................. 63

         New York State Police Forensic Investigation Center ..................... 64
             In-House Program Performance ............................................. 64

         Missouri State Highway Patrol .................................................... 65
             In-House Program Performance ............................................. 65

         California Department of Justice ................................................ 65
             In-House Program Performance ............................................. 66

     Conclusion ................................................................................... 66

     Recommendation ......................................................................... 66

IV. VENDOR COMPLIANCE WITH THE CONTRACT
    REQUIREMENTS........................................................................ 67

     Orchid/Cellmark ........................................................................... 70
         Laboratory Information Management System .............................. 71
         Policies and Procedures............................................................. 72
         Contract Compliance ................................................................ 72
         Summary ................................................................................ 73

     Identity Genetics, Inc. .................................................................. 73
         Changes to the Contract ........................................................... 74
         Equipment Problems Reduced Sample Capacity ........................... 75
         Delays in Receipt of Payment Prevented Purchase of Necessary
           Supplies ............................................................................. 75
         Low Quality Samples Prevented DNA Analysis .............................. 75
         Staff Turnover ......................................................................... 76
         Summary ................................................................................ 76

     Conclusion ................................................................................... 76

     Recommendation ......................................................................... 77
STATEMENT ON INTERNAL CONTROLS ............................................ 78

     Finding II .................................................................................... 78

     Finding III ................................................................................... 78

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 79

APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ................. 80

APPENDIX II - CONSOLIDATED RESPONSES FOR THE
   OIG SURVEY OF OFFENDER LABORATORIES ............................. 81

APPENDIX III - CONSOLIDATED RESPONSES FOR THE
   OIG SURVEY OF VENDOR LABORATORIES ................................ 82

APPENDIX IV - FACTORS INFLUENCING THE BACKLOG .................. 83

     Potential Resource Issues .............................................................. 83

     State Legislation .......................................................................... 84

     Role of Sample Collection Agencies ................................................. 84

APPENDIX V - METHODOLOGY USED TO ESTIMATE IMPACT OF
   ARRESTEE LEGISLATION .......................................................... 85

APPENDIX VI - COMPONENTS OF THE CONVICTED OFFENDER
   BACKLOG .................................................................................. 86

APPENDIX VII - NIJ RESPONSE TO THE DRAFT REPORT ................139

APPENDIX VIII - OFFICE OF THE INSPECTOR GENERAL
    ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
    TO CLOSE THE REPORT ..........................................................160
                                 INTRODUCTION

       Advances in DNA technology provide law enforcement powerful new
tools to identify suspects from biological evidence where older techniques
could not. While this increase in the usage of DNA profiling is helping to
solve crimes and exonerate the innocent across the country, many public
and private crime laboratories are not fully equipped to handle the increased
demand for DNA testing. The increased demand for DNA analyses, without a
corresponding growth in forensic laboratory capacity, has caused a large
backlog of unanalyzed DNA samples from convicted offenders and crime
scenes, and this backlog can significantly delay criminal investigations.

      To aid in reducing this national convicted offender DNA sample backlog
the Department of Justice (DOJ) – through its Office of Justice Programs’
(OJP), National Institute of Justice (NIJ) – used approximately $14.5 million
appropriated by Congress under the Crime Information Technology Act to
fund the first year of the Convicted Offender DNA Backlog Reduction
Program (Backlog Reduction Program) in fiscal year (FY) 2000.

      To further promote the use of DNA technology, DOJ established a
strategic objective to increase the availability and use of technological
resources for combating crime. To this end, in 2004, DOJ implemented a
5-year, $1 billion DNA initiative to improve the capacity to solve crimes
using DNA evidence by eliminating casework and convicted offender
backlogs, funding research and development, improving crime laboratory
capacity, and providing training for all stakeholders in the justice system.

      In support of this DNA initiative, Congress passed annual
appropriations of $151 million for each FY 2005 through FY 2009 for various
DNA programs, including funding to help states reduce the backlog of
convicted offender samples awaiting analysis and entry into the Combined
DNA Index System (CODIS) maintained by the Federal Bureau of
Investigation (FBI). 15

      As a result, DOJ – through its OJP, NIJ – has funded several programs
to assist governments in implementing, expanding, or improving their use of
DNA technology, by initiating programs to strengthen DNA capabilities in



      15
          CODIS is a national DNA-profile matching service administered by the FBI, which
is comprised of databases containing DNA profiles from crime scenes, convicted offenders
and arrestees, and missing persons.


                                          -1-
state and local laboratories. 16 This audit focuses on the Backlog Reduction
Program, which provides funds to states with existing laboratories that
conduct DNA analysis of convicted offender or arrestee DNA samples to
reduce their backlog of such samples. 17 These funds are intended to support
completion of additional analyses at the state laboratories, or enable the
laboratories to send samples to accredited fee-for-service laboratories
(vendor laboratories) for analysis.

     Other DNA programs included in the $1 billion DNA initiative and
funded by NIJ include:

   •   Forensic Casework DNA Backlog Reduction Program. The goal of this
       program is to assist eligible states and local governments to reduce
       the backlog of DNA samples gathered from crime scenes and victims
       awaiting analysis and entry into CODIS and to decrease the amount of
       time required by public DNA laboratories to analyze and upload crime
       scene and victim DNA samples. 18

   •   DNA Capacity Enhancement Program. This program seeks to improve
       the infrastructure and analysis capacity of existing state and local
       crime laboratories that conduct DNA analysis so they can process DNA
       samples efficiently and cost-effectively.

   •   DNA Research and Development. This program funds research and
       development to enhance the forensic uses of DNA technology. It
       focuses on developing technologies that result in faster, more robust,
       more informative, less costly, or less labor-intensive identification,
       collection, preservation, or analysis of DNA evidence collected from
       crime scenes.

   •   Forensic Science Training Development and Delivery Program. In
       2007, the NIJ awarded funding to 13 training providers to develop or

       16
           The NIJ is the research, development, and evaluation part of OJP that examines
crime control and justice issues. Within the NIJ, the Office of Science and Technology
manages technology research and development, development of technical standards,
testing, forensic sciences capacity building, and technology assistance to state and local law
enforcement and corrections agencies.
       17
         The Backlog Reduction Program is authorized under the Debbie Smith Act of
2004, 42 U.S.C. § 14135 (2006), and includes annual appropriations of $151 million for
FYs 2005 through 2009.
       18
         In 2007, NIJ combined the Forensic DNA Capacity Enhancement and Forensic
Casework Backlog Reduction Programs into the Forensic DNA Backlog Reduction Program.


                                            -2-
       deliver knowledge-based forensic science curricula for the state and
       local forensic science community.

   •   Solving Cold Cases with DNA Evidence. Through this program the NIJ
       supported law enforcement agencies’ efforts to solve old violent crime
       cases known as “cold cases,” by funding the analysis of DNA evidence
       for FYs 2005 and 2007 in “cold cases” that have the potential to be
       solved through DNA testing.

   •   DNA Missing Persons. This program funded various research and
       testing of unidentified human remains for FYs 2005 and 2006.

TABLE 1. DNA PROGRAMS AND FUNDING FOR FYs 2005 - 2007 19
                                             FY 2005           FY 2006           FY 2007
                PROGRAM                      FUNDING           FUNDING           FUNDING
 Convicted Offender DNA Backlog
   Reduction Program                          $8,067,922       $20,160,240      $13,117,740
 Forensic DNA Backlog Reduction
   Program                                             ---               ---     44,239,199
 Forensic Casework DNA Backlog
   Reduction                                  18,077,578        17,327,935                 ---
 DNA Capacity Enhancement Program             29,699,654        37,647,704                 ---
 DNA Research and Development                  7,795,256         2,164,109         4,048,563
 Forensic Science Training
   Development and Delivery                            ---               ---       9,202,817
 Solving Cold Cases With DNA
   Evidence                                   14,245,153                 ---       8,748,330
 DNA Missing Persons                           1,768,650         1,000,000                 ---
                TOTALS                     $79,654,213       $78,299,988       $79,356,649
Source: DNA.gov and the NIJ

Combined DNA Index System

      The FBI has provided the law enforcement community with CODIS, a
national DNA profile matching service comprised of databases containing




       19
           Differences in totals throughout the report are due to rounding, e.g., the sum of
individual numbers prior to rounding may differ from the sum of the individual numbers
rounded.


                                            -3-
DNA profiles from crime scenes, convicted offenders and arrestees, and
missing persons. 20

      The FBI began the CODIS program as a pilot project in 1990. The
DNA Identification Act of 1994 (Act) authorized the FBI to establish a
national index of DNA profiles for law enforcement purposes. The Act, along
with subsequent amendments, has been codified in federal statutes to
provide the legal authority to establish and maintain the national index. 21

       The federal statute authorizes the national index to contain the DNA
identification records of persons convicted of crimes, persons who have been
charged with a crime, and other persons whose DNA samples are collected
under applicable legal authorities. Samples voluntarily submitted solely for
elimination purposes are not authorized for inclusion in the national index.
The federal statute also authorizes the national index to include analysis of
DNA samples recovered from crime scenes or from unidentified human
remains, as well as those voluntarily contributed from relatives of missing
persons.

       The FBI implemented CODIS as a          FIGURE 1. CODIS HIERARCHY
database with three hierarchical levels
                                                  NATIONAL DNA INDEX SYSTEM
that enables federal, state, and local crime
laboratories to compare DNA profiles
                                                   STATE DNA INDEX SYSTEM
electronically. The three distinct levels are:
NDIS, managed by the FBI as the nation’s
                                                   LOCAL DNA INDEX SYSTEM
DNA database containing DNA profiles
uploaded by participating states; the State
DNA Index System (SDIS) serving as each state’s DNA database containing
DNA profiles from local laboratories; and the Local DNA Index System
(LDIS), used by local laboratories. DNA profiles originating at the local or
state level flow upward to the state and national levels. A laboratory’s
profiles need to be uploaded to NDIS before they are accessible for
comparison.

      NDIS is the highest level in the CODIS hierarchy and enables the
laboratories participating in the CODIS program to compare DNA profiles on
a national level. Each state participating in CODIS has one designated SDIS


       20
         A DNA profile consists of the actual DNA characteristics, which permit the DNA of
one person to be distinguished from that of another person.
       21
            42 U.S.C. § 14132 (2007)


                                           -4-
laboratory. 22 The SDIS laboratory maintains its own database and is
responsible for overseeing NDIS communications for all CODIS-participating
laboratories within the state.

National Institute of Justice

      The NIJ is the research, development, and evaluation agency of DOJ.
The NIJ’s mission is to provide objective, independent, evidence-based
knowledge and tools to meet the challenges of crime and justice, particularly
at the state and local levels. 23

Convicted Offender DNA Backlog Reduction Program

       When an individual is convicted of a qualifying offense, or arrested for
a qualifying offense in certain states, the individual is required to provide a
DNA sample. 24 These samples are collected by the states’ designated
officials by drawing a blood sample or taking a “buccal” swab sample, which
is a swabbing of the inside of the cheek from the individual. The sample is
then sent to the crime laboratory where analysts extract DNA from
the sample and develop a unique DNA profile by performing additional
laboratory testing. The resulting DNA profile is technically reviewed for
accuracy and electronically uploaded into the CODIS database, which is
linking known offenders to crime scene evidence. If a state laboratory does
not have sufficient resources to complete any step in the overall process,
including the collection of convicted offender samples, a backlog is created. 25
The size of the backlog in each state is affected by various statutes,
available resources, and the number of crimes committed.


       22
          Each state has a single designated SDIS laboratory that processes convicted
offender samples. However, Nevada also uses an LDIS laboratory to process convicted
offender samples. Therefore, throughout this report, the reference to state laboratories
includes the 50 SDIS laboratories, plus the 1 Nevada LDIS laboratory, that process
convicted offender samples.
       23
          The NIJ's principal authorities are derived from the Omnibus Crime Control and
Safe Streets Act of 1968, as amended (42 U.S.C § 3722 (2006)) and Title II of the
Homeland Security Act of 2002 (6 U.S.C. § 162 (2007)).
       24
           As of August 2008, 13 states allow for the collection of DNA samples from
arrestees; however, the impact of an expansion of collection legislation can have a large
affect on the backlog, as well as the performance of the Backlog Reduction Program. A
more detailed discussion on the potential impact of changes in collection legislation is
discussed later in this report on page 27.
       25
            Appendix VI provides a more detailed discussion of the components of the DNA
backlog.

                                            -5-
       We conducted a national survey of all state and vendor laboratories to
collect statistics on each state’s backlog, as well as to obtain feedback on the
NIJ’s management and oversight of the Backlog Reduction Program. In our
survey, 16 percent of the state laboratories reported that they were aware
of specific instances where additional crimes may have been committed by
an offender while that offender’s DNA sample was part of the backlog in
their state. 26

      As shown in Figure 2, the processing of convicted offender DNA
samples involves collecting the samples, analyzing those samples,
technically reviewing the profiles, and uploading the profiles into the CODIS
database.

FIGURE 2. PROCESS OF CONVICTED OFFENDER DNA ANALYSIS




Source: Office of the Inspector General

       To this end, the Backlog Reduction Program offers an opportunity for
states with existing laboratories that conduct DNA analysis of samples from
convicted offenders or arrestees to reduce the backlog of such samples,
either by in-house analysis or by sending samples to vendor laboratories for
analysis. Specifically, the objective of the Backlog Reduction Program is to
accelerate the analysis of convicted offender and arrestee DNA samples
collected by states in order to provide timely CODIS-compatible data for
state and national DNA databases. 27 The Backlog Reduction Program has
two parts: funding to states to reduce their backlog of samples through
in-house analysis (In-house Program), and payment for the analysis of


       26
          See Appendix II, questions 11 and 12 for complete details concerning state
laboratory’s survey responses on the impact of the backlog.
       27
         For purposes of this audit, the convicted offender backlog is those samples that
have been collected but either not analyzed or uploaded into CODIS. See Appendix VI for a
complete explanation of the components of the convicted offender backlog.


                                          -6-
samples by vendor laboratories on behalf of the states (Outsourcing
Program).

      As shown in Figure 3, between FYs 2005 and 2007, 39 states received
funding totaling $41.3 million to analyze 1.46 million DNA samples. Of the
39 states, 15 participated in the In-house Program only, 15 participated in
the Outsourcing Program only, and 9 participated in both programs.
Figure 3 also indicates the names and locations of the six vendor
laboratories that participated in the Outsourcing Program.

FIGURE 3. VENDOR AND STATE LABORATORIES PARTICIPATION IN
          THE BACKLOG REDUCTION PROGRAM 28




                                     Identity


                                                                                       Orchid

                                                              Strand
                                                                                    Bode



                                                                 Orchid       Lab Corp




                                                     Reliagene




                                     Vendor Laboratories

                                     States participating in the In-house Program

                                     States participating in the Outsourcing Progam

                                     States participating in both the In-house and Outsourcing Programs

                                     States not participating in either the In-house or Outsourcing Programs


Source: In-house Program awards and Outsourcing Program contracts




       28
          Orchid has two laboratory locations, the headquarters is located in New Jersey
and the facility that performs the convicted offender DNA analysis is in Nashville,
Tennessee.

                                            -7-
       Funds for the In-house Program are to be used by a state's designated
existing and accredited DNA database laboratory to reduce the backlog of
convicted offender DNA database samples through in-house analysis of
samples or through in-house technical review of DNA profiles generated by
vendor laboratories. As shown in Table 2, the awards under the In-house
Program totaled approximately $4.7 million in FY 2005, $6.7 million in
FY 2006, and $5.5 million in FY 2007. As a result of these awards, the NIJ
funded the analysis or technical review of 676,138 backlog samples between
FYs 2005 and 2007.

TABLE 2. IN-HOUSE PROGRAM AWARDS FOR FYs 2005 - 2007 29
            FY 2005       SAMPLES      FY 2006       SAMPLES      FY 2007     SAMPLES
  STATE       FUNDS       FUNDED        FUNDS        FUNDED        FUNDS      FUNDED
   AL         $863,280      28,776       $396,000      13,200       $528,000   13,200
   AK               ---         ---        87,500       3,500        160,000    4,000
   CA          756,927      30,000        756,297      32,723             ---      ---
   CT               ---         ---            ---         ---        17,250    3,450
   DE           42,494       1,903             ---         ---        33,000      825
   GA          200,000       8,000        294,000      11,760        603,400   21,500
    IL          80,094      29,432         16,175       2,750             ---      ---
   KS          227,213       7,680        248,238       9,040             ---      ---
   KY           53,313       1,800         73,381       2,308             ---      ---
   MA               ---         ---            ---         ---        50,000   10,000
   MI               ---         ---            ---         ---       372,256   11,633
   MO          266,998      12,493        254,471      12,500             ---      ---
   NV          118,800       3,690             ---         ---            ---      ---
   NV          $66,227       2,257             ---         ---            ---      ---
   NH               ---         ---            ---         ---        46,000    1,250
   NJ        1,375,407      56,700        615,829      23,491             ---      ---
   NY          237,000       7,900        825,000      27,500      1,000,000   25,000
   ND               ---         ---        52,500       2,100         57,200    1,430
   OK               ---         ---        22,471      20,000         50,730   10,146
   OR               ---         ---            ---         ---       384,000    9,600
   PA               ---         ---       953,203      41,268             ---      ---
   TX          419,391      19,552      1,517,288      76,438      1,781,320   44,533
   VT           39,566       1,320         76,843       2,600         43,600    1,090
   VA               ---         ---            ---         ---       360,000    9,000
   WA               ---         ---       480,412      16,800             ---      ---
 TOTALS    $4,746,710     211,503     $6,669,608     297,978     $5,486,756 166,657
Source: The NIJ


      29
          Samples funded include quality assurance/quality control samples, in-house
backlog analysis, and in-house technical review of profiles generated by a vendor
laboratory.


                                          -8-
       Additionally, through the Outsourcing Program, the NIJ contracts
directly with vendor laboratories on behalf of the states so that states may
outsource the analysis of their backlogged samples. 30 Outsourcing contracts
totaled approximately $24.4 million for FYs 2005 through 2007 to analyze
786,669 backlog samples. Table 2 shows the outsourcing contracts for each
vendor in FYs 2005 through 2007.

TABLE 3. CONTRACTS AWARDED UNDER THE OUTSOURCING
         PROGRAM FOR FYs 2005 - 2007
                  FY 2005      SAMPLES   FY 2006     SAMPLES  FY 2007    SAMPLES
    VENDOR         FUNDS       FUNDED     FUNDS      FUNDED    FUNDS     FUNDED
 Bode                   $---        ---  $3,624,818 134,236 $1,454,350    29,300
 Identity                ---        ---   3,039,916 106,722          ---      ---
 Lab Corp                ---        ---          ---      --- 2,290,634   78,290
 Orchid           1,386,876     49,646    5,765,872 153,303   2,630,600   93,950
 ReliaGene        1,934,336     69,207    1,060,025   31,015  1,085,000   35,000
 Strand                  ---        ---          ---      ---   170,400    6,000
 TOTALS         $3,321,212     118,853 $13,490,632 425,276 $7,630,984 242,540
Source: OJP Grant Management System

Allowable Uses of Backlog Reduction Program Funding

      In general, the NIJ limits awards under the Backlog Reduction Program
to a maximum of 12 months. 31 For FYs 2005 through 2007, all expenditures
were required to relate directly to in-house analysis and technical review of
DNA database samples by the state's designated DNA database laboratory or
the technical review of vendor-generated profiles by the state’s designated
DNA database laboratory. In FY 2006, authorized use of funding was
expanded to include consultant and contractor technical review of profiles,
and in FY 2007 was expanded further to include salaries and benefits of
additional employees, laboratory and computer equipment, laboratory
renovations, and software. As shown in Table 4, for FYs 2005 through 2007,
the following types of expenditures were allowable under the In-house
Program:


       30
          Vendor laboratories are contracted through the U.S. General Services
Administration (GSA). The NIJ awards delivery orders for the analysis of backlogged
samples to vendor laboratories on behalf of the states participating in the Outsourcing
Program. Throughout this report we refer to the delivery orders as contracts.
       31
           According to the In-House Program solicitations, the NIJ may elect to extend an
award for an additional 6 months if the award recipient provides documentation that its DNA
analysis laboratory is accredited by a nonprofit professional association actively involved in
forensic science and nationally recognized within the forensic science community.


                                            -9-
TABLE 4. EXPENDITURES ALLOWED UNDER THE IN-HOUSE
         PROGRAM FOR FYs 2005 - 2007
               TYPE OF EXPENDITURE             FY 2005         FY 2006         FY 2007
 Overtime                                          √               √              √
 Supplies 32                                       √               √              √
                           33
 Administrative Expenses                           √               √              √
 Consultant and Contractor Services for
                                                   ---             √              √
    Data Review
 Salary and Benefits of Additional
                                                   ---            ---             √
    Laboratory Employees
 Laboratory and Computer Equipment for
                                                   ---            ---             √
    the DNA database laboratory

 Renovations                                       ---            ---             √

 Software, such as expert systems and
    Laboratory Information Management              ---            ---             √
    Systems
Source: In-house Program solicitations for FYs 2005, 2006, and 2007

Performance Measures Required under the Backlog Reduction Program

       To ensure compliance with the Government Performance and Results
Act (GPRA), 31 U.S.C § 1115 (2007), award recipients are required to collect
and report data that measures the results of the awards implemented under
the Backlog Reduction Program. As shown in Table 5, to assist in fulfilling
DOJ’s responsibilities under GPRA, the NIJ requires award recipients to
collect and report data relevant to these measures on a quarterly basis.

TABLE 5. PERFORMANCE MEASURES REQUIRED UNDER THE
         IN-HOUSE PROGRAM FYs 2005 – 2007
 OBJECTIVE
     To reduce the backlog of convicted offender and/or arrestee DNA samples (DNA
     database samples)




       32
          Funds may be used to acquire commercially available Polymerase Chain Reaction
(PCR) kits accepted by NDIS and other laboratory supplies for analysis of DNA database
samples, including analysis of quality assurance samples.
       33
         Up to 3 percent of the federal portion of the award may be used for administrative
expenses directly related to the performance of the project.


                                          - 10 -
 PERFORMANCE MEASURE
     Percent reduction in the convicted offender DNA sample backlog
 DATA TO BE PROVIDED BY AWARD RECIPIENTS 34                 FY 2005    FY 2006     FY 2007
     The number of convicted offender samples awaiting
                                                                √          √          √
     analysis at the beginning of the award period
     The number of convicted offender samples analyzed
                                                                √          √          √
     using In-House Program funds
     The number of convicted offender profiles
     developed using In-House Program funds entered             √          √          √
     into CODIS
     The number of CODIS hits resulting from profiles
                                                                √          √          √
     developed from In-House Program funds
     The number of convicted offender samples awaiting
     review at the beginning of the award period, due to       ---         √          √
     lack of laboratory resources
 DATA TO BE PROVIDED BY AWARD RECIPIENTS                    FY 2005    FY 2006     FY 2007
     The number of convicted offender samples reviewed
                                                               ---         √          √
     using In-House Program funds
     The number of reviewed convicted offender profiles
                                                               ---         √          √
     entered into CODIS using In-House Program funds
     The number of CODIS hits resulting from profiles
                                                               ---         √          √
     reviewed from In-House Program funds
Source: In-House Program solicitations for FYs 2005, 2006, and 2007

Prior Reviews

       In May 2002 the Office of the Inspector General (OIG) issued Audit
Report No. 02-20, The Office of Justice Programs Convicted Offender DNA
Sample Backlog Reduction Grant Program, in which we examined the
Backlog Reduction Program in order to: (1) assess its impact on the
backlog; (2) evaluate the administration of the Backlog Reduction Program;
and (3) assess compliance by states and contractor laboratories with
legislative and Backlog Reduction Program requirements.




       34
           In the FY 2006 solicitation, NIJ approved funds to be used to hire consultants and
temporary contract staff to conduct data review of convicted offender DNA profiles that, due
to the lack of laboratory resources, have yet to be reviewed and entered into CODIS. These
consultants or contract laboratory personnel must meet all NDIS requirements concerning
the use of outside consultants for the review of DNA data.

                                           - 11 -
       The OIG audit concluded that OJP needed to improve its monitoring of
the Backlog Reduction Program’s progress toward achieving its stated
performance measurements. While OJP tracked the Backlog Reduction
Program’s progress, OJP was not gathering the correct data and statistics
necessary to accurately monitor and report that progress. Additionally, the
report concluded that OJP needed to develop and implement written
procedures to ensure that grant officials followed up when grantees failed to
comply with grant requirements or failed to file grant reports on a timely
basis.

       In November 2004, the OIG issued Audit Report No. 05-02, The No
Suspect Casework DNA Backlog Reduction Program, a program designed to
help the state laboratories identify, collect, and analyze forensic DNA
samples from evidence collected in cases where no suspect has been
identified or in which the original suspect had been eliminated. Our audit
found inconclusive data on the success of the Casework Backlog Reduction
Program in increasing the capacity of state laboratories to process and
analyze crime-scene DNA in cases in which there are no known suspects,
delays of almost 2 years in drawdowns from grantees, and delays in
reviewing DNA samples resulting in profiles paid for by the Casework
Backlog Reduction Program not being entered into CODIS. The audit also
revealed deficiencies in OJP’s administration and oversight of the Casework
Backlog Reduction Program. We found that OJP had issued second-year
awards to grantees that had not fully spent the first year’s awards, released
inconsistent requirements for contract laboratories versus state run
laboratories, and failed to ensure that profiles generated with grant funds
were entered into CODIS to benefit the national DNA database.

OIG Audit Approach

      The OIG conducted this audit to assess the NIJ’s administration of the
Backlog Reduction Program by evaluating:

   •   the impact of the Backlog Reduction Program on reducing the
       convicted offender DNA backlog;

   •   the NIJ’s administration and oversight of the In-house Program;

   •   the extent to which the In-house Program award recipients have
       administered their awards in accordance with applicable laws,
       regulations, guidelines, and terms and conditions of the award;



                                    - 12 -
   •   the NIJ’s oversight of the Outsourcing Program; and

   •   the compliance by vendor laboratories with contractual requirements.

      We conducted audit work at the NIJ, where we interviewed officials
responsible for administering and monitoring the Backlog Reduction
Program, examined In-house and Outsourcing Program files, and reviewed
other materials to assess the Backlog Reduction Program performance and
accomplishments. We also conducted audits of several award recipients to
determine whether reimbursements claimed for costs under the In-House
Program were allowable, supported, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the award. Additionally,
we conducted site visits at two vendor laboratories to evaluate vendor
compliance with the terms and conditions of the contracts awarded under
the Outsourcing Program, as well as to assess the adequacy of the NIJ’s
oversight of the vendor laboratories.

      Finally, we conducted a national survey of all state and vendor
laboratories to collect statistics on each state’s backlog, as well as to obtain
feedback on the NIJ’s management and oversight of the Backlog Reduction
Program.

     The results of our audit are detailed in the Findings and
Recommendations section of this report, and the audit objectives, scope,
and methodology are presented in Appendix I.




                                     - 13 -
                 FINDINGS AND RECOMMENDATIONS

I.    IMPACT OF THE BACKLOG REDUCTION PROGRAM ON THE
      CONVICTED OFFENDER BACKLOG

      The backlog of convicted offender DNA samples awaiting analysis
      has declined significantly. Based on our analysis, the backlog
      has fallen from FY 2005 through FY 2007 by between
      35.9 percent and 43.1 percent. It appears that the Backlog
      Reduction Program has played an important role in this reduction
      by increasing the number of convicted offender samples
      analyzed and uploaded to CODIS. Of the approximately
      1.46 million samples funded under the Backlog Reduction
      Program, 971,764 have been analyzed and 617,550 uploaded
      into CODIS as of June 30, 2008, which represents 19 percent of
      the total number of convicted offender profiles uploaded to
      CODIS between January 2006 and July 2008. We found that
      these Backlog Reduction Program-funded uploaded profiles
      generated 7,023 “hits” or matches that provide law enforcement
      with investigative leads that would not otherwise have been
      developed 35. This represents 19 percent of the 37,110 hits that
      occurred during this time period.

       The NIJ requires award recipients to collect and report data that
measures the results of the awards implemented under the Backlog
Reduction Program in order to measure the overall performance of the
Backlog Reduction Program in reducing the backlog. The ability to increase
the number of hits between forensic case samples and convicted offender
profiles is directly related to the number of convicted offender DNA profiles
entered into CODIS. To this end, each state receiving Backlog Reduction
Program funds should be able to demonstrate an increase in the number of
CODIS compatible DNA profiles generated from convicted offender samples,
either through the In-house or the Outsourcing Program, above and beyond
what a state’s convicted offender laboratory could accomplish in the absence
of the Backlog Reduction Program.



      35
           The FBI refers to matches within the CODIS database that provide law
enforcement with investigative leads that would not otherwise have been developed as
“hits.” A “hit” is when one or more DNA profiles from a crime scene are linked to a
convicted felon.

                                         - 14 -
       We note that the size and trend of the backlog is a function of the
difference between the number of samples a laboratory receives and the
number of samples a laboratory is capable of analyzing. As described in
greater detail later in this section, many states are receiving an influx of
convicted offender samples because of recent legislative changes that
increase the number of qualifying offenses and arrests for which samples
from offenders can be collected. Thus, even while the Backlog Reduction
Program may be successful at increasing the number of convicted offender
samples that are analyzed, the backlog may continue to grow because of an
increase in the number of samples that are collected.

      While there is no single comprehensive measure that tracks or
estimates the backlog in local and state laboratories, we attempted to
evaluate the backlog. To evaluate the effectiveness of the Backlog
Reduction Program in reducing the number of backlog samples, we
interviewed NIJ officials and reviewed statistical information contained in the
quarterly performance metrics reports (performance reports), quarterly
financial status reports, and semiannual progress reports (progress reports)
submitted by each award recipient under the Backlog Reduction Program.
Additionally, we surveyed all state laboratories conducting convicted
offender/arrestee analysis and vendor laboratories with outsourcing
contracts to obtain statistical information of trends in the overall backlog and
customer satisfaction information concerning the NIJ’s oversight and
management of the Backlog Reduction Program. 36

NIJ Estimates of the Convicted Offender Backlog

      In general, according to the NIJ, funding under the Backlog Reduction
Program is awarded based on the number of backlog samples awaiting
analysis, as well as the number of samples projected to be analyzed during
the award period with federal funds. Each year the NIJ obtains estimates of
the backlog from state laboratories to plan future funding under the Backlog
Reduction Program. States are asked to report the number of backlogged
samples currently awaiting analysis and provide estimates of the number of
backlogged samples anticipated to be received by the end of the fiscal year.

      As shown in Chart 1, the NIJ surveys suggested a reduction in the
backlog from FYs 2005 through 2007.

       36
         For a detailed discussion of the NIJ’s administration and oversight of the Backlog
Reduction Program, see Finding II.



                                          - 15 -
CHART 1. NIJ ESTIMATES OF THE CONVICTED OFFENDER BACKLOG
         FOR FYs 2005 THROUGH 2007

                              1,800,000

                              1,600,000
  No. of Backlogged Samples




                              1,400,000




                                                  0
                                                  0
                                               ,2
                                              6
                                              0
                              1,200,000




                                                                   5
                                          ,1




                                                                   9
                                          1




                                                               ,8
                                                               2
                                                               6
                              1,000,000




                                                           9




                                                                             6
                                                                             0
                                                                            ,7
                                                                         8
                               800,000




                                                                        0
                                                                        7
                               600,000

                               400,000

                               200,000

                                     0
                                              2005             2006      2007
                                                          Fiscal Year


Source: The NIJ

      However, the data provided by the NIJ for the FY 2005 backlog
estimate was calculated based on the number of samples that were funded
under the Backlog Reduction Program, rather than the actual number of
backlogged samples awaiting analysis in each state. For FY 2005, the NIJ
reported the number of samples funded under the In-house Program
(211,853) added to the number of samples funded under the Outsourcing
Program (894,347) to arrive at its estimate of 1,106,200 backlogged
samples. 37

    In FY 2006, the NIJ’s backlog estimate was calculated by adding the
number of uncompleted carry-over FY 2005 backlogged samples (253,196)

                              37
          The total number of samples funded under the outsourcing portion for FY 2005
(894,347) was calculated by adding the number of mandatory (533,991) and optional
(360,356) outsourced Contract Line Item Numbers (CLINs) for FYs 2003 through 2005,
which carried over into FY 2005.

                                                      - 16 -
and the total FY 2006 backlogged samples (709,699), as reported to the NIJ
by states requesting funding, to arrive at its estimate of 962,895 backlogged
samples.

       By contrast, in FY 2007 the NIJ conducted a survey of all state
laboratories to obtain a national estimate of the backlog. This survey
requested the number of convicted offender and arrestee samples on hand
as of May 2007 and the number of convicted offender and arrestee samples
anticipated to be received between May and September 2007. The results of
this survey placed the national estimate of the backlog at 708,706
unanalyzed samples as of September 30, 2007.

     Since the NIJ’s convicted offender backlog estimates in FY 2005 were
based upon the amount funded instead of the actual backlog and FY 2006
and FY 2007 estimates relied on the states to project the number of samples
expected at the end of the fiscal year, we conducted our own survey in an
attempt to assess the accuracy of the NIJ’s backlog estimates.

OIG Survey of State Laboratories Regarding the Convicted Offender
Backlog

      In addition to assessing the size of the backlog, our survey was
designed to obtain feedback on a variety of topics from state laboratories
conducting convicted offender analysis and vendor laboratories with
outsourcing contracts. We sought information on current and past backlogs
and the factors that might have influenced the growth or reduction of those
backlogs from FY 2005 through FY 2007.

      We received 51 responses from state laboratories conducting convicted
offender analysis and 5 responses from vendor laboratories with outsourcing
contracts, which represents a 100 percent response rate.

      We analyzed survey results to detect commonalities of responses and
consensus of opinions. As part of this analysis, we tabulated responses for
all questions, identified trends in supplemental comments, and identified any
potential weaknesses from the consensus responses and comment trends.
The results of our analysis of the survey can be found in Appendices II and
III and are referenced throughout this report where applicable.

      To estimate the overall backlog, in our survey we asked each state
laboratory to report the total number of convicted offender and arrestee


                                   - 17 -
samples awaiting analysis at the end of FYs 2005 through 2007. As shown
in Chart 2, our surveys placed the backlog for FYs 2005 through 2007 at
1,053,617; 1,138,072; and 599,622.

CHART 2. OIG ESTIMATES OF THE CONVICTED OFFENDER BACKLOG
         FOR FISCAL YEARS 2005 THROUGH 2007

                              1,800,000

                              1,600,000




                                                                   2
  No. of Backlogged Samples




                              1,400,000




                                                                   7
                                                                ,0
                                                  7
                                                  1




                                                               8
                                               ,6




                                                               3
                                                           ,1
                                              3


                              1,200,000
                                              5




                                                           1
                                          ,0
                                          1




                              1,000,000




                                                                             2
                               800,000




                                                                             2
                                                                            ,6
                                                                        9
                                                                        9
                                                                        5
                               600,000

                               400,000

                               200,000

                                     0
                                              2005             2006     2007
                                                          Fiscal Year


Source: OIG national survey of state laboratories

Discrepancies in Statistical Information Regarding the Convicted
Offender Backlog

      In our analysis of the impact of the Backlog Reduction Program on the
convicted offender backlog, we compared numbers obtained from our survey
of state laboratories with the results of the annual survey conducted by the
NIJ. As shown in Table 6, we often found significant discrepancies between
the data we received and data collected by the NIJ.




                                                      - 18 -
TABLE 6. COMPARISON OF NIJ AND OIG BACKLOG DATA
                           NIJ DATA                         OIG SURVEY DATA
   STATE      FY 2005      FY 2006      FY 2007      FY 2005   FY 2006     FY 2007
    AL         95,015       17,552       13,200        50,277    16,946      3,832
    AZ         76,273       24,010       35,000        52,634    49,117     51,192
    CA         30,000       50,000       30,000       215,667   251,885     60,189
    LA         10,000      18,530        121,355       100,000     82,108         45,236
Source: The NIJ and OIG

      Some of the discrepancies between backlogs reported each year to the
NIJ and the backlogs reported in our survey were significant, such as in the
case of Louisiana for FY 2005, where 10,000 backlog samples were reported
to the NIJ but 100,000 samples were reported to the OIG. These differences
may be attributable to the fact that the NIJ asked states to estimate the
number of samples that the state anticipated receiving, as well as the
samples already on hand, while the OIG data is based on historical
information reported by state laboratories. 38 Additionally, the NIJ’s FY 2005
backlog statistics were based on the number of samples funded under the
Backlog Reduction Program rather than on information on the size of the
backlog obtained from the state laboratories.

      In addition, we found discrepancies between the number of
laboratories that reported statistics to the NIJ and the OIG, as shown in
Table 7. For each year, approximately 0 to 33 percent of the states did not
report statistics in the NIJ’s annual survey while approximately 2 to
6 percent of the respondents did not provide a response to the backlog
question on the OIG survey. 39




       38
          The OIG did not verify the accuracy of survey data submitted by state
laboratories.
       39
          In FY 2006, survey results provided by the NIJ did not distinguish between a
non-response and zero backlog. Therefore, we cannot determine NIJ’s response rate for
FY 2006. Of the 50 SDIS (and 1 LDIS) laboratories that process convicted offender and/or
arrestee DNA samples, all responded to our survey. However, Ohio did not provide
information on the backlog for FYs 2005, 2006, or 2007; New Mexico did not provide
backlog data for FYs 2005 and 2006; and Alaska did not provide this information for
FY 2005.


                                          - 19 -
TABLE 7. STATE PARTICIPATION IN REPORTING BY FISCAL YEAR
                         CATEGORY                                2005      2006 40        2007
 Reported a backlog to OIG                                        42        45             44
 Reported a backlog to the NIJ                                    41        41             34
 Reported zero to OIG                                              6          4           6
 Reported zero to the NIJ                                         10         10           0
 Did not respond to OIG                                            3          2           1
 Did not respond to the NIJ                                        0          0           17
Source: The NIJ and OIG

      Because of the discrepancies identified between the data obtained
from the NIJ and the data obtained from our survey, we were unable to
determine the exact number of samples awaiting analysis in the convicted
offender backlog. Nevertheless, although we have identified potential
concerns with the data, in our judgment the NIJ and OIG data obtained and
presented in the following sections of this report represents a reasonable
estimate for measuring the overall success of the Backlog Reduction
Program in reducing the number of samples awaiting analysis. 41

Number of Convicted Offender Samples Awaiting Analysis

      As discussed previously, the goal of the Backlog Reduction Program is
to reduce and ultimately eliminate the backlog of samples awaiting analysis.
To determine whether the Backlog Reduction Program is achieving its goal,
we analyzed the data on the backlog we obtained from the NIJ and our own
survey of state laboratories to estimate the actual backlog.

      As shown in Chart 3, the number of backlog samples awaiting analysis
has been declining since 2005 by somewhere between 35 and 43 percent.
As reported by the NIJ, the number of samples awaiting analysis has
decreased by 35.9 percent from 1,106,200 in FY 2005 to 708,706 in
FY 2007. The numbers obtained from the OIG survey also indicated a
decline, decreasing by 43.1 percent from 1,053,617 in FY 2005 to 599,622
in FY 2007.


       40
          For FY 2006, data was reported as zero from the NIJ in 9 states, and no data was
reported for Washoe County, NV. However, the data provided by the NIJ did not distinguish
non-response from zero backlog.
       41
         For a detailed discussion of issues related to statistical information used to
measure performance under the Backlog Reduction Program, see Finding II.


                                            - 20 -
CHART 3. CONVICTED OFFENDER SAMPLES AWAITING ANALYSIS

  1,800,000


  1,500,000

                   1,106,200                  1,138,072
  1,200,000


    900,000          1,053,617
                                          962,895                     708,706

    600,000
                                                                     599,622
    300,000

          0
                    FY 2005               FY 2006               FY 2007


                               NIJ Estimate           OIG Estimate



Source: The NIJ and OIG

       According to the statistics reported in our survey of the 51 state
laboratories, at the end of FY 2007 10 states (Arizona, California,
Connecticut, Louisiana, Massachusetts, New York, Oregon, Pennsylvania,
Texas, and Washington) accounted for 388,347 of the 599,622
(64.7 percent) backlog samples reported to the OIG. Another 8 states
(Indiana, Iowa, Maryland, Michigan, New Jersey, South Carolina, Utah, and
Wyoming) accounted for 118,561 (19.7 percent) of the backlog samples.
The other 32 states accounted for the remaining 92,714 (15.5 percent)
backlog samples. Figure 4, illustrates the extent of individual backlogs by
state.




                                       - 21 -
FIGURE 4. CONVICTED OFFENDER BACKLOG AS REPORTED TO OIG



        59,377



     26,000

                                                                            42,559
                            13,400                            10,792
                                                                                        27,200
                                              12,000                     26,061
                                                                                    15,953
                   21,000                                    11,845        11,692
  60,189




                 51,192
                                                                       21,879




                                     44,533
                                                    45,236




                                      States with 0 to 10,000 CO DNA Backlog Samples

                                      States with 10,001 to 25,000 CO DNA Backlog Samples

                                      States with more than 25,000 CO DNA Backlog Samples



Source: OIG national survey of state laboratories

Number of Convicted Offender Samples Analyzed

      We also examined the number of DNA samples analyzed through
funding from the Backlog Reduction Program. As shown in Chart 4, between
FYs 2005 and 2007 the Backlog Reduction Program funded analysis of
1.46 million samples, with 923,212 samples (63.1 percent) reported as
analyzed through June 30, 2008. 42
      42
           The samples funded are the number of samples forecasted to be completed
through the combined funding of both the In-house and Outsourcing Program funding. The
samples analyzed represent those samples that used funds from the awards issued in that
fiscal year, but were not necessarily analyzed in that year. For example, the samples for
which funding for analysis was awarded in FY 2005 may have been analyzed across all three
fiscal years.

                                          - 22 -
CHART 4. NUMBER OF CONVICTED OFFENDER SAMPLES FUNDED
         AND ANALYZED AS OF JUNE 30, 2008 43


  1,000,000




                                                    54
                                                   ,2
                                               23
    800,000




                                                              31
                                               7




                                                            ,4
                                                         49




                                                                           97
                                                        5
    600,000




                                                                         ,1
                           56


                                     74




                                                                      09
                         ,3


                                  ,9




                                                                     4
                      30


    400,000                     86
                     3


                              2




                                                                                    7
                                                                                    0
                                                                                  8
                                                                                6,
    200,000




                                                                                8
            0
                      FY 2005                  FY 2006                 FY 2007

                              Samples Funded             Samples Analyzed

Source: OJP GMS and the NIJ

      Using the Backlog Reduction Program data reported to the NIJ by the
states and vendor laboratories, however, we found that 450,507
(66.6 percent) of the 676,138 In-house Program samples funded between
FYs 2005 and 2007 had been analyzed. Additionally, only 521,257
(66.3 percent) of the 786,669 Outsourcing Program samples funded had
been analyzed.

       The reasons for these delays in analyzing samples are discussed in
detail in Finding II. Table 8 illustrates the number of backlogged samples
funded and the percentage of the total number of backlogged samples
analyzed under both the In-house and Outsourcing Programs between
FYs 2005 and 2007.




       43
          Because In-house Program awards and Outsourcing Program contracts for
FY 2007 were still open at the time of our audit, analysis of samples under FY 2007 funding
had not been completed.



                                          - 23 -
TABLE 8. IN-HOUSE AND OUTSOURCING PROGRAMS BACKLOG
         SAMPLES FUNDED AND ANALYZED AS OF JUNE 30, 2008
                               FY 2005        FY 2006       FY 2007        TOTALS
 IN-HOUSE PROGRAM
    Samples Funded              211,503       297,978       166,657       676,138
    Samples Analyzed            182,993       209,543        57,971       450,507
    Percentage Completed         86.5%         70.3%         34.8%         66.6%
 OUTSOURCING PROGRAM
    Samples Funded              118,853       425,276       242,540       786,669
    Samples Analyzed            103,981       352,060        65,216       521,257
    Percentage Completed         87.5%         82.8%         26.9%         66.3%
Source: The NIJ

Number of Convicted Offender Profiles Uploaded into CODIS

      To assess the significance of the number of samples that have been
analyzed under the Backlog Reduction Program, we compared the number of
convicted offender profiles uploaded to CODIS that can be attributed to the
Backlog Reduction Program to the number of convicted offender profiles
attributable to other funding sources such as state, local, or other federal
DNA-related program funding. 44 A sample must be developed into a profile
and entered into CODIS to be useful in generating investigative leads.
Therefore, analysis of a backlog sample is not usable until it is uploaded.

      Using the Backlog Reduction Program data reported to the NIJ by the
state and vendor laboratories, we found that profiles attributable to the
Backlog Reduction Program uploaded to CODIS in calendar year (CY) 2006
accounted for 10.1 percent of the total convicted offender uploads for the
year. In CY 2007 that percentage increased to 21.6 percent, and as of July
2008 the percentage increased to 31.2 percent of the total convicted
offender uploads. Chart 5 illustrates the percentage of the total number of




      44
           The number of uploaded profiles from the In-house and Outsourcing Programs
was obtained through analysis of the performance metric reports submitted by the state
laboratories. Those numbers were deducted from the FBI totals of uploaded profiles for
each calendar year to determine the profiles attributable to other funding sources not
related to the Backlog Reduction Program.


                                          - 24 -
convicted offender profiles uploaded to CODIS that can be attributed to the
Backlog Reduction Program. 45

CHART 5. NUMBER OF ANALYZED CONVICTED OFFENDER PROFILES
         UPLOADED INTO CODIS THROUGH JULY 2008


                         1,500,000

                         1,200,000

                            900,000

                            600,000

                            300,000

                                       0
                                             2006         2007              2008
            Profiles attributable to        8,328        72,772            94,393
            Outsource Program
            Profiles attributable to In-   107,588       228,545           105,924
            house Program
            Profiles attributable to       1,035,012    1,096,468          509,689
            other funds




Source: The FBI, NIJ, and OIG

Number of CODIS Hits Resulting from Profiles Reviewed

      According to the FBI, 37,110 hits were generated from convicted
offender and arrestee profiles uploaded to CODIS from January 2006 to
June 2008. Data reported to the NIJ by the state laboratories show that of
these hits, 7,023 (19 percent) of the profiles were attributed to the Backlog




       45
           As discussed in Finding II, we found that performance reports for the Outsourcing
Program were incomplete and may not be an accurate representation of actual Outsourcing
Program performance. However, it is the only data available for the number of uploads
attributable to the Outsourcing Program.


                                               - 25 -
Reduction Program. 46 Chart 6 illustrates the number of convicted offender
hits that were generated by CODIS from January 2006 through June 2008
and the amount that were attributed to the Backlog Reduction Program.

CHART 6. NUMBER OF CONVICTED OFFENDER HITS IN NDIS AND
         SDIS THROUGH JUNE 2008

                     20,000


                     15,000


                     10,000


                       5,000


                            0
                                      2006               2007                2008
     Hits attributable to             148                 744                 427
     Outsource Program
     Hits attributable to In-        1,764               2,949                991
     house Program
     Hits attributable to            9,008              13,736               7,646
     other funds


Source: The FBI, NIJ, and OIG

      As discussed above, based on our analysis of Backlog Reduction
Program statistics obtained from both the NIJ and our own survey, we
determined that the backlog of convicted offender samples awaiting analysis
has declined between 35.9 percent and 43.1 percent since FY 2005. We also
found that, as of June 30, 2008, the Backlog Reduction Program had funded
the analysis or technical review of approximately 1.46 million convicted
offender samples, resulting in the analysis of 971,764, upload of 617,550
samples, and 7,023 hits generated.


       46
           As discussed in Finding II, we found that performance reports for the Outsourcing
Program were incomplete and may not be an accurate representation of actual Outsourcing
Program performance. However, it is the only data available for the number of hits
attributable to the Outsourcing Program.

                                          - 26 -
      As a result, between January 2006 and July 2008, 19 percent of the
3.2 million profiles uploaded to CODIS were attributed to the Backlog
Reduction Program, and between January 2006 and June 2008, 19 percent
of the 37,110 hits were attributed to the Backlog Reduction Program.

      Although the statistical information presented shows a reduction in the
backlog, it is important to recognize that the backlog fluctuates due primarily
to the expansion of state DNA collection statutes. 47 As a result, any
reduction in the backlog attributed to the Backlog Reduction Program may
be offset as states require more categories of offenders and arrestees to
submit DNA samples.

Effect of Expansions of DNA Collection Legislation on the Backlog

       Between 1988 and 1998 all 50 states enacted DNA collection statutes.
Many of these statutes required that offenders convicted of a limited number
of “new” offenses give a DNA sample to be analyzed and the resulting profile
added to the state’s convicted offender DNA database. In some cases, new
legislation made the collection of samples from convicted offenders
retroactive.

       Since 1998 the states have significantly expanded the number of
qualifying offenses that require convicted offenders to submit a DNA sample.
Some states have even passed legislation allowing for the collection of DNA
from persons arrested for, but not yet convicted of, certain offenses. 48 As
shown in Figure 5, as of August 2008, 47 states enacted laws requiring DNA
collection from persons convicted of any felony offense, and 13 states also
allow for the collection of DNA samples from arrestees for certain offenses. 49
As a result of the expansion of new DNA collection laws, the number of
samples that require analysis is likely to increase as more states move to
collect samples for a greater number of qualifying offenses. In our survey
we queried state laboratories concerning the impact on the backlog in their
state resulting from legislative expansions to collections that had been
passed during the last 5 years. Of the 38 respondents, 33 (87 percent) said

       47
            See Appendix IV for additional examples of factors that influence a laboratory’s
ability to analyze the DNA samples it receives.
       48
          State-dependent qualifying arrests are generally only for violent felonies,
including murder, sex crimes, and burglary.
       49
          State-dependent qualifying arrests are generally only for violent felonies,
including murder, sex crimes, and burglary.


                                            - 27 -
that the implementation of legislative expansions to collections passed
during the last 5 years has increased the backlog in their state.

FIGURE 5. STATE LEGISLATION GOVERNING OFFENDER DNA
          SAMPLE COLLECTION AS OF AUGUST 2008




                                     States requiring DNA collection from persons
                                     convicted of any felony offense

                                     States requiring DNA collection from persons
                                     convicted of any felony offense and arrestees

                                     States requiring DNA collection from persons
                                     convicted of specific offenses only

Source: National Conference of State Legislatures and DNA Resource.com

      As discussed in the following sections, new laws passed in Texas,
California, and New York have resulted in dramatic increases to the
convicted offender DNA backlog.




                                        - 28 -
Texas 50

       According to the Texas FY 2005 In-house Program narrative submitted
to the NIJ in support of its award application, in April 2004 the state’s
collection legislation was expanded to require DNA samples from persons
convicted of any felony. As a result, the number of samples received by the
state laboratory increased by more than 100 percent from about 1,500 per
month to over 3,000 per month. Although the new legislation more than
doubled the number of samples to be analyzed, it did not provide any
additional funding to cover the costs of analyzing the additional samples.

       The In-house Program narratives submitted by Texas for FYs 2006 and
2007 indicated that in September 2005 a new state law expanded DNA
collection from individuals newly convicted of qualifying offenses to also
include retroactive collection from persons already in the state’s prison
system convicted of a felony offense but have yet to provide a DNA sample.
The laboratory estimated this retroactive expansion would include 44,744
inmates from the Texas Department of Criminal Justice and 3,154 juveniles
from the Texas Youth Commission, and would result in an increase of
samples received from about 3,000 per month to over 7,500 per month, an
increase of 150 percent. Like the previous legislation, this new law did not
provide any state funding to defray the cost of the additional DNA analysis.

California 51

       In its FYs 2005 and 2006 narratives submitted to support its request
for In-House Program funding, California attributed a significant increase in
the receipt of convicted offender samples to the passage of “Proposition 69”
in November 2004. Proposition 69 required that a DNA sample be collected
from: (1) adults and juveniles convicted of any felony offense; (2) adults
and juveniles convicted of any sex offense or arson offense, or an attempt to
commit any such offense (not just felonies); and (3) adults arrested for or
charged with felony sex offenses, murder, or voluntary manslaughter (or the
attempt to commit such offenses). Additionally, Proposition 69 required
that, beginning in January 2009, DNA must be collected from adults arrested
for or charged with any felony offense. The state laboratory estimated that

      50
         Between FYs 2005 and 2007, Texas received funding totaling $3,717,999 to
analyze 140,523 samples under the In-house Program.
      51
         Between FYs 2005 and 2006, California received funding totaling $1,513,224 to
analyze 62,723 samples under the In-house Program.


                                         - 29 -
the number of samples that it would receive and process would increase by
100 percent from 65,000 to 130,000 annually.

       Proposition 69 required DNA samples to be taken from parolees and
individuals already serving time in a correctional facility for a qualifying
offense. To address the costs of the new legislation, the state increased
criminal fines and other penalties to support the expansion of DNA collection
on an ongoing basis. However, the law did not provide any additional
funding to address the samples that are required to be submitted
retroactively.

New York 52

      In July 2004, New York expanded its collection legislation to require
DNA samples from individuals convicted of additional felony offenses and
sex-related misdemeanor offenses. The new legislation was retroactive and
created a backlog of approximately 11,000 DNA samples.

      Additionally, in May 2005 the state’s Computerized Criminal History
records were modified to indicate whether an offender had been convicted of
a qualifying offense under New York State law but had not provided a DNA
sample. This system allows the state to identify offenders who might owe a
DNA sample when rearrested or convicted for any new offense, whether the
offense is a DNA qualifying offense or not. There were more than 14,000
offenders who fell under this category as of June 2005.

      In June 2006, the legislation was expanded again to require a DNA
sample from all persons convicted of a felony and from persons convicted of
18 designated misdemeanors. The requirements were applied retroactively
to the pool of individuals currently serving sentences for these newly
designated offenses. As a result, the New York State Police estimated the
expansion would increase the state’s current backlog by 67 percent, from
approximately 15,000 samples to 25,000 samples by September 30, 2006.

Potential Impact of Adding Arrestees to Collection Legislation

      As these examples illustrate, most expansions of collection laws result
in a considerable increase in a state’s DNA backlog. However, not every

      52
         Between FYs 2005 and 2007, New York received funding totaling $2,062,000 to
analyze 60,400 samples under the In-house Program.


                                        - 30 -
state is affected similarly by a legislative expansion. The impact of new
legislation on a state’s backlog is determined by several variables, including
whether legislative changes are retroactive, whether additional
appropriations accompany the statute change, whether statutes apply to
both adults and juveniles, whether statutes apply to probationers and
parolees, and which agencies are tasked with collection of the samples and
the compliance level of those collections.

       In 2005 Congress passed the DNA Fingerprint Act, which allowed
arrestee samples to be uploaded to CODIS as well as for Federal agencies to
collect DNA samples from persons arrested or detained under the authority
of the United States. 53 While 13 states allow for the collection of DNA
samples from arrestees, many more are considering collecting DNA samples
from arrestees. Moreover, 69 of the 103 pieces of DNA database expansion
legislation that were introduced in state legislatures as of May 2008 were
related to adding arrestees as qualifying for DNA collection.
       To forecast the impact the addition of arrestees might have on the
backlog, we first estimated a current national convicted offender workload.
This estimate is based on the current laws of the 50 states, arrests as
reported in the FBI’s Uniform Crime Reports for 2006, and a national
conviction rate as reported in the Bureau of Justice Statistics Report, Felony
Sentences in State Courts, 2004 issued in July 2007. We then used these
estimates to project the increase to our estimated national workload if all
states moved to DNA sampling of all felony arrestees.

      As shown in Chart 7, if all felony arrests are added in every state, we
estimate that the national convicted offender workload would increase by
112 percent over the current national workload. Additionally, in states that
currently do not have arrestee collection legislation, we estimate that the
expansion of legislation to include arrestees would increase the annual
receipt of DNA samples by 223 percent for those states. 54




       53
            42 U.S.C. § 14132 (2006) and 42 U.S.C. § 14135a (2006)
       54
           See Appendix V for a complete analysis of the methodology used to calculate the
potential impact of adding arrestees to collection legislation.


                                          - 31 -
CHART 7. OIG ESTIMATE OF LEGISLATIVE IMPACT DUE TO
         ADDITION OF ARRESTEE SAMPLES ON ANNUAL RECEIPT
         OF DNA SAMPLES



                223%                  112%
              Increase in            Increase
                States               Nationally
                without                                         Projected Arrestee
               arrestee
                 laws                                           Samples
                                                                Current Convicted
                                                                Offender Workload




Source: OIG

       Although the statistical information discussed earlier indicates that the
Backlog Reduction Program is having an impact on the convicted offender
backlog, the backlog fluctuates, due primarily to the expansion of state DNA
collection statutes. Consequently, any positive effect of the Backlog
Reduction Program could be offset as states authorize expansion of
collection legislation to include more categories of offenders and arrestees.

       Throughout the remaining sections of this report, we identify several
issues that have an impact on the effectiveness of the Backlog Reduction
Program as a whole. These concerns also relate to the effectiveness of the
individual programs implemented by the state and vendor laboratories
awarded under both the In-house and Outsourcing Programs. We believe
that if these issues are addressed, the effectiveness of the Backlog
Reduction Program could be improved, and the number of backlog samples
awaiting analysis reduced.




                                     - 32 -
II.    ADEQUACY OF THE NATIONAL INSTITUTE OF JUSTICE
       OVERSIGHT AND ADMINISTRATION OF THE BACKLOG
       REDUCTION PROGRAM

       We found significant delays in the analysis, review, and upload
       of over 180,000 backlogged samples for both the In-house and
       Outsourcing Programs. Additionally, although the NIJ required
       state laboratories receiving In-house and Outsourcing Program
       funding to collect information on performance measures, we
       found that the NIJ did not adequately use the reported
       information to manage its Backlog Reduction Program.
       Specifically, the NIJ did not summarize the performance
       information reported by state laboratories to evaluate the
       effectiveness of the Backlog Reduction Program’s individual
       awards and contracts, and did not provide adequate guidance to
       the state laboratories on collecting and reporting performance
       information. As a result, we identified inconsistencies with the
       statistical information reported by the laboratories, which
       prevents the NIJ from fully and accurately assessing overall
       Backlog Reduction Program performance.

       Federal regulations require that award recipients be monitored
throughout the life of the award to ensure that: (1) the award recipients
comply with the programmatic, administrative, and fiscal requirements of
the relevant statutes, regulations, policies, and guidelines; (2) awards are
carried out in a manner consistent with the relevant statutes, regulations,
policies, and guidelines of the program; (3) the award recipients are
provided guidance on policies and procedures, program requirements,
general federal regulations, and basic programmatic, administrative, and
financial reporting requirements; and (4) problems that may impede the
effective implementation of the program are identified and resolved.

      To this end, in November 2004 the NIJ implemented the Grant
Progress Assessments to address findings and recommendations identified in
prior OIG audit reports related to improving NIJ’s monitoring procedures. 55
Through two Cooperative Agreements totaling $13,231,841 with the National


       55
           As discussed earlier, the previous OIG reports included: U.S. Department of
Justice Office of the Inspector General, The Convicted Offender DNA Backlog Reduction
Program, Audit Report 02-20 (May 2002), 4 and the Office of Justice Programs Annual
Financial Statement Fiscal Year 2005, Audit Report 06-17 (March 2005), 1.


                                          - 33 -
Forensic Science Technology Center (NFSTC), DNA staff conducted the Grant
Progress Assessments for both the In-house Program and the Outsourcing
Program. 56

      As defined by NFSTC, the objectives of the Grant Progress Assessment
Program are to:

   •   assess the award recipient’s progress in meeting program goals and
       objectives,

   •   review the status of administrative documentation,

   •   identify challenges faced by the award recipient in achieving program
       objectives,

   •   identify successful or “model programs,”

   •   assess the impact of the award funding, and

   •   strengthen the NIJ program management and oversight.

      Although the NIJ implemented the Grant Progress Assessments to
strengthen its oversight and monitoring of the Backlog Reduction Program,
our audit identified several issues that reduce the effectiveness of the NIJ’s
oversight and administration of the Backlog Production Program as a whole,
as well as to the individual programs implemented by the state and vendor
laboratories under both the In-house and Outsourcing Programs. 57 These
concerns are related to:


       56
          These cooperative agreements funded other activities at NFSTC in addition to the
Grant Progress Assessments including forensic training designed to provide training courses
and resources to forensic analysts and community outreach to support the forensic science
community. In addition to conducting the Grant Progress Assessments of the Backlog
Reduction Program, NFSTC performs the Grant Progress Assessments of the DNA Casework
Backlog Reduction Programs, the DNA Capacity Enhancement Program, grants provided by
the Paul Coverdell Forensic Sciences Improvement Act, and the Solving Cold Cases with
DNA programs.
       57
           As part of our overall audit of the Backlog Reduction Program, we conducted
audits of 8 state laboratories that received a cumulative total of 19 In-house Program
awards, and visited 2 vendor laboratories awarded 17 contracts under the Outsourcing
Program. A detailed discussion of our audits related to the state and vendor laboratories
can be found in Findings III and IV.


                                          - 34 -
   •   the failure to adequately address delays in the utilization of funds
       awarded to process backlogged samples; and

   •   the failure to adequately collect and use performance information
       reported by state laboratories to demonstrate Backlog Reduction
       Program results.

Utilization of Backlog Reduction Program Funding

       As stated previously, the objective of the Backlog Reduction Program
is to accelerate the analysis of convicted offender and arrestee DNA samples
collected by states in order to provide timely CODIS-compatible data for
state and national DNA databases. To accomplish this objective, the NIJ
provides 1-year awards and contracts to state and vendor laboratories to
analyze backlogged samples. To ensure the Backlog Reduction Program is
meeting these goals, it is essential that Backlog Reduction Program funding
be awarded and utilized in a timely manner.

      We reviewed award obligations and drawdowns for all Backlog
Reduction Program awards and contracts between FYs 2005 and 2007 to
determine the effectiveness of the NIJ’s administration and oversight of
funding awarded under the Backlog Reduction Program. We found that, in
general, the NIJ awarded funds in a timely manner. However, as detailed in
the following sections, we found significant delays in the expenditure of
funds for both the In-house and Outsourcing Programs, resulting in untimely
analysis, review, and uploading of samples funded under the Backlog
Reduction Program. 58

In-house Program

      For each of the 45 In-House Program awards between FYs 2005 and
2007, which totaled approximately $16.9 million, we obtained and reviewed
the award payment history to determine: (1) whether In-House Program
funds had been drawn down, and (2) the length of time between the date
the In-House Program funds were obligated and the date of the initial
drawdown. We identified 8 awards totaling approximately $2.74 million for


       58
          Although we used the rate of drawdowns as an indicator of award activity, we also
reviewed quarterly financial status reports and performance reports submitted by the state
laboratories to determine any financial and programmatic activities that may have occurred
under the awards.


                                          - 35 -
77,715 samples for which no funds had been drawn down. This issue was
identified in a prior OIG audit of the No Suspect Casework DNA Backlog
Reduction Program funded by NIJ. 59

       We also found 10 awards totaling approximately $4.12 million for
160,578 samples for which the initial drawdown occurred more than 1 year
after the funds were obligated, indicating that the analysis and upload of a
total of 238,293 samples may have been delayed, thereby reducing the
investigative power of CODIS.

       Analysis of Inactive Awards

       Based on our review of drawdowns for the 45 awards totaling
$16.9 million, we found that no funds had been drawn down for 10 of the
45 awards (22 percent) as of June 30, 2008. We recognize that failure to
draw down In-House Program funds is not a definitive indicator of award
activity since it is possible that funds were expended but not yet drawn
down as a reimbursement. Therefore, to further analyze this situation, we
reviewed quarterly financial status reports and performance reports for
these 10 awards to determine whether the award recipients reported any
financial activity or samples analyzed.

      As shown in Table 16, we found that seven of the awards had no
drawdowns, reported no financial activity, and also reported no samples
analyzed, no profiles uploaded, or hits generated in the performance reports
submitted to the NIJ as of June 30, 2008. 60




       59
         U.S. Department of Justice Office of the Inspector General, The No Suspect
Casework DNA Backlog Reduction Program, Audit Report 05-02 (November 2004), 10, 12.
       60
          The 2007 Cooperative Agreement awarded to Connecticut reported a negligible
amount of financial activity (less than 10 percent of the award) on a quarterly financial
status report submitted to the NIJ.


                                          - 36 -
TABLE 16. ANALYSIS OF INACTIVE IN-HOUSE PROGRAM AWARDS
          AS OF JUNE 30, 2008
                                                                            NO. OF
                                                            SAMPLES        INACTIVE
  FISCAL YEAR             STATE          TOTAL AWARD        FUNDED           DAYS
    2005 61           Nevada                 $66,227          2,257         1,003
    2006              Kansas                 248,238          9,040           663
    2006 62           Missouri               254,471         12,500           525
    2007              New York             1,000,000         25,000           298
    2007              Connecticut             17,250          3,450           298
    2007              Alaska                 160,000          4,000           298
    2007              Alabama                528,000         13,200           298
    TOTAL                                $2,274,186         69,447         AVG. 484
Source: OJP Grant Management System

       Based on our analysis of inactive In-House Program awards, it appears
that 69,447 backlog samples funded under the In-house Program had not
been analyzed, reviewed, or uploaded into CODIS, with an average of 484
inactive days after receiving funding for each award.

      Initial Drawdown Analysis

     We also identified 36 of the 45 awards (80 percent), totaling
$12.3 million, for which the initial drawdown did not occur for more than
6 months after the award start date, as shown in Table 17.

TABLE 17. INITIAL DRAWDOWN ANALYSIS OF AWARDS UNDER THE
          IN-HOUSE PROGRAM
     NO. OF MONTHS SINCE
      FUNDS OBLIGATED                    NO. OF AWARDS              AWARD FUNDING
     0 to 3 Months                              1                         $50,730
     >3 to 6 Months                             8                       4,566,009
     >6 to 12 Months                           26                       8,164,123
     > 12 Months                               10                       4,122,212
            TOTAL                              45                    $16,903,074
Source: OJP GMS

      Of these 36 awards, we identified 10, totaling $4.12 million, for which
the initial drawdown occurred more than 1 year after the award start date.
We reviewed performance reports and quarterly financial status reports for
      61
           The 2005 award to Nevada was de-obligated on July 2, 2008.
      62
           The 2006 award to Missouri was de-obligated on March 9, 2008.

                                          - 37 -
these 10 awards to determine whether the award recipients reported
financial activity, samples analyzed, profiles uploaded, or hits generated. As
shown in Table 18, we found that 5 of the 10 awards (50 percent) had no
drawdowns, reported no financial activity, and also reported no samples
analyzed, no profiles uploaded, or hits generated in the performance reports
submitted to the NIJ until 1 year after the award start date. We also found
two awards that reported no financial activity, no samples analyzed, no
profiles uploaded, or hits generated in the performance reports submitted to
the NIJ until more than 6 months after the award start date. Two of the
remaining three awards had been de-obligated by the NIJ and the 2006
award to Kansas has already been counted under our analysis of inactive
awards. 63

TABLE 18. AWARDS WITH INITIAL DRAW DOWNS IN EXCESS OF
          1 YEAR AFTER AWARD START DATE
                                                                         NO. OF DAYS
                                                                         UNTIL STATE
                                                                         LABORATORY
   FISCAL                                                              REPORTED AWARD
    YEAR           STATE         AWARD AMOUNT       SAMPLES FUNDED         ACTIVITY
    2005        California          $756,927            30,000              402
    2005        Nevada               118,800             3,690              365
    2005        New Jersey         1,375,407            56,700              548
    2005        New York             237,000             7,900              365
    2006        Alabama              396,000            13,200              548
   TOTALS                        $2,884,134           111,490          AVG. 446 DAYS
Source: OJP GMS

      Based on our review, it appears that 111,490 samples were not
analyzed, reviewed, and uploaded for more than 1 year after the award start
date. According to NIJ officials and responses received through our survey
of state laboratories, each laboratory has its own reasons why delays might
have occurred. However, NIJ stated there were two overarching issues that
could be responsible for some of the delays. First, in 2005 award recipients
were required to conform to the National Environmental Policy Act (NEPA)
42 U.S.C. § 4321 (2006). Section 102 of NEPA requires all federal agencies
to prepare detailed environmental impact statements assessing the


      63
          A 2005 Cooperative Agreement awarded to Washoe County, Nevada was
de-obligated on July 2, 2008 due to issues arising from the County receiving funds from
private donations. A 2006 Cooperative Agreement awarded to Missouri was de-obligated on
March 9, 2008 because the state had eliminated a large backlog through a 2005 Backlog
Reduction Program grant and no longer needed the funds.

                                        - 38 -
environmental impact of and alternatives to major federal actions
significantly affecting the environment. To ensure compliance with the
NEPA, the NIJ placed a special condition on awards that required award
recipients to submit an environmental impact statement. According to NIJ
officials, it took state laboratories between 8 and 12 months to comply with
the requirement. As a result, award recipients were unable to access
FY 2005 Backlog Reduction Program funding until they had met the NEPA
requirement. To address this delay for future awards, the NIJ allowed award
recipients whose environmental impact statements resulted in a finding of no
significant impact to obtain a NEPA waiver for up to 5 subsequent years
beginning in FY 2006.

      NIJ officials further stated that delays were caused by availability and
use of resources – primarily personnel. When state laboratories hire
additional staff, the laboratories must properly train and certify new
technicians before samples may be processed. These procedures tie up an
already limited staff and may temporarily impact the laboratories’ capacity
to conduct analysis of backlogged samples.

      During our audits of 5 of the 10 awards that had delays of greater than
1 year from the start date until the first drawdown, we inquired with officials
as to the cause of the delays. Three of the five state laboratories cited NEPA
requirements as the cause of the delay, one state laboratory cited the fact
that state budget regulations prohibited it from using federal funds before
the state budget was authorized, and one state laboratory cited the
validation of new equipment and the hiring of new staff to address the
increase in samples caused by the passage of arrestee legislation as the
cause for the delay.

      Funds Awarded to Recipients without Previous Award Drawdowns

      Although we identified delays to the start of In-house Program awards,
we found that the NIJ continued to award In-House Program funding to state
laboratories conducting convicted offender analysis under the In-house
Program even though they had not drawn down funding from previous
awards.




                                    - 39 -
TABLE 19. ADDITIONAL IN-HOUSE PROGRAM FUNDS AWARDED TO
          STATE LABORATORIES NOT DRAWING DOWN ON
          PREVIOUS AWARDS
                  PREVIOUS                             NEW
                   AWARD                      INITIAL AWARD                         NEW
                   FISCAL       AWARD         SAMPLES  FISCAL   AWARD             SAMPLES
     STATE          YEAR       AMOUNT 64      FUNDED    YEAR    AMOUNT             FUNDED
 Alabama            2006         $396,000      13,200   2007    $528,000            13,200
 California         2005          756,927      30,000   2006      756,297           32,723
 Connecticut        2007           17,250       3,450   2008      720,000           18,000
 Delaware           2007           33,000         825   2008       45,080            1,288
 Kentucky           2005           53,313       1,800   2006       73,381            2,308
 New Jersey         2005        1,375,407      56,700   2006      615,829           23,491
 New York           2005          237,000       7,900   2006      825,000           27,500
 Vermont            2005           39,566       1,320   2006       76,843            2,600
                   TOTALS     $2,908,463      115,195         $3,640,430          121,110
Source: OJP GMS

      As shown in Table 19, we found that the NIJ awarded a total of
$3.6 million to fund analysis of 121,110 samples to laboratories that had not
drawn down any In-House Program funding for previous awards. This issue
was identified in a prior OIG audit of the No Suspect Casework DNA Backlog
Reduction Program funded by the NIJ. 65

       For example, we found that FY 2006, the NIJ awarded $396,000 to the
state laboratory in Alabama to analyze 13,200 backlogged samples.
According to the quarterly financial status reports filed by the state
laboratory as of March 31, 2008, no expenditures had been incurred under
this award. Additionally, the state laboratory reported to the NIJ that it had
not analyzed or uploaded any backlogged samples until April 1, 2008, more
than 17 months after the start of the award. Yet, on August 9, 2007, the
NIJ awarded $528,000 in additional In-House Program funding to the same
state laboratory in Alabama for the analysis, review, and upload of 13,200
additional backlog samples. As of March 31, 2008, funds awarded to
Alabama in FY 2007 had been obligated for more than 350 days before any
drawdowns occurred on the award given to the same state laboratory in
Alabama in FY 2006.



       64
           For each of the initial awards listed in Table 19, no drawdowns had occurred prior
to the obligation of grant funds for the new grant.
       65
            OIG, The No Suspect Casework DNA Backlog Reduction Program, 10, 12.


                                            - 40 -
       We asked NIJ officials why additional In-House Program funding had
been awarded to state laboratories that had not utilized In-House Program
funding from previous awards. NIJ officials stated that In-House Program
funding awarded to state laboratories will remain open until a state
laboratory analyzes the total number of samples for which it was funded.
However, NIJ officials acknowledged to us that new awards were made to
state laboratories that had not begun work on a previous award and added
language to the FY 2008 solicitation designed to prevent this condition from
recurring. Specifically, according to the FY 2008 solicitation, the NIJ may
reject applications from applicants with prior awards for analysis under the
In-house Program that remain entirely unobligated as of the posting date of
the solicitation.

      Despite this action, we found that in FY 2008 the NIJ awarded funding
to two state laboratories that, as of April 1, 2008, had not obligated any of
the In-House Program funds they were previously awarded. 66 In our
opinion, awarding additional In-house Program funds to state laboratories
with inactive awards prevents those funds from being put to better use by
another laboratory or federal program.

Outsourcing Program

      We also reviewed all 38 Outsourcing Program contracts, totaling
$24.4 million awarded to outside laboratories in the Outsourcing Program
between FYs 2005 and 2007. For each contract awarded to vendor
laboratories, we obtained and reviewed the Statement of Work, contracts,
and vendor invoices to determine: (1) whether funds had been expended,
and (2) the length of time between the date the funds were awarded and the
date of the initial invoice. During our review of the invoices, we identified:

   •   2 contracts totaling $146,350 for which no invoices had been received,
       and

   •   7 additional contracts totaling $2,716,857 for which the initial invoice
       occurred more than 6 months after the contract was awarded.


       66
          According to the FY 2008 solicitation, applications for In-House Program funding
were due April 4, 2008. During our analysis of quarterly financial status reports, we
reviewed financial activity up to April 1, 2008. We believe any application submitted by
grantees that had not obligated any FY 2007 funds by April, 1, 2008, would violate the
requirement set forth in the solicitation.

                                          - 41 -
      As detailed in the following sections, we found that the NIJ is not
adequately monitoring the utilization of funds for the analysis of backlogged
samples under the Outsourcing Program. Based on our review of invoices
for the 38 contracts awarded totaling $24.4 million, we found that no
invoices had been received on 2 (5.3 percent) contracts totaling $146,350,
indicating that more than 3,700 convicted offender samples funded had not
been analyzed, reviewed, and uploaded into CODIS, as shown in Table 20.

Table 20. INACTIVE OUTSOURCING PROGRAM CONTRACTS
 FISCAL
  YEAR       STATE                VENDOR           CONTRACT AMOUNT   SAMPLES FUNDED
  2006     Idaho         Identity Genetics              $108,000          2,400
  2007     Kansas        Bode Technology Group            38,350          1,300
 TOTAL                                                 $146,350          3,700
Source: NIJ vendor files

       As shown in Table 21, based on the results of our review, we also
identified 7 of the 38 contracts awarded (18.4 percent), totaling
$2.72 million, for which no activity had occurred for more than 6 months
after the contract start date delaying the analysis and upload to CODIS of
76,559 convicted offender DNA samples.

TABLE 21. CONTRACTS DELAYED MORE THAN 6 MONTHS FROM
          CONTRACT START DATE TO FIRST INVOICE
                                                                             DAYS
                                                                             FROM
 FISCAL                                               CONTRACT   SAMPLES    AWARD TO
  YEAR        STATE                 VENDOR             AMOUNT    FUNDED      START
  2006    South Dakota     Identity Genetics           $275,400    10,800      201
  2006    Louisiana        Identity Genetics            611,490    18,530      231
  2006    Mississippi      Reliagene                    783,020    23,030      255
  2006    Maine            Reliagene                    124,875     3,375      256
  2006    Utah             Identity Genetics            495,000    15,000      261
  2006    Connecticut      Identity Genetics             51,072     1,824      273
  2007    Wyoming          Bode Technology Group        376,000     4,000      183
 TOTAL                                                $2,716,857 76,559     AVG. 237
Source: The NIJ vendor files

      According to NIJ officials, the start of some of the contracts was
delayed because state laboratories did not send samples to the vendors in a
timely manner. They said that this delay could have been attributed to the
process of approving a vendor laboratory by the states before samples are
submitted. To qualify a vendor laboratory, a state first performs a site visit


                                         - 42 -
of the vendor. Vendor laboratories must also complete a test batch of
samples before becoming approved so the state can verify the accuracy of
the vendor’s testing results.

      During our audit, we visited two of the six vendor laboratories that
held these contracts. We identified several issues that caused delays to the
analysis of backlogged samples under the Outsourcing Program, including:
(1) poor quality of samples received from the state laboratory, (2) delays in
payment caused by late approval of invoices by the state laboratory,
(3) samples delayed due to internal issues the laboratory had with
equipment malfunctions and staff turnover, and (4) changes to the analysis
defined in the statement of work by the state laboratories. While many of
these issues were outside of the control of the NIJ and the vendor
laboratories, NIJ could encourage state laboratories to resolve these issues
by not issuing new awards until the already obligated funds were
substantially used. 67

       We also surveyed vendor laboratories to determine if they had
problems with the volume of work and quality of samples submitted by the
state laboratories. Three of the five survey respondents said they had
problems with the samples submitted by the state laboratories. Based on
the comments from respondents, the volume problems included sample
shipments being delayed and insufficient quantities being shipped to the
vendor laboratory preventing the vendor from meeting its contract
commitments for quantity of samples processed. Additionally, four of the
five respondents said they had quality problems with samples submitted by
the state laboratories due to poor collection methods.

Utilization of Performance Information Collected

      We evaluated whether performance information was used to manage
the Backlog Reduction Program. We assessed whether:

   •   NIJ officials regularly collected timely and credible performance
       information from state laboratories that received funding under the
       Backlog Reduction Program; and




       67
            These issues are discussed in greater detail in Finding IV.

                                             - 43 -
   •   NIJ officials used performance information reported by state
       laboratories to manage the Backlog Reduction Program and improve
       performance.

      The NIJ requires state laboratories receiving In-house and Outsourcing
Program funding to include information on performance measures in
performance reports. 68

      As discussed in Finding I, we attempted to use the NIJ statistical data
generated from the performance reports submitted by the state laboratories
to determine if the Backlog Reduction Program was meeting its overall
objective of reducing the number of backlogged samples awaiting analysis.
However, we identified several limitations with the NIJ’s data that prevented
us from obtaining a fully accurate picture of Backlog Reduction Program
performance. For example, three state laboratories reported cumulative
data (rather than data for each individual quarter as instructed) on the
number of samples analyzed and uploaded, as well as the number of hits
generated. Without accurate quarterly reporting, NIJ is unable to timely
assess the performance of the Backlog Reduction Program in achieving its
overall objective of reducing the backlog. Also, the NIJ is unable to assess
the overall performance of the awardees, or fully recognize problems in
implementing and executing the Backlog Reduction Program.

       Additionally, at least one state laboratory reported all samples
analyzed within the laboratory rather than only those samples analyzed with
In-house Program funding, despite an NIJ requirement to report only on the
latter. Because the NIJ failed to require grantees who were non-compliant
with NIJ reporting requirements to submit corrected reports that were in
compliance, we found that the NIJ performance data did not accurately
reflect the performance of award recipients under the In-House Program as
a whole. Therefore, we conducted our own analysis of the performance
reports submitted by each state laboratory awarded Backlog Reduction
Program funding either through the In-house or Outsourcing Program during
FYs 2005 through 2007.




       68
           Prior to CY 2007, state laboratories using the Outsourcing Program reported
statistics monthly.


                                          - 44 -
In-house Program

       The NIJ requires the state laboratories to submit statistics concerning
the convicted offender and arrestee DNA samples analyzed, DNA profiles
uploaded into CODIS, and hits generated using In-House Program funds. To
determine the impact of the In-House Program on the backlog, we
determined that these statistics, after verification by the OIG, were the best
available data. In evaluating the performance data reported by the state
laboratories, we found that the NIJ did not adequately summarize these
statistics and many state laboratories were submitting inaccurate statistics.
These errors resulted in the NIJ over-reporting samples analyzed and
uploaded under the In-House Program.

      We compared performance data as reported by the NIJ as of March 31,
2008, to the performance reports submitted by the state laboratories. 69 As
shown in Table 9, based on our comparison, we found that the NIJ statistics
included 90,021 (15.3 percent) more samples analyzed, 126,453
(22.5 percent) more profiles uploaded, and 496 (9.9 percent) more hits
generated than reported in the state laboratories’ performance reports.

TABLE 9. IN-HOUSE PROGRAM STATISTICS REPORTED TO THE NIJ
         BETWEEN OCTOBER 1, 2005, AND MARCH 31, 2008
                           NIJ ANALYSIS OF     OIG ANALYSIS OF
                            PERFORMANCE         PERFORMANCE
        ACTIVITY              REPORTS             REPORTS                DIFFERENCE
   Samples Analyzed           679,228             589,207                  90,021
   Profiles Uploaded          688,030             561,577                 126,453
   Hits                         5,516               5,020                     496
Source: The OIG, NIJ, and state laboratories

       We determined that these differences were attributable to 12 instances
in which the NIJ statistics were incomplete, 1 instance in which the number
of samples analyzed appeared to be double-counted, 3 instances in which
the state laboratory erroneously reported cumulative statistics rather than
individual quarterly statistics as instructed, and 6 instances in which we were
unable to determine the cause of the differences between the NIJ statistics
and the performance reports.

       69
          The NIJ statistical information was generated from the performance reports
submitted by the state laboratories receiving funding under the In-House Program. We
traced NIJ statistics to the performance reports to ensure that statistical information
provided by NIJ was accurately recorded, complete, and reliable.


                                          - 45 -
      As a result of the discrepancies, we were unable to rely on NIJ’s
reported statistics and conducted our own analysis of the performance
reports submitted by the state laboratories as of June 30, 2008. The results
of our analysis are shown in Table 10. 70

TABLE 10. OIG ANALYSIS OF STATE LABORATORY REPORTED
          PERFORMANCE BETWEEN OCTOBER 1, 2005, AND
          JUNE 30, 2008

    TOTAL AWARDS         SAMPLES ANALYZED       SAMPLES UPLOADED             HITS
         45                  664,175                633,172                  5,704
Source: State laboratory performance metrics and vendor invoices

      Moreover, upon further review we determined that several state
laboratories reported substantially more samples analyzed than were funded
under the In-House Program for the period October 1, 2005, through June
30, 2008. As shown in Table 11, we found that the performance reports for
11 of the 45 awards indicated that for the 411,468 analyzed samples that
had been reported as being funded by the In-house Program, 213,668
samples, or 52 percent, were, in fact, not funded by the In-House Program.




       70
          Table 10 contains OIG’s compilation of all the performance data submitted by
state laboratories as of June 30, 2008. However, at the time of our audit, we did not have a
separate report from the NIJ compiling data through the same time period. Thus, we were
unable to compare our compilation of data as reflected in Table 10 to a compilation of data
by the NIJ.

                                          - 46 -
TABLE 11. STATES REPORTING SAMPLES ANALYZED IN EXCESS OF
          THE TOTAL SAMPLES FUNDED UNDER THE IN-HOUSE
          PROGRAM
                                             SAMPLES            TOTAL
                                           REPORTED AS         SAMPLES
   FISCAL YEAR             STATE            ANALYZED           FUNDED         DIFFERENCE
      2005              Missouri               15,749           12,493           3,256
      2005              Alabama                55,344           28,776         26,568
      2005              California            125,325           30,000         95,325
      2005              Georgia                  8,781           8,000             781
      2005              Illinois                45,817          29,432          16,385
      2005              Kansas                  12,097           7,680           4,417
      2005              Nevada                  10,401           3,690           6,711
      2006              Kentucky                 4,399           2,308           2,091
      2006              California              84,686          32,723          51,963
      2006              Pennsylvania           46,811           41,268          5,543
      2007              North Dakota            2,058            1,430            628
                 TOTALS                      411,468          197,800         213,668
Source: The NIJ

      Of the 213,668 samples that were not funded by the In-house
Program, 190,241 (89.0 percent) came from 4 awards to the state
laboratories for Alabama, California, and Illinois. The state laboratory for
California made up the largest number of analyzed samples incorrectly
reported as being funded by the In-House Program, accounting for 147,288
of the 213,668 samples (68.9 percent). 71

      We also determined that several state laboratories reported
substantially more samples uploaded than were funded under the In-House
Program for the period October 1, 2005, through June 30, 2008. As shown
in Table 12, we found the performance reports for 11 of the 45 awards
indicated that for the 383,985 samples reported as uploaded with In-House
Program funding, 191,115 samples, or 50 percent, were uploaded with
funding sources other than In-House Program funding.



       71
           During our audit of the California Department of Justice (California DOJ), we
determined that California DOJ was reporting every sample analyzed as federally funded,
regardless of total funding, because it believed that some federal dollars from the In-House
Program were used for virtually every sample analyzed. This issue is further discussed in
Finding III.


                                           - 47 -
TABLE 12. STATES REPORTING SAMPLES UPLOADED IN EXCESS OF
          THE TOTAL SAMPLES FUNDED UNDER THE IN-HOUSE
          PROGRAM
                                   SAMPLES
                                 REPORTED AS    TOTAL SAMPLES
  FISCAL YEAR          STATE      UPLOADED         FUNDED         DIFFERENCE
     2005         Missouri           15,749         12,493            3,256
     2005         Alabama            44,163         28,776           15,387
     2005         California        120,374         30,000           90,374
     2005         Georgia             8,781          8,000             781
     2005         Illinois           45,817         29,432          16,385
     2005         Nevada             10,042          3,690           6,352
     2006         Kentucky            3,535          2,308           1,227
     2006         California         84,686         32,723          51,963
     2006         Illinois            7,316          2,750           4,566
     2006         Pennsylvania       41,464         41,268             196
     2007         North Dakota        2,058          1,430             628
            TOTALS                 383,985        192,870          191,115
Source: The NIJ

       We discussed with the NIJ the issue of state laboratories reporting
substantially more samples than were funded under the In-House Program.
According to NIJ officials, it is appropriate for state laboratories to count a
sample as analyzed or uploaded under the In-House Program as long as any
portion of the analysis has been accomplished using In-House Program
funds. According to the In-House Program solicitations, samples to be
analyzed with In-House Program funds must represent the numbers to be
analyzed or reviewed above and beyond those that could be analyzed or
reviewed without the additional In-House Program funding. In our opinion,
reporting all samples analyzed, regardless of the funding source, as being
analyzed or uploaded using In-House Program funds does not meet this
requirement. It also will lead to double counting across multiple programs,
inflating the true impact of the Backlog Reduction Program on the number of
additional backlog analyses performed.

       To account for the discrepancies identified with NIJ’s In-house Program
statistics, we adjusted the statistics for the number of samples analyzed, the
number of samples uploaded, and the number of hits to accurately reflect
what was reported by the state laboratories in their performance reports.
For state laboratories reporting significantly more samples than were funded
under the In-House Program, we limited the number of samples analyzed


                                    - 48 -
and uploaded to the number of samples that were funded under the award.
The results of our analysis are presented in Table 13.

TABLE 13. OIG ADJUSTED IN-HOUSE PROGRAM STATISTICS
          BETWEEN OCTOBER 1, 2005 AND JUNE 30, 2008

                           OIG ANALYSIS OF
                            PERFORMANCE
         ACTIVITY              REPORTS           EXCESS SAMPLES       OIG ADJUSTED TOTALS
 Samples Analyzed              664,175               213,668               450,507
 Profiles Uploaded             633,172               191,115               442,057
 Hits 72                         5,704                     0                 5,704
Source: The OIG, NIJ, and state laboratories

Outsourcing Program

      Under the Outsourcing Program, the NIJ requires state laboratories to
submit quarterly statistics on the number of: (1) samples sent to the
vendor laboratory, (2) samples analyzed by the vendor laboratory,
(3) samples uploaded into CODIS, (4) failed samples, and (5) hits
generated. To determine the impact of the Outsourcing Program on the
backlog, we concluded these statistics, after verification by the OIG, were
the best available data. Therefore, we evaluated the performance data
reported by the state laboratories and found that many reports were
missing, submitted reports did not match quantities from vendor invoices,
and the NIJ did not adequately summarize the reports they received. We
concluded that the NIJ is under-reporting the number of analyzed and
uploaded samples that have been funded by the Outsourcing Program.

      To determine whether the statistics reported by the state laboratories
were accurate, we compared the statistics submitted by the state
laboratories with the vendor laboratory invoices submitted to the NIJ for
payment.

       In comparing vendor invoices to state laboratory statistics, we found
differences that were due to missing and incomplete submissions of statistics
by the laboratories. Specifically, as shown in Table 14, of the 38 contracts

       72
           Since state laboratories did not identify specific samples, we were unable to
attribute the reported hits to specific samples analyzed and uploaded using In-House
Program funds. As a result, we made no adjustments to the hits reported by the state
laboratories on the performance metric reports.


                                           - 49 -
under the Outsourcing Program, we found that the state laboratories failed
to submit the required statistics for 5 contracts (13.2 percent).

TABLE 14. NO. OF SAMPLES ANALYZED BY STATE LABORATORIES
          WITH NO PERFORMANCE REPORTS ON RECORD
        FISCAL YEAR                 STATE               VENDOR INVOICE SAMPLES
           2005                Massachusetts                   29,415
           2006                South Carolina                  38,272
           2006                Oklahoma                        31,169
           2007                New York                         2,088
           2007                Kansas                              75
           TOTAL                                             101,019
Source: The NIJ vendor files

      Additionally, as shown in Table 15, for 10 (26.3 percent) of the
contracts we found that the required statistics reported by the state
laboratories were lower than the number of samples reported as analyzed on
vendor invoices for the same time period.

TABLE 15. COMPARISON OF STATE LABORATORY REPORTED
          SAMPLES AND VENDOR INVOICES REPORTED SAMPLES
          BETWEEN OCTOBER 1, 2005 AND JUNE 30, 2008
                                  STATE
                               LABORATORY
                                REPORTED         VENDOR INVOICE
 FISCAL YEAR      STATE          SAMPLES        REPORTED SAMPLES   DIFFERENCE
    2005      New Jersey         11,595                52,252        40,657
    2005      Connecticut            964               22,314        21,350
    2006      Oregon               6,486               12,237         5,751
    2006      New Mexico           7,657                7,684            27
    2006      Connecticut            508                  956           448
    2006      Utah                   250                  593           343
    2006      Louisiana            1,784                2,414           630
    2006      Washington         48,003                49,049         1,046
    2007      Louisiana          10,471                11,500         1,029
    2007      Connecticut            524                7,998         7,474
           TOTALS               88,242               166,997        78,755
Source: The NIJ vendor files

      There were also an additional 18 contracts in which 31,698 samples
were reported analyzed by the state laboratories but had not yet been
invoiced.


                                   - 50 -
      Statistics reported by the state laboratories should be the best tool
that the NIJ has to measure the number of profiles uploaded to CODIS and
the number of CODIS hits from profiles analyzed using Outsourcing Program
funds. 73 However, we found that the state laboratories are submitting
incomplete and inaccurate data. Without complete data, the statistics for
the number of profiles uploaded and the hits generated do not provide a
complete and accurate representation of the performance of the Outsourcing
Program.

       As a result, we analyzed the statistics for the number of samples
reported in the vendor invoices. We found that vendor laboratory invoices,
which are verified by the state laboratories prior to submission to the NIJ for
payment, reported 521,257 samples analyzed compared to only 373,126
samples analyzed as reported by the state laboratories, resulting in a
difference of 148,131. Additionally, state laboratories reported 175,493
samples uploaded and 1,329 CODIS hits generated. Thus, we concluded
that NIJ is under-reporting the number of analyzed and uploaded samples
that have been funded by its Outsourcing Program.

OIG Analysis of Collected Performance Information

      Although the NIJ required state laboratories receiving In-house and
Outsourcing Program funding to include information on performance
measures, we found that the NIJ did not provide adequate guidance to, or
oversight of, the state laboratories’ reporting of performance information.
As a result, we identified inconsistencies with the statistical information
reported, which we believe prevents the NIJ from accurately assessing
overall Backlog Reduction Program performance. In particular, we found
that the state laboratories are over-reporting the number of analyzed and
uploaded samples funded by the In-house Program while under-reporting
those statistics for the Outsourcing Program. In our opinion, to obtain
accurate performance information, the NIJ should provide state laboratories
with guidance on and oversight of reporting the performance information
required in the performance reports. Specifically, we recommend that the
NIJ:


       73
           Neither the NIJ nor the vendor laboratories have access to CODIS. The state
laboratories are responsible for uploading DNA profiles and reporting hits once the vendors
complete their analysis of the DNA samples. Therefore, the NIJ cannot rely on vendor
invoices to determine the number of profiles uploaded and hits generated by vendor
developed profiles.

                                          - 51 -
   •   Develop a reliable and reasonable method for award recipients to
       determine the number of samples analyzed and uploaded using
       Backlog Reduction Program funds; and

   •   Ensure that the state laboratories submit required performance
       measures that include data for all samples analyzed and uploaded, as
       well as the number of hits generated using Outsourcing Program
       funding.

      We also found that although state laboratories were required to report
performance information to NIJ on a quarterly basis, the NIJ did not
adequately use the reported information to manage its Backlog Reduction
Program or to improve performance. Specifically, the NIJ did not summarize
the performance information reported by state laboratories to report on the
performance of the Backlog Reduction Program as a whole. Performance
information also was not used to evaluate the effectiveness of the individual
awards and contracts under the Backlog Reduction Program in accordance
with GPRA requirements. We believe that the NIJ should summarize the
performance information reported by state laboratories to ensure the true
impact of the Backlog Reduction Program is presented and the performance
of the awardees in implementing and executing the Backlog Reduction
Program is effectively monitored.

Conclusion

       Although the purpose of the Backlog Reduction Program is to
accelerate the analysis of backlogged samples into CODIS, we found
significant delays in the analysis, review, and upload of backlogged samples
for both the In-house and Outsourcing Programs. From our analysis, we
determined that these delays caused 184,637 convicted offender samples to
not be uploaded to CODIS for 9 months or more. If Backlog Reduction
Program funds are not used to analyze, review, and upload convicted
offender samples in a timely manner, the goals of the Backlog Reduction
Program are undermined.

      The NIJ should monitor both financial and programmatic activity to
ensure that the overall objective of reducing the backlog is accomplished.
The lack of financial and programmatic activity is an indication that an award
recipient may have encountered problems fulfilling the award requirements
or that the Backlog Reduction Program may not be meeting the specific
needs of the award recipient. As a result, we recommend that the NIJ


                                    - 52 -
monitor financial and programmatic activities, any problems identified are
addressed, unused Backlog Reduction Program funds are de-obligated in a
timely fashion, and the objectives of each award are substantially
accomplished before new awards to the same laboratory are funded.

Recommendations

     We recommend that the NIJ:

1.   Provide state laboratories improved guidance on reporting the
     performance information required in performance reports.

2.   Develop a reliable and reasonable method for award recipients in the
     In-house Program to determine the number of samples analyzed using
     In-House Program funds.

3.   Ensure that performance reports are submitted in a timely manner and
     include all required performance measurement data for the
     Outsourcing Program.

4.   Summarize the performance information reported by state laboratories
     to report on the effectiveness of the Backlog Reduction Program as a
     whole.

5.   Utilize the performance information reported by state laboratories to
     evaluate the effectiveness of individual awards and contracts funded
     under the Backlog Reduction Program, and to follow up on any poor
     performance.

6.   Ensure that financial and programmatic activities are monitored to
     determine if Backlog Reduction Program funds are being utilized in a
     timely manner.

7.   Follow up with award recipients that have not demonstrated any
     progress toward completion of the objectives of the In-house Program
     award to determine whether the recipients have encountered
     difficulties in implementing the award, and provide assistance as
     necessary.




                                   - 53 -
8.   Ensure that award funds are de-obligated and the awards are closed if
     award recipients are unable to use Backlog Reduction Program funds in
     a timely manner.

9.   Ensure that award recipients substantially accomplish the objectives of
     an award before any new awards are funded.




                                  - 54 -
III. COMPLIANCE WITH IN-HOUSE PROGRAM
     REQUIREMENTS

     We conducted 8 audits of state laboratories involving
     19 In-House Program awards totaling approximately
     $11.49 million to determine their compliance with what we
     considered to be the most important conditions of the awards.
     Based on the results of these audits of awards under the
     In-house Program, we identified $561,861 in total dollar related
     findings. We also found that performance information reported
     by the state laboratories were not verifiable, as required by the
     OJP Financial Guide. Finally, we found significant delays
     between the award start date and the first drawdown of funds.
     These findings indicate that the NIJ is not be adequately
     monitoring the In-House Program to ensure that award
     recipients are administering their awards in accordance with
     applicable laws, regulations, guidelines, and terms and
     conditions of the awards.

     After awards have been accepted by state laboratories, the NIJ is
responsible for managing and administering the programmatic and financial
aspects of the awards.

       As shown in Table 22, to determine whether the award recipients were
compliant with applicable laws, regulations, guidelines, and the terms and
conditions of the awards, we reviewed 8 state laboratories that received a
total of 19 awards.

TABLE 22. IN-HOUSE PROGRAM AWARDS SELECTED FOR REVIEW

         STATE                  FISCAL YEAR                TOTAL AWARD
                                   2005                      $756,927
    California
                                   2006                       756,297
                                   2005                       200,000
    Georgia                        2006                       294,000
                                   2007                       603,400
                                   2005                       227,213
    Kansas
                                   2006                       248,238
                                   2005                       266,998
    Missouri
                                   2006                       254,471
                                   2006                        52,500
    North Dakota
                                   2007                        57,200


                                   - 55 -
             STATE                     FISCAL YEAR                     TOTAL AWARD
                                          2005                          1,375,407
       New Jersey
                                          2006                            615,829
                                          2005                            237,000
       New York                           2006                            825,000
                                          2007                          1,000,000
                                          2005                            419,391
       Texas 74                           2006                          1,517,288
                                          2007                          1,781,320
             TOTAL                     19 AWARDS                     $11,488,479
Source: OJP GMS

     We included these award recipients in our review because they
generally involved the states that received the largest award amounts and
had drawn down the largest amount of funds as of the start of our audit.
The 8 state laboratories we reviewed received a total of approximately
$11.49 million to analyze 430,340 backlogged samples. 75 As of July 25,
2008, these recipients had drawn down approximately $9.1 million, or
68 percent of the $16.9 million In-House Program funds awarded.

      For each individual audit, we tested compliance with what we
considered to be the most important conditions of the awards. Unless
otherwise stated in our report, we applied the OJP Financial Guide as our
primary criteria in auditing these awards. 76 Specifically, we tested:

   •    Award Expenditures to determine whether the costs charged to the
        awards were allowable and supported.

   •    Reporting to determine whether the required quarterly financial
        status reports, progress reports, and performance reports were
        submitted on time and accurately reflected award activity.



        74
         Although audit work was conducted at the Texas Department of Public Safety
(Texas DPS), a separate report will not be issued. The audit objectives, scope, and
methodology for the individual grant audits are presented in Appendix I.
        75
         The funding received by the eight recipients selected represents 68 percent of the
funds awarded under the In-House Program between FYs 2005 and 2007.
        76
            The OJP Financial Guide serves as a reference manual assisting award recipients
in their fiduciary responsibility to safeguard award funds and ensure funds are used
appropriately.

                                           - 56 -
  •   Budget Management and Control to determine whether award
      recipients adhered to the NIJ-approved budget for expenditures of
      award funds.

  •   Drawdowns to determine whether the requests for reimbursement
      were adequately supported and if award recipients managed award
      receipts in accordance with federal requirements.

  •   In-House Program Performance to determine whether award
      recipients achieved award objectives and to assess performance and
      accomplishments.

Common Findings Identified

      Through the individual audits of awards made under the In-house
Program, we found two common findings related to compliance with the
reporting requirements outlined in the In-House Program solicitation or
special conditions of the award. We determined that: (1) performance
reports were not submitted in a timely manner, and (2) data reported in the
performance reports was not verifiable.

Untimely Submission of Performance Reports

       According to the FYs 2005, 2006, and 2007 In-House Program
solicitations and the special conditions of each award, performance reports
must be submitted within 45 days of the end of each quarter. These reports
address specific questions regarding the number of convicted offender
samples analyzed, and the number of DNA profiles reviewed, entered into
CODIS, and uploaded into NDIS when applicable. The responsive data
should be used by the NIJ to monitor the progress of each award recipient
and determine whether the In-House Program is producing its intended
results.

       For each award we examined, we determined that the award recipients
filed the reports semiannually and not quarterly as required. We asked
award recipients why the reports were not filed quarterly, and they
responded that the NIJ only requested the reports on a semiannual basis, so
the reports were submitted along with the progress reports that were due at
the same time.




                                   - 57 -
       We discussed this issue with the NIJ and found that OJP’s Grant
Management System was not set up to accept quarterly performance
reports, making it difficult for award recipients to meet the quarterly filing
requirements. Because of this, the NIJ instructed award recipients to submit
quarterly data with semiannual progress reports. The NIJ added a special
condition to the FY 2007 Backlog Program awards to require 1st and 2nd
quarter data to be submitted in the January-June progress report, and 3rd
and 4th quarter data to be submitted in the July-December progress report.
We found that the semiannual performance reports in GMS were filed along
with the progress reports and were generally on time according to the
updated guidance. As a result of the NIJ’s additional guidance, we are not
offering any recommendations.

Data Reported in Performance Reports Were Not Verifiable

      The OJP Financial Guide requires that award recipients collect data
appropriate for facilitating reporting requirements established by the
Government Performance and Results Act. According to the Guide, award
recipients must ensure that valid and auditable source documentation is
available to support all data collected for each performance measure
specified in the In-House Program solicitation.

      In the FYs 2005, 2006, and 2007 In-House Program solicitations, the
NIJ requires award recipients to report:

   •   The number of convicted offender DNA samples at the beginning of the
       award period;

   •   The number of convicted offender samples analyzed using In-House
       Program funds;

   •   The number of convicted offender DNA profiles developed and entered
       into CODIS and NDIS using In-House Program funds; and

   •   The number of CODIS hits (LDIS, SDIS, NDIS, forensic hits, offender
       hits and investigations aided) resulting from profiles developed from
       In-House Program funds.

      Based on our individual audits, we found that award recipients did not
track the samples completed with funding from each award separately, or
distinguish samples analyzed using federal funds from samples analyzed


                                    - 58 -
using other sources. We also found that some amounts reported on the
performance reports included samples sent to contractors that were not
affiliated with the awards.

      As a result, we were unable to verify the accuracy of the performance
data reported to the NIJ by award recipients funded under the In-House
Program. We believe that to comply with the requirements of the OJP
Financial Guide and ensure that it has reliable performance data from which
to accurately monitor In-House Program performance, the NIJ should require
award recipients to establish a mechanism that is both valid and auditable to
track the performance data required under the In-house Program.

Isolated Instances of Non-compliance

      We also identified isolated instances of non-compliance with the OJP
Financial Guide and conditions of the awards during the individual audits,
including: (1) unallowable items purchased using award funds;
(2) unallowable overtime expenditures charged to the In-House Program;
and (3) funds that could be put to better use. Recommendations regarding
these findings were included in our separate audit reports. The following is a
summary of the findings from each of the audits of these eight award
recipients.

New Jersey Department of Law and Public Safety 77

      The New Jersey Department of Law and Public Safety (DLPS) received
a total of $1,991,236 in In-House Program funding to reduce its backlog of
80,191 samples through in-house analysis and data review. Based on our
audit, we found that the DLPS did not fully comply with the In-House
Program requirements in three of the five areas audited, including:
(1) award expenditures, (2) reporting, and (3) In-House Program
performance.

      Specifically, we found that the DLPS charged $99,349 in unsupported
overtime expenditures, $18,466 in pre-award personnel and fringe benefit
expenditures, and $2,527 in unallowable non-budgeted administrative

       77
          Details regarding findings identified and associated recommendations can be
found in the OIG audit report, entitled U.S. Department of Justice Office of the Inspector
General, National Institute of Justice Convicted Offender DNA Backlog Reduction Program
Cooperative Agreements to The New Jersey Department Of Law And Public Safety, Audit
Report No. GR-70-08-003 (September 2008).

                                           - 59 -
equipment to the 2005 award. We also recommended $179,899 in unspent
funding from both awards be de-obligated and put to better use because the
objectives of the In-House Program have been achieved. As a result of the
deficiencies, we questioned a total of $300,241 in In-House Program funding
under these awards. The amount of dollar-related findings totaled
15 percent of the total award funding.

     In-house Program Performance

      As part of this audit, we sought to measure the DLPS’s success in
meeting award objectives. To accomplish this, we interviewed DLPS officials
and reviewed award documentation.

      In June of each year the DLPS submitted for each award the estimated
number of samples that would be backlogged at the start of each award in
October of the same year. The DLPS’s 2005 In-House Program goal was to
analyze 54,000 backlogged samples within the award period from October
2005 to September 2006. The goal stated in the 2006 application was to
analyze an additional 22,373 backlogged samples during the award period
from October 2006 to September 2007. In total, the DLPS estimated the
awards would be used to analyze 76,373 backlogged samples and
3,818 quality assurance samples.

      To determine if DLPS met its stated goal of analyzing a total of
76,373 backlogged samples, we reviewed the DLPS monthly reports
summarizing the number of samples received, analyzed, sent to contractors,
and uploaded to CODIS. Based on our analysis, we found that the DLPS
monthly reports contained laboratory activity as a whole and did not track
the specific group of backlogged samples identified in each award
application. Because of this, we could not determine when the initial
56,000 backlogged samples identified in the 2005 award and the additional
22,373 samples from the 2006 award were completed. In our view, it is
important to track the backlogged samples associated with each award so
that In-House Program progress can be tracked throughout the life of the
award and In-House Program adjustments can be made if needed.

      Although we could not identify the specific samples attributed to each
award, we reviewed the overall laboratory output to determine if the goals of
the In-House Program were met. According to the laboratory reports, there
were fewer than 4,300 samples awaiting analysis as of March 31, 2008.
From the reports, we found that these 4,300 samples were from the current


                                   - 60 -
influx of samples, as DLPS had received over 38,000 samples after its award
applications were submitted in October 2006. Although we cannot pinpoint
when the original backlog identified in these applications was eliminated, we
estimate that it was at the end of 2007.

      Because we determined the backlogged samples identified in the
applications have been completed, and laboratory officials confirmed that the
backlog was eliminated, we recommend that the remaining balance of the
awards totaling $179,899 in unspent funds be de-obligated and put to better
use.

Kansas Bureau of Investigation 78

      The Kansas Bureau of Investigation (KBI) received a total of
$475,451 in In-House Program funding to reduce its backlog of 16,720
samples through in-house analysis and data review. Based on our audit, we
found that KBI’s financial management system generally appears to have an
adequate system of internal controls to ensure compliance with applicable
requirements, and the system of controls adequately provides for
segregation of duties, transaction traceability, system security, and limited
access. Our review also revealed that expenditures listed in KBI’s
accounting records supported drawdowns made under the award, and KBI
complied with the budget requirements of the award. Generally,
transactions reviewed were properly authorized, classified, supported, and
charged to the award. However, we found KBI did not upload analyzed
convicted offender samples into the state and national DNA Index System as
required by the solicitation.

       In-House Program Performance

       The purpose of this award was to accelerate the analysis of convicted
offender samples collected by states in order to provide compatible data for
local, state, and national DNA databases so that law enforcement was
provided with critical investigative information in a timely manner. As
shown in Table 23, we found that as of December 2007, the KBI analyzed
5,925 or 77 percent of the samples proposed to be analyzed and uploaded to

       78
          Details regarding findings identified and associated recommendations can be
found in the OIG audit report, entitled U.S. Department of Justice Office of the Inspector
General, Office of Justice Programs National Institute of Justice Cooperative Agreement
Awarded To The Kansas Bureau of Investigation, Audit Report No. GR-60-08-009
(July 2008).

                                           - 61 -
CODIS by a 2005 award from NIJ. However, of the total samples analyzed,
we found that only 1,509 or 25 percent of the samples had been uploaded to
CODIS.

TABLE 23. ANALYSIS OF SAMPLES ANALYZED AND UPLOADED BY
           THE KANSAS BUREAU OF INVESTIGATION
                                NO. OF SAMPLES TO                           NO. OF SAMPLES
                                 BE ANALYZED PER        NO. OF SAMPLES       UPLOADED TO
     AWARD FISCAL YEAR              PROPOSAL              ANALYZED              CODIS
           2005                         7,680                5,925               1,509
           2006                         9,040                  0                   0
          TOTAL                       16,720                 5,925               1,509
Source: Progress reports and performance reports submitted by Kansas Bureau of
        Investigations

       According to KBI officials, the progress of analyzing, reviewing, and
uploading samples had been delayed and the In-House Program was
subsequently extended by OJP through a Grant Adjustment Notice (GAN).
KBI officials stated that the In-House Program activities were progressing
until Kansas began collecting DNA samples from arrestees. During this time,
KBI officials indicated they stopped working on the backlogged samples in
order to address samples received as a result of the “new” arrestee statute,
which included purchasing and validating the new kit design, implementing
new database software, hiring new staff, and developing new procedures for
handling arrestee samples. After implementing the arrestee collection, KBI
officials stated that they resumed working on their backlog with the
objective of eliminating the backlog by the end of 2008.

North Dakota Office of the Attorney General 79

      The North Dakota Office of the Attorney General (North Dakota)
received $109,700 in In-House Program funding to reduce its backlog of
3,530 samples through In-house analysis and data review. During our
audit, we found that North Dakota’s financial management system generally
appears to have an adequate system of internal controls to ensure
compliance with applicable requirements, and the system of controls
adequately provides for segregation of duties, transaction traceability,

       79
          Details regarding findings identified and associated recommendations can be
found in the OIG audit report, entitled U.S. Department of Justice Office of the Inspector
General, Office of Justice Programs National Institute of Justice Cooperative Agreements
Awarded To The North Dakota Office of the Attorney General, Audit Report
No. GR-60-08-008 (July 2008).

                                           - 62 -
system security, and limited access. Our review also found that
expenditures listed in North Dakota’s accounting records supported
drawdowns made under the award and that North Dakota complied with the
budget requirements of the award. Additionally, we reviewed all
transactions and found that they were properly authorized, classified,
supported, and charged to the award.

      We also reviewed statistical information reported in both the progress
reports and metric reports submitted by North Dakota to NIJ as required
under the award. Specifically, we verified statistical information contained in
these reports by comparing North Dakota’s CODIS convicted offender
uploads during the quarterly reporting periods to the number of cases
reported on the metric reports. For the $52,500 awarded in FY 2006, we
found that North Dakota analyzed and uploaded to CODIS
2,100 (100 percent) of the samples funded. For the $57,200 awarded in
FY 2007, we found that as of the progress report dated January 28, 2008,
and metric report dated January 29, 2008, North Dakota reported that no
funds had been drawn down or expended.

Georgia Bureau of Investigation 80

      The Georgia Bureau of Investigation (GBI) received three awards
between FYs 2005 and 2007 totaling $1,097,400 to perform the analysis of
41,260 samples. Based on our review of the GBI’s accounting records,
quarterly financial status reports, progress reports, and operating policies
and procedures, we found that the GBI generally complied with In-House
Program requirements.

      GBI received funds to analyze, review and upload 8,000 convicted
offender samples under its FY 2005 award, 11,760 samples under its
FY 2006 award, and 21,500 samples under its FY 2007 award. We
determined that GBI had successfully completed the analysis, review, and
upload of 8,781 samples (110 percent) under the FY 2005 award,
10,338 (88 percent) under the FY 2006 award, and 12,746 (60 percent)
under the FY 2007 award. We discussed accomplishment of the targets with
GBI staff. GBI officials stated, and we confirmed, that the 2006 target was

       80
          Details regarding findings identified and associated recommendations can be
found in the OIG audit report, entitled U.S. Department of Justice Office of the Inspector
General, Office of Justice Programs National Institute of Justice DNA Backlog Reduction
Cooperative Agreements Awarded To The Georgia Bureau of Investigation, Audit Report
No. GR-40-08-005 (September 2008).

                                           - 63 -
not met because the cost of grant-funded supplies was higher than
anticipated, and the amount of supplies purchased was not sufficient to
analyze the target number of samples. GBI officials also informed us that
the 2007 cooperative agreement had been extended through December
2008. GBI anticipates that the target for the FY 2007 award will be met by
December 2008 if the prior level of performance is maintained.

New York State Police Forensic Investigation Center 81

      The New York State Police (NYSP) Forensic Investigation Center
received an FY 2006 award of $825,000 to reduce its backlog by 27,500
samples through in-house analysis and data review. During our audit, we
determined that the NYSP generally complied with the requirements of the
award and was successful in meeting its objectives. However, we found that
the NYSP did not submit all required progress and performance reports in a
timely or accurate manner. In addition, we identified concerns about the
way in which the NYSP used its award funding relative to the objectives of
the In-House Program and related requirements. While we found that the
funding from this award was used for incremental or additional samples to
be analyzed, we also found that the NYSP did not thoroughly document that
the DNA samples being analyzed with award funds were incremental or
additional to what the NYSP could accomplish with its own existing funding.

       In-House Program Performance

       NYSP received funds to analyze, review and upload 27,500 convicted
offender samples under its FY 2006 award. In progress reports submitted to
the NIJ, the NYSP reported that all 27,500 backlog samples were analyzed
using agreement funding between July and December 2007. However,
during our audit the NYSP could not specifically identify a set group of
27,500 DNA samples at the beginning of the agreement or track the staff
overtime and supplies related to each sample. Instead, the NYSP simply
identified the first 27,500 DNA samples analyzed after agreement funding
became available as the backlogged samples analyzed with this agreement.



       81
          Details regarding findings identified and associated recommendations can be
found in the OIG audit report, entitled U.S. Department of Justice Office of the Inspector
General, National Institute of Justice Convicted Offender DNA Backlog Reduction Program
Cooperative Agreement To The New York State Police Forensic Investigation Center, Audit
Report No. GR-70-08-004 (September 2008).

                                          - 64 -
Missouri State Highway Patrol 82

       The Missouri State Highway Patrol (MSHP) received two awards
totaling $521,469 to analyze 24,993 backlogged convicted offender samples
through the In-house Program. During our audit, we found that the MSHP
did not use the FY 2006 award; as a result, $254,471 was de-obligated. We
also found that the MSHP had not notified OJP of its use of sole-source
vendors for all of its procurement purchases, did not accurately charge
overtime and fringe benefit costs, and did not correctly or timely complete
its Financial Status, Categorical Assistance Progress, and Quarterly
Performance Metrics Reports.

       In-House Program Performance

      We determined the MSHP reported erroneous performance metrics
data in the reports for the periods ending December 31, 2006, and March
31, 2007, because the information submitted was not supported by the
limited documentation we received from the MSHP. In total, the MSHP
misrepresented its processing of DNA samples by 12.61 percent. As a result
of MSHP’s inaccurate performance metrics reporting, the NIJ did not receive
accurate information for the specific reporting periods.

California Department of Justice 83

     The California Department of Justice (California DOJ) was granted two
awards between FYs 2005 to 2006 totaling $1,513,224 for the analysis of
60,000 backlogged convicted offender DNA samples.

      We found that the California DOJ generally complied with the terms
and conditions of the grants, with the exception that the California DOJ did
not consistently submit timely progress reports for either grant. In total, six


       82
          Details regarding findings identified and associated recommendations can be
found in the OIG audit report, entitled U.S. Department of Justice Office of the Inspector
General, Office of Justice Programs National Institute of Justice Cooperative Agreement
Awarded to The Missouri State Highway Patrol, Audit Report No. GR-50-09-002
(February 2009).
       83
          Details regarding findings identified and associated recommendations can be
found in the OIG audit report, entitled U.S. Department of Justice Office of the Inspector
General, Office of Justice Programs Convicted Offender DNA Backlog Reduction Program
Grants Awarded to The California Department of Justice, Audit Report No. GR-90-09-001
(January 2009).

                                           - 65 -
of the eight required progress reports were submitted late. The grantee
acknowledged the lack of timeliness in submitting progress reports and
attributed it to administrative oversight and failure to effectively manage
multiple, competing priorities.

      In-House Program Performance

      We determined the California DOJ had successfully met or exceeded its
goal of reducing the state’s backlog by 60,000 samples using In-House
Program funding.

Conclusion

      We conducted 8 audits of state laboratories, which included
19 In-House Program awards totaling approximately $11.49 million. Based
on the results of the individual audits of these awards, we identified
$561,861 in total dollar related findings. We also found that performance
information reported by the state laboratories was not fully verifiable, as
required under the OJP Financial Guide. Finally, we found significant delays
between the award start date and the first drawdown of funds for some of
these awards. These findings indicate a lack of adequate monitoring of the
In-House Program by NIJ.

Recommendation

We recommend that the NIJ:

10.   Require award recipients to establish a mechanism that is both valid
      and auditable for tracking performance data required under the
      In-House Program.




                                    - 66 -
IV. VENDOR COMPLIANCE WITH THE CONTRACT
    REQUIREMENTS

       In general, we found that invoices from vendor laboratories
       analyzing DNA samples were accurate, adequate controls were in
       place to ensure the accuracy and integrity of samples, and
       quality and technical reviews were regularly performed.
       However, we identified several areas of concern related to the
       timeliness of the samples completed and returned to the state
       laboratories under the contracts. As the liaison between the
       state and vendor laboratory, the NIJ should work with both
       vendors and state laboratories to reduce such delays.

       In addition to In-house Program awards, the NIJ also offers awards for
state laboratories to reduce their backlog of convicted offender samples by
sending those samples to vendor laboratories for analysis. 84 As illustrated in
Figure 6, each year the NIJ requests state laboratories to provide the
number of backlogged samples to be analyzed through the Outsourcing
Program, as well as the technical requirements for the analysis of the
samples. Based on the responses, the NIJ enters the information into a
standard Request for Quote (RFQ) that is sent out to bid to vendor
laboratories on the GSA approved list. Vendor laboratories then submit bids
to perform the analysis to OJP’s Acquisition Management Division (AMD).
The bids include a self-certification that the laboratory complies with the
provisions in the RFQ, including the capacity and technical ability to perform
the analysis. The accuracy of the vendor laboratories’ self-certification may
be verified by the NIJ by looking at the Grant Progress Assessment report
that must be completed annually for all vendors. The contracts are typically
awarded to the vendor that meets all RFQ requirements and has the lowest
cost.




       84
          Under the Outsourcing Program, the NIJ is responsible for providing federal
contract administration, and serving as the technical contact for all contracts awarded under
the Outsource Program. Through this role, the NIJ acts as the liaison between the state and
vendor laboratories to ensure that any problems that arise during the course of the contract
are resolved.


                                           - 67 -
FIGURE 6. CONTRACT AWARD PROCESS




Source: The NIJ

       Once a vendor laboratory has been awarded a contract to analyze a
state laboratory’s backlog samples, the state and vendor laboratories work
directly with each other to obtain the samples and clarify any issues with the
statement of work. 85 As illustrated in Figure 7, samples are processed by
the vendor laboratory, which prepares and sends an invoice to the state
laboratory along with the completed profiles. The state laboratory is
responsible for verifying the invoice for accuracy, authorizing the profiles
and invoice for payment, and returning the approved invoice back to the
vendor laboratory. The vendor laboratory then forwards the approved
invoice to OJP’s Office of the Chief Financial Officer (OCFO) for payment.




      85
         The SOW provides the vendor with all of the detailed requirements and criteria
the vendor must accomplish or adhere to in the delivery order.


                                         - 68 -
FIGURE 7. INVOICE PAYMENT PROCESS




Source: The NIJ

      As shown in Table 24, contracts under the Outsourcing Program
totaled approximately $3.3 million in FY 2005, $13.5 million in FY 2006, and
$7.6 million in FY 2007 to analyze 786,669 backlog samples between
FYs 2005 and 2007.

TABLE 24. VENDOR LABORATORIES FOR FYs 2005 THROUGH 2007
                  FY 2005      SAMPLES    FY 2006       SAMPLES     FY 2007      SAMPLES
    VENDOR         FUNDS       FUNDED       FUNDS       FUNDED       FUNDS       FUNDED
 Bode                   $---        ---   $3,624,818    134,236    $1,454,350     29,300
 Chromosomal             ---        ---           ---        ---           ---        ---
 Identity                ---        ---    3,039,916    106,722            ---        ---
 Lab Corp                ---        ---           ---        ---    2,290,634     78,290
 Orchid           1,386,876     49,646     5,765,872    153,303     2,630,600     93,950
 ReliaGene        1,934,336     69,207     1,060,025     31,015     1,085,000     35,000
 Strand                  ---        ---           ---        ---      170,400      6,000
      TOTALS      $3,321,212   118,853    $13,490,632   425,276    $7,630,984    242,540
Source: The NIJ vendor files

      To verify vendor laboratory compliance with the terms of the
contracts, we performed site visits at two vendor laboratories. We selected
these laboratories based on a risk assessment of all vendor laboratories


                                          - 69 -
receiving contracts under the Outsourcing Program. Our risk assessment
included a review of In-House Program narratives submitted to the NIJ in
the award applications by award recipients, an assessment of the comments
received in our survey, and comments from NIJ officials. Comments that we
received concerning the vendor laboratories related to inaccurate convicted
offender profiles being produced, failure to adhere to policies and
procedures, and the untimely completion of outsourced samples.

      Based upon our results, we selected Orchid/Cellmark (Orchid) located
in Nashville, Tennessee and Identity Genetics, Inc. (IGI) located in
Brookings, South Dakota for site visits.

      For each site visit, we tested compliance with what we considered to
be the most important conditions of the contract. Specifically, we:

   •   reviewed invoices from each of the vendor laboratory’s active
       contracts to ensure that the samples invoiced reconciled to the
       samples actually analyzed,

   •   assessed the controls in place to ensure accuracy of the number of
       samples tested as well as the integrity of the samples throughout the
       process,

   •   ensured that quality checks and technical reviews had been performed
       as required, and

   •   verified the timeliness of the samples being completed and returned to
       the state laboratory.

Orchid/Cellmark

      The forensic DNA testing services of Orchid in the United States are
concentrated in two laboratories. Casework analysis is provided primarily by
the facility in Dallas, Texas, and convicted offender CODIS profiling services
are provided by the facility in Nashville, Tennessee. According to the NIJ,
contracts originally awarded to the Orchid facility in Dallas were transferred
to the Nashville facility after serious issues of non-compliance with the FBI’s
Quality Assurance Standards (QAS) were uncovered in an annual DNA audit.
The specific issues of non-compliance were not disclosed to the OIG. As a
result of the contract transfers from Orchid of Dallas to Orchid of Nashville,
we performed a site visit to the Nashville facility only, since it is the only


                                    - 70 -
Orchid laboratory analyzing samples under the Outsourcing Program. As
shown in Table 25, Orchid was awarded 10 contracts totaling approximately
$9.8 million for the analysis of 296,899 backlog DNA samples.

TABLE 25. CONTRACT ACTIVITY FOR ORCHID AS OF
          JUNE 30, 2008
                                 AWARD                    TOTAL OF     COMPLETED
FISCAL YEAR        STATE         AMOUNT       SAMPLES     INVOICES      SAMPLES
   2005       Connecticut        $596,324       21,412      $621,445     22,314
   2005       Massachusetts       790,552       28,234       823,732     29,415
   2006       Pennsylvania      3,267,361       82,718     3,100,672     78,498
   2006       Rhode Island         79,800        2,000        79,800      2,001
   2006       New Mexico          263,211        7,685       263,177      7,684
   2006       Idaho               108,000        2,400             0          0
   2006       Washington        2,047,500       58,500     1,716,715     49,049
   2007       Louisiana         1,400,000       50,000       342,972     13,249
   2007       Louisiana         1,120,000       40,000       343,000     11,500
   2007       Montana             110,600        3,950         7,000        250
   TOTAL                      $9,783,348      296,899    $7,298,513    213,960
Source: OJP

      In general, we found that Orchid’s invoices were accurate, and
samples were completed and returned to the state laboratories in a timely
manner. However, we had received several comments from state
laboratories related to Orchid’s inadequate controls to ensure the accuracy
and integrity of the samples throughout the process and inadequate quality
checks and technical reviews by Orchid under the contracts awarded.
Specifically, comments were received from several state laboratories
regarding unqualified staff processing samples, repeated contamination
events, inadequate equipment to produce according to the statement of
work, lack of protocol to process state laboratory backlog, and numerous
errors in processing samples. As a result, we followed up on these concerns
to ensure each was adequately addressed during our site visit.

Laboratory Information Management System

      During our site visit to Orchid, we found that it developed an
Excel-based, fully integrated Laboratory Information Management System to
handle all aspects of the process from receipt of shipment from the state
laboratory to shipment of the completed profiles back to the state
laboratory. The process begins with initial receipt of samples collected in a
receiving room. From there, samples are taken into Orchid’s laboratory and


                                     - 71 -
assigned a unique barcode. Typically, the samples are received with a
barcode from the state laboratory, and that barcode is matched to the
Orchid generated barcode so that the sample is tracked throughout the
process. Orchid’s Laboratory Information Management System is fully
integrated with processing equipment so each sample can be tracked
throughout the process.

Policies and Procedures

       Orchid officials informed us that to ensure accuracy, completeness,
and proper authorization, all Orchid policies and procedures are fully
documented and available on-line, and that these policies and procedures
require laboratory technicians to be fully trained and certified for some or all
of the various process operations involved in analyzing samples before they
are allowed to handle any sample. Additionally, Orchid’s policies require that
any new staff trained and certified to analyze samples are monitored an
additional 6 months before being allowed to work independently.

       Upon observation of Orchid’s processes and procedures, we found that
technicians have a unique user identification and password that limits access
to the Laboratory Information Management System based upon their
qualifications. Only technicians who have been trained and certified in a
given task may perform that step in the overall analysis. Orchid also had a
system of checks and reviews where certain procedures are verified and
signed off by an independent technician. Additionally, Orchid established a
quality review in which its personnel perform routine audits and observe
laboratory technicians.

Contract Compliance

      Orchid officials explained that to ensure compliance with the contract
requirements, particularly criteria specific to the contract such as Reflective
Fluorescent Unit minimums and maximums, they created an on-line
spreadsheet that details the specifics of every contract. 86 Laboratory
technicians are to refer to these requirements throughout the process to
ensure the analysis is within specified limits. Additionally, Orchid policies


       86
           The reflective fluorescent unit is a measure of the reflectivity of the fluorescent
material used to identify the ends of a DNA string so that the alleles can be quantified. The
reflective fluorescent unit must be within minimum and maximum limits to ensure
high-quality readings.

                                            - 72 -
and procedures require that all technical specifications are documented and
reviewed on a regular basis.

Summary

        Many of the conditions identified in our risk assessment appear to be
isolated to Orchid’s Dallas facility. Based on our review of Orchid’s Nashville
facility, it appears adequate internal controls have been established to
ensure that samples sent to Orchid are analyzed under the terms and
conditions of the contract.

Identity Genetics, Inc.

       Based in Brookings, South Dakota, Identity Genetics, Inc. (IGI) is a
privately owned, independent company that specializes in DNA testing. IGI
conducts genetic analyses for the purpose of determining paternity, family
relationships, and forensic testing. Between April 28, 2006, and May 1,
2006, IGI was awarded 2 contracts totaling approximately $1.4 million for
the analysis of 55,868 backlog samples. Between September 1, 2006, and
September 13, 2006, IGI was awarded an additional 5 contracts totaling
approximately $1.7 million for the analysis of 50,854 backlog samples for a
total of approximately $3.0 million for 106,722 samples, as shown in Table
26.

TABLE 26. CONTRACT ACTIVITY FOR IDENTITY GENETICS,
          INCORPORATED AS OF JUNE 30, 2008
 FISCAL                                                AMOUNT       COMPLETED
  YEAR         STATE       AWARD AMOUNT   SAMPLES     INVOICED       SAMPLES
  2006    South Carolina     $1,060,360    43,280      $937,664       38,272
  2006    Oregon                320,994    12,588        313,044      12,237
  2006    Connecticut            51,072     1,824         26,768         956
  2006    Wyoming               225,600     4,700        201,072       4,088
  2006    Utah                  495,000    15,000         19,569         593
  2006    South Dakota          275,400    10,800        142,214       5,577
  2006    Louisiana             611,490    18,530         79,662       2,414
  TOTAL                     $3,039,916    106,722    $1,719,992      64,137
Source: OJP

       In general, we found that IGI’s invoices were accurate, adequate
controls were in place to ensure the accuracy and integrity of samples, and
quality and technical reviews were regularly performed. However, we
identified several areas of concern related to the timeliness of the samples


                                    - 73 -
completed and returned to the state laboratories under the contracts
awarded. Additionally, we received several comments from state
laboratories regarding IGI’s lack of productivity, problems with
instrumentation, and high number of rejected samples. IGI officials stated
the causes of the delays included:

  •   changes to the contract,

  •   equipment problems that reduced sample capacity,

  •   delays in receipt of payment prevented purchase of supplies,

  •   low-quality samples prevented DNA analysis, and

  •   staff turnover impacted the productivity.

Changes to the Contract

      During our site visit, IGI officials explained that changes to the
contract can have a negative impact on IGI’s ability to perform. For
example, under its contract with the Louisiana state laboratory, IGI was
originally required to run backlog samples using a 3130 genetic analyzer.
During this time, the Louisiana state laboratory also was using contractors
to perform the technical review of all samples generated by IGI. However,
in June 2008 the Louisiana state laboratory’s contract with the technical
review vendor ended. As a result, the Louisiana state laboratory began
using an expert system for technical review (a computer program that can
assist forensic DNA analysts with the technical review of DNA samples by
alerting the analyst to those samples that may require a more thorough
manual review). This dramatically reduces the amount of time an analyst
needs to spend on reviewing DNA profiles prior to upload. Because the
Louisiana state laboratory only validated the expert system using data
generated by a 3100 genetic analyzer, it requested that IGI switch from a
3130 to a 3100 genetic analyzer so that it would not have to manually
review all profiles. However, because IGI did not have a validated 3100 in
operation at the time, it could not comply with the request without incurring
a significant increase in costs. As a result, IGI had only processed
12 percent of the backlog samples under the contract. At the time of our
review, IGI, the Louisiana state laboratory, and the NIJ were discussing
potential solutions.



                                    - 74 -
Equipment Problems Reduced Sample Capacity

        Between April and September 2006, IGI was awarded 7 contracts to
analyze 106,722 backlogged samples. To increase its capacity and process
samples in a timely fashion, IGI purchased a second genetic analyzer in
December 2006, which was validated and put into service in July 2007.
However, shortly after being put into service, IGI experienced problems with
its first genetic analyzer. As a result, from July 2007 until March 2008 this
genetic analyzer was out of service reducing IGI’s capacity and output.

Delays in Receipt of Payment Prevented Purchase of Necessary Supplies

       IGI officials also explained that it had experienced delays in receiving
payment for invoices at the beginning of the contract award period, which
limited its ability to purchase additional supplies needed to analyze the
backlogged samples. As a small company, IGI did not receive the volume
discounts on supplies and did not have the necessary funding to purchase
supplies for the entire contract up front. According to an IGI official, the
company relied on timely reimbursement to continue to fund their analysis.
Originally, the process for payment of an invoice required the state
laboratory to review all data submitted before an invoice was sent to the NIJ
for payment, resulting in a delay in the payment of submitted invoices. The
NIJ has since changed this requirement and allows payment of an invoice
after the state laboratory has verified the accuracy of the number of samples
invoiced without the state laboratory having to first review and verify the
quality and accuracy of the data.

Low Quality Samples Prevented DNA Analysis

       According to IGI officials, they have also experienced problems with
the samples received from the state laboratories. For example, when a
convicted offender’s DNA is collected, a swabbing of the inside of the cheek
is taken. This swabbing, called a buccal swab, is then smeared onto FTA
paper, a paper specially treated to bind and protect DNA from degradation. 87
Many of the samples submitted to IGI showed no indication of saliva on the
FTA paper, and in order to obtain sufficient extracted DNA to develop a
profile, IGI had to modify the original FTA extraction protocol specified in the

       87
           FTA paper is specially treated to bind and protect nucleic acids extracted from
blood, plant and animal tissue, and other sources from degradation. For analysis, a small
disc is punched from the FTA paper containing the DNA sample of interest, washed, dried
and used for polymerase chain reaction (PCR).

                                           - 75 -
statement of work. According to IGI officials, these modifications greatly
increased the time and cost of analysis for IGI.

Staff Turnover

       Because of delays to the contracts and a lack of communication
between IGI and the state laboratories, many laboratories complained to
both the NIJ and IGI. According to IGI officials, as a result of customer
service issues the former laboratory director and technical director resigned,
resulting in a large impact on IGI’s productivity.

Summary

      In our judgment, many of the issues causing delays to the completion
of the contracts awarded to IGI under the Outsourcing Program are outside
the control of IGI. Therefore, options for corrective action regarding IGI are
limited. However, we believe as the liaison between the state and vendor
laboratory, the NIJ should continue to work with both IGI and the state
laboratories to ensure that the problems identified are resolved and the
goals and objectives of the contracts awarded are met.

Conclusion

      During our site visits we found that, in general, vendor laboratories
had adequate controls in place to ensure the accuracy and integrity of
samples, and that vendor invoices were accurate. However, we identified
several issues that caused delays to the analysis of backlogged samples
under the Outsourcing Program including: (1) poor quality of samples
received from the state laboratory, (2) delays in payment caused by late
approval of invoices by the state laboratory, (3) samples delayed due to
internal issues the laboratory had with equipment malfunctions and staff
turnover, and (4) changes to the analysis defined in the statement of work
by the state laboratories. Even though some of these issues were outside
the control of the NIJ and the vendor laboratories, they prevented the
Outsourcing Program from achieving its objective of accelerating the analysis
of convicted offender and arrestee DNA samples collected by states,
pursuant to applicable laws, in order to provide timely CODIS-compatible
data for state and national DNA databases. As the liaison between the state
and vendor laboratory, the NIJ should continue to work with both the
vendors and the state laboratories to ensure that the problems causing



                                    - 76 -
delays to the Outsourcing Program are resolved and the goals and objectives
of the contracts awarded are met.

Recommendation

      We recommend that the NIJ:

11.   Develop policies and procedures to facilitate pre-contract discussions
      as well as ongoing contract monitoring between state and vendor
      laboratories, to ensure that contract expectations are clear and that
      problems are identified, discussed, and resolved in a timely manner.




                                    - 77 -
                STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit of the Convicted Offender DNA
Backlog Reduction Program, we considered the NIJ’s internal controls for the
purpose of determining our auditing procedures. The evaluation was not
made for the purpose of providing assurance on the internal control
structure as a whole. However, we noted certain matters that we consider
reportable conditions under generally accepted government auditing
standards. 88

Finding II

   •   The NIJ did not use reported information to manage the Backlog
       Reduction Program as a whole, or to evaluate the effectiveness of the
       individual awards and contracts under the Backlog Reduction Program.

   •   The NIJ failed to provide adequate guidance on reporting performance
       information resulting in performance data that did not accurately
       reflect the performance of award recipients under the Backlog
       Reduction Program as a whole.

   •   The NIJ did not adequately address delays by the states to utilize
       Backlog Reduction Program funding to analyze, review, and upload
       backlogged samples from both the In-house and Outsourcing
       Programs.

Finding III

   •   The NIJ did not require award recipients to ensure that valid and
       auditable source documentation is available to support all data
       collected as specified in the In-House Program solicitation and required
       by the OJP Financial Guide.

      Because we are not expressing an opinion on the overall management
control structure of the NIJ, this statement is intended solely for the
information and use by this component in administering the federal
regulations governing for federal awards.

       88
           Reportable conditions involve matters coming to our attention relating to
significant deficiencies in the design or operation of the management control structure that,
in our judgment, could adversely affect the ability of NIJ to administer awards and contracts
under the Backlog Reduction Program.

                                           - 78 -
                STATEMENT ON COMPLIANCE WITH
                    LAWS AND REGULATIONS

       As required by the Government Auditing Standards, we tested the
NIJ’s records and documents pertaining to the Backlog Reduction Program to
obtain reasonable assurance about the NIJ’s compliance with laws and
regulations, that, if not complied with, we believe could have a material
effect on the administration of the Backlog Reduction Program. Compliance
with laws and regulations applicable to qualifying Backlog Reduction Program
applicants for award eligibility and to the administration of the Backlog
Reduction Program awards is the responsibility of the NIJ management. An
audit includes examining, on a test basis, evidence about compliance with
laws and regulations. At the time of our audit, the federal regulations
governing the requirements for the Backlog Reduction Program could be
found in:

        •   The Debbie Smith Act of 2004 – Extended the DNA Backlog Analysis
            Act of 2000 (PL 108-405) by authorizing appropriations of
            $151,000,000 in each of FYs 2005 through 2009

        •   The DNA Fingerprint Act of 2005 - Amends the DNA Identification
            Act of 1994 to repeal a provision prohibiting the DNA profiles from
            arrestees who have not been charged with a crime from being
            included in the National DNA Index System.

        •   28 C.F.R. Part 66, Uniform Administrative Requirements for Grants
            and Cooperative Agreements to State and Local Governments

        •   OMB Circular A-102, Grants and Cooperative Agreements with
            State and Local Governments


      Nothing came to our attention that caused us to believe that the NIJ
management was not in compliance with the federal regulations governing
the requirements for federal awards listed above.




                                         - 79 -
                                                                APPENDIX I

             OBJECTIVE, SCOPE, AND METHODOLOGY

      We audited the Convicted Offender DNA Backlog Sample Reduction
Program, which was designed to accelerate the analysis of convicted
offender and arrestee DNA samples collected by states, pursuant to
applicable laws, in order to provide timely CODIS-compatible data for state
and national DNA databases. The objectives of this audit were to determine
the adequacy of the NIJ’s administration of the Backlog Reduction Program
by evaluating:

   •   the impact of the Backlog Reduction Program on reducing the
       convicted offender DNA backlog;

   •   the NIJ’s administration and oversight of the In-house Program;

   •   the extent to which the In-house Program award recipients have
       administered their awards in accordance with applicable laws,
       regulations, guidelines, and terms and conditions of the award;

   •   the NIJ’s oversight of the Outsourcing Program; and

   •   the compliance by vendor laboratories with contractual requirements.

      We conducted our audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives. The
audit generally covered, but was not limited to, Backlog Reduction Program
performance, Backlog Reduction Program awards and contracts made
between FYs 2005 through 2007. Audit work was conducted at the NIJ
headquarters, eight selected state laboratories, and two vendor laboratories.

      While there is no single comprehensive resource that tracks or
estimates the backlog in local, state, and federal laboratories, we attempted
to evaluate and characterize the backlog to determine the effectiveness of
the Backlog Reduction Program in reducing the backlog of DNA samples by
interviewing NIJ officials and reviewing statistical information contained in
the quarterly performance metrics reports, quarterly financial status reports,
and semiannual progress reports submitted by each award recipient under
the Backlog Reduction Program. Reliance on computer processed data was
not significant to our objectives. Additionally, we conducted a survey of all
state laboratories conducting analysis of convicted offender/arrestee sample
analysis and all vendor laboratories with outsourcing contracts to obtain
statistical information of trends in the overall backlog.

       To evaluate the adequacy of the NIJ’s oversight and administration of
the Backlog Reduction Program, we compared documentation provided by
state laboratories to the NIJ estimates of Backlog Reduction Program
performance to determine whether the NIJ: (1) regularly collected timely
and credible performance information from state laboratories that received
funding under the Backlog Reduction Program; and (2) used the
performance information reported by state laboratories to manage the
Outsourcing Program and improve performance.

      To determine whether the NIJ was monitoring the utilization of funds
awarded under the Backlog Reduction Program, we reviewed drawdown
reports for each of the awards under the In-House Program. For those
awards with no reported drawdowns, we further analyzed this condition by
reviewing quarterly financial status reports and performance reports for
awards to determine whether the award recipients reported financial activity
or samples analyzed. We also compared the award start date to the date of
the initial drawdown to determine the length of time between the date the
funds were obligated and the date of the initial drawdown. For awards
where the initial drawdown occurred 1 year from the date funds were
obligated, we obtained all performance reports submitted prior to the initial
drawdown to determine whether the award recipients reported financial or
programmatic activity prior to the initial drawdown.

      To determine whether the NIJ had awarded funds to recipients that
had not drawn down funding from previous awards, we reviewed quarterly
financial status reports and performance reports for awards that had not
been drawn down to determine whether the award recipients reported
financial activity or samples analyzed. We then compared the date of first
drawdown of the inactive award to the date funds were obligated under a
subsequent award.

     Additionally, our survey of state and vendor laboratories collected
customer satisfaction information concerning the NIJ’s oversight and
management of the Backlog Reduction Program.

      To determine the extent to which in-house analysis award recipients
have administered the awards in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the awards, we issued a
separate report for each of the following state laboratories:
   1. Kansas Bureau of Investigation, Topeka, Kansas, Audit Report
      GR-60-08-009, issued July 2008;

   2. North Dakota Office of the Attorney General, Bismarck, North Dakota,
      Audit Report GR-60-08-008, issued July 2008;

   3. New Jersey Department of Law and Public Safety, Trenton, New
      Jersey, Audit Report GR-70-08-003, issued September 2008;

   4. The Georgia Bureau of Investigation, Decatur, Georgia, Audit Report
      GR-40-08-005, issued September 2008;

   5. The New York State Police Forensic Investigation Center, Albany, New
      York, Audit Report GR-70-08-004, issued September 2008;

   6. Missouri State Highway Patrol, Jefferson City, Missouri, Audit Report
      GR-50-09-002, issued February 2009;

   7. California Department of Justice, Sacramento, California, Audit Report
      GR-90-09-001, issued January 2009.

       The judgmental selection of these award recipients was based on the
award amount and on the amount of funds drawn down as of the start of our
audit. For each of these audits, we tested compliance with what we
considered to be the most important conditions of the awards. Our testing
was conducted by judgmentally selecting a sample of expenditures for the
grants that we audited. Judgmental sampling design was applied to obtain
broad exposure to numerous facets of the grants reviewed, such as dollar
amounts or expenditure category. This non-statistical sample design does
not allow projection of the test results to all grant expenditures. Unless
otherwise stated in our report, we applied the OJP Financial Guide as our
primary criteria in auditing these awards. The OJP Financial guide serves as
a reference manual assisting award recipients in their fiduciary responsibility
to safeguard award funds and ensure funds are used appropriately.
Specifically, we tested:

   •   Award Expenditures to determine whether the costs charged to the
       awards were allowable and supported.

   •   Reporting to determine whether the required quarterly financial
       status reports, progress reports, and performance reports were
       submitted on time and accurately reflected award activity.
   •   Budget Management and Control to determine whether award
       recipients adhered to the NIJ-approved budget for expenditures of
       award funds.

   •   Drawdowns to determine whether the requests for reimbursement
       were adequately supported and if award recipients managed award
       receipts in accordance with federal requirements.

   •   Backlog Reduction Program Performance to determine whether
       award recipients achieved award objectives and to assess performance
       and accomplishments.

      Finally, to verify vendor laboratory compliance with the terms of the
contracts, we performed two vendor laboratory site visits. We selected the
laboratories based on a risk assessment of all vendor laboratories receiving
contracts under the Outsourcing Program. Our risk assessment included a
review of In-House Program narratives submitted to the NIJ in the award
applications by award recipients, an assessment of the comments received
in our survey, and comments from NIJ officials. Based upon our results
Identity Genetics, Inc., located in Brookings, South Dakota and
Orchid/Cellmark located in Nashville, Tennessee were selected for site visits.

      For each site visit, we tested compliance with what we considered to
be the most important conditions of the contract. Specifically, we:

   •   reviewed and tested a judgmental sample of invoices from each of the
       vendor laboratory’s active contracts to ensure that the samples
       invoiced reconciled to the samples actually analyzed 1;

   •   assessed the controls in place to ensure accuracy of the number of
       samples tested as well as the integrity of the samples throughout the
       process;

   •   ensured that quality checks and technical reviews had been performed
       as required; and

   •   verified the timeliness of the samples being completed and returned to
       the state laboratory.


       1
          Our testing was conducted by judgmentally selecting a sample of invoices for the
vendors that we visited. Judgmental sampling design was applied to obtain broad exposure
to numerous facets of the contracts reviewed, such as dollar amounts or number of samples
invoiced. This non-statistical sample design does not allow projection of the test results to
the entire population of invoices.
                                                                         APPENDIX II

              CONSOLIDATED RESPONSES FOR THE
            OIG SURVEY OF OFFENDER LABORATORIES

       The OIG initiated an audit of the OJP, NIJ’s management of the
Backlog Reduction Program. As part of that audit we collected statistics on
each state’s offender backlog, as well as their feedback on the NIJ’s
management of the Backlog Reduction Program. These responses were
intended to be used to help understand where opportunities for
improvement might exist in the NIJ’s management of the Backlog Reduction
Program, and to collect as background information on the scope of the
national offender backlog. We asked for one completed survey per offender
laboratory, but we also encouraged laboratories to obtain input from other
qualified staff within their laboratory. We requested that respondents not
consult with people outside their laboratory, and used the term “backlog”
throughout the survey to refer to the analysis and data-review portions of
the offender DNA backlog. This term does not include the collection portion
of the backlog. Any reference to samples refers to offender DNA samples.

Survey Results

                                DEMOGRAPHICS

1.    In what state is your laboratory located?

      The survey was sent to all 51 state laboratories that process convicted
      offender samples. 2 Our response rate was 100 percent.

2.    What CODIS level is your laboratory?

      Forty-nine of the respondents said they were a state laboratory and
      two said they were an LDIS laboratory.




      2
         Each state has a single designated SDIS laboratory which processes convicted
offender samples. Although Nevada also uses an LDIS laboratory to process convicted
offender samples, throughout this report, the reference to state laboratories includes the
50 SDIS laboratories plus the one Nevada LDIS laboratory that processes convicted offender
samples.
3.   What is your primary role in the laboratory?


                What is your primary role in the laboratory?

                      16%
                                                     CODIS Administrator

                 4%
                                                     Laborataory Manager
                                                     or Director

                                                     Casework (forensic)
                                            56%
                                                     DNA analyst
                24%
                                                     Other




     Of the Other responses given, six said they had some supervisory role,
     one said they were the acting CODIS Administrator, and one said they
     were the technical leader.

4.   What is the staff level of the DNA section (both forensic and
     offender) in your laboratory (include technicians, examiners,
     managers, etc., but exclude clerical support or management
     that are not specific to the DNA section)?

     The average response was 11 to 15 staff.

5.   Of the overall DNA section, how many of the staff are devoted
     primarily or entirely to offender database work, which includes
     both analysis and review of samples?

     The average answer was three to four staff.
                                     STATISTICS

6.   As of September 30, 2005, how many offender DNA samples
     did you have awaiting analysis?

     As of September 30, 2005, the total number of samples the offender
     laboratories had awaiting analysis was 1,071,117.

7.   As of September 30, 2005, how many offender DNA samples
     did you have awaiting data review after analysis had been
     done?

     As of September 30, 2005, the total number of samples the offender
     laboratories had to data review after analysis had been done was
     204,179.

8.   As of September 30, 2005, how many offender DNA samples,
     that were analyzed and data reviewed, were awaiting upload to
     NDIS?

     As of September 30, 2005, the total number of analyzed and data
     reviewed samples that were awaiting upload to NDIS was 126,840.

9.   Please provide as accurately as possible the following statistics
     for offender samples/profiles:

     Survey respondents were asked to provide an estimate of the
     beginning backlog for FYs 2006, 2007, and 2008. Of the 51 total
     survey respondents, 47 provided a beginning backlog estimate for
     FY 2006, 48 provided an estimate for FY 2007, and 49 provided an
     estimate for FY 2008. The total responses are shown in the following
     table:

                                                        FY 2006       FY 2007     FY 2008 3
         a. Your beginning backlog balance for the
            start of the time period listed in the
            corresponding column headings               1,053,617     1,138,072    599,622
         b. Samples received during…                    1,080,031     1,013,346    638,902
         c. Samples analyzed during…                      852,764     1,169,285    666,679
         d. Samples data-reviewed during…                 929,783     1,039,500    670,157
         e. Profiles uploaded to NDIS during…             985,393     1,322,084    746,130




     3
          Statistics reported for FY 2008 are as of March 31, 2008.
      Survey respondents were also asked to provide an estimate of the
      percentage of funding their laboratory received for offender DNA
      activity in FY 2006, FY 2007, and the first two quarters of FY 2008. Of
      the 51 total survey respondents, 44 provided a funding estimate for
      FY 2006, 45 for FY 2007, and 46 for the first two quarters of FY 2008.
      The responses are presented in the following table:

      CONTINUED FOR EACH SEPARATE TIME PERIOD, WHAT PERCENTAGE OF THE FUNDING FOR
      OFFENDER DNA ACTIVITIES IN YOUR LABORATORY CAME FROM…
                      PERCENTAGE OF      10/01/05 –        10/1/06-         10/1/07 –
                         FUNDING           9/30/06          9/30/07          3/31/08
                       100% - 75%            39%              36%              39%
      State or Local   74% - 50%             11%              11%              13%
          funds         49% - 1%             18%              24%              28%
                           0%                32%              29%              20%
                       100% - 75%            34%              40%              33%
       NIJ Backlog
                       74% - 50%             14%              13%              17%
        Reduction
                        49% - 1%             14%              9%               17%
      Program funds
                           0%                39%              38%              33%
                       100% - 75%             3%              2%                2%
       Other federal   74% - 50%              0%              0%                0%
          funds         49% - 1%              3%              7%                7%
                           0%                95%              90%              90%


10.   a. Over the last 5 years (January 1, 2003 – December 31,
         2007), besides federal funding, did other factors such as:
         legislative expansions, state funding, and crime rates, have
         a significant impact (increase or decrease) on the offender
         backlog in your laboratory?

        Seventy-five percent of respondents said over the last 5 years
        (January 1, 2003 - December 31, 2007), besides federal
        funding, other factors such as legislative expansions, state funding,
        and crime rates had a significant impact (increase or decrease) on
        the offender backlog in their laboratory. Twenty-five percent of
        respondents said these other factors did not have a significant
        impact on the offender backlog in their laboratory.
b. If Yes please indicate the level (Low, Medium, or High) of
   impact your laboratory has experienced due to the factors
   listed in the table below and whether the factors increase or
   decrease the backlog in your laboratory:

  Factor a. Implementation of legislative expansions to collections
  passed during the last 5 years.

  Of the 38 respondents who said Yes to Question 10.a., 33 said
  implementation of legislative expansions to collections passed
  during the last 5 years has increased the backlog in their
  laboratory. Specifically:

     •   23 said implementation of legislative expansions to collections
         passed during the last 5 years had a High impact on
         increasing their backlog,

     •   7 said implementation of legislative expansions to collections
         passed during the last 5 years had a Medium impact on
         increasing the backlog, and

     •   3 said implementation of legislative expansions to collections
         passed during the last 5 years had a Low impact on
         increasing their backlog.

  Of the remaining five Yes responses,

     •   4 said implementation of legislative expansions to collections
         passed during the last 5 years had no impact on their
         backlog, and

     •   1 response had to be disregarded because the respondent
         selected both the increased and decreased options.

  Factor b. Implementation of legislative expansions to collections
  passed prior to the 5 years, but not implemented at that time.

  Of the 38 respondents who said Yes to Question 10.a.:

     •   23 said implementation of legislative expansions to collections
         passed prior to the 5 years, but not implemented at that
         time, had no impact on the backlog in their laboratory;

     •   10 did not provide a response;
    •   2 said implementation of legislative expansions to collections
        passed prior to the 5 years, but not implemented at that
        time, was not applicable;

    •   1 response was disregarded because the respondent selected
        both the increased and decreased options;

    •   1 respondent said implementation of legislative expansions to
        collections passed prior to the 5 years, but not implemented
        at that time, had a High impact on increasing the backlog;
        and

    •   1 respondent said implementation of legislative expansions to
        collections passed prior to the 5 years, but not implemented
        at that time, had a Low impact on increasing their backlog.

Factor c. State or local funding for offender work was significantly
increased.

Of the 38 respondents who said Yes to Question 10.a.:

•   5 said significant increases in state or local funding had a High
    impact on increasing their backlog;

•   4 said significant increases in state or local funding had a
    Medium impact on increasing their backlog;

•   3 said significant increases in state or local funding had a High
    impact on decreasing their backlog; and

•   3 said significant increases in state or local funding had a
    Medium impact on decreasing their backlog.

Of the remaining responses:

    •   12 respondents said significant increases in state or local
        funding had no impact on their backlog;

    •   8 respondents did not provide a response;

    •   1 response was disregarded because the respondent selected
        both the increased and decreased options;
   •   1 respondent said since 1995, the state had never funded the
       program; and

   •   1 respondent said significant increases in state or local
       funding was not applicable.

Factor d. State or local funding for offender work was significantly
decreased.

Of the 38 respondents who said Yes to Question 10.a.:

   •   23 respondents said a significant decrease in state or local
       funding for offender work had no impact on their backlog;

   •   11 respondents did not provide a response;

   •   2 respondents said it was not applicable;

   •   1 respondent said since 1995, the state had never funded the
       program; and

   •   1 said a significant decrease in state or local funding for
       offender work had a High impact on decreasing their backlog.

Factor e. Significant increase in staff.

Of the 38 respondents who said Yes to Question 10.a., 12 said
significant increases in staff have increased the backlog in their
laboratory, while 10 said significant increases in staff have
decreased the backlog in their laboratory. Specifically:

   •   8 said significant increases in staff had a High impact on
       increasing their backlog;
   •   4 said significant increases in staff had a Medium impact on
       increasing their backlog;

   •   5 said significant increases in staff had a High impact on
       decreasing their backlog;

   •   4 said significant increases in staff had a Medium impact on
       decreasing their backlog; and

   •   1 said significant increases in staff had a Low impact on
       decreasing their backlog.
Of the remaining responses:

   •   9 said significant increases in staff had no impact;

   •   5 respondents did not provide a response;

   •   1 response was disregarded because the respondent selected
       both the increased and decreased options; and

   •   1 respondent said significant increases in staff was not
       applicable.

Factor f. Significant decrease in staff.

Of the 38 respondents who said Yes to Question 10.a., 7 said
significant decreases in staff have increased the backlog in their
laboratory while 1 said significant decreases in staff have decreased
the backlog in their laboratory. Specifically:

   •   6 said significant decreases in staff had a High impact on
       increasing their backlog;

   •   1 said significant decreases in staff had a Low impact on
       increasing their backlog; and

   •   1 said significant decreases in staff had a Low impact on
       decreasing their backlog.

Of the remaining responses:

   •   15 said decreases in staff had no impact;

   •   11 respondents did not provide a response;

   •   2 responses were disregarded because the respondents
       selected both the increased and decreased options; and

   •   2 respondents said significant decreases in staff was not
       applicable.

Factor g. Decreasing crime rates caused a corresponding drop in
collections.
Of the 38 respondents who said Yes to Question 10.a.:

   •   25 said this factor had no impact;

   •   11 respondents did not provide a response; and

   •   2 respondents said this factor was not applicable.

Factor h. Increasing crime rates caused a corresponding spike in
collections.

Of the 38 respondents who said Yes to Question 10.a., 4 said
increasing crime rates caused a corresponding spike in collections,
leading to an increase in the backlog in their laboratory.
Specifically:

   •   2 said increasing crime rates causing a corresponding spike in
       collections had a Low impact on increasing their backlog;

   •   1 said increasing crime rates causing a corresponding spike in
       collections had a Medium impact on increasing their backlog;
       and

   •   1 said increasing crime rates causing a corresponding spike in
       collections had a High impact on increasing their backlog.

Of the remaining responses:

   •   20 said this factor had no impact;

   •   11 respondents did not provide a response;

   •   1 response was disregarded because the respondent selected
       both the increased and decreased options; and

   •   2 respondents said increasing crime rates causing a
       corresponding spike in collections was not applicable.

Factor i. Other (please describe).

Of the 38 respondents who said Yes to Question 10.a.:

   •   31 respondents did not provide an Other factor,
           •   6 respondents listed an Other factor, and

           •   1 respondent who did not list an Other factor selected no
               impact.

        Of the six respondents who listed an Other factor, five of the six
        factors had an impact on increasing the backlog and one of the
        factors had an impact on decreasing the backlog. The factors that
        increased the backlog were new legislation that leads to changes in
        laboratory setup, two state collection initiatives aimed at
        collecting outstanding samples, the inclusion of non-violent cases,
        and continuing staff turnover. The factor that decreased the
        backlog was the installation of an expert system.

11.   Are you aware of any specific instances(s) where the offender
      backlog in your state has played some role in hindering the
      investigation of criminal cases?


                       Has the backlog hindered any
                          criminal investigations?
                                  4%

                                               24%



                                                           Yes

                                                           No

                                                           NR




                          72%




      The respondents who said Yes were asked to describe why. Eight of
      the 12 comments given included examples of actual cases that were
      hindered due to offender backlogs, and the other 4 comments were
      more general statements that offender backlogs have hindered
      investigations.
12.   Are you aware of any specific instance(s) where additional
      crime(s) may have been committed by an offender while
      sample(s) from the same offender were part of the backlog in
      your state?


                Are there any instances where additional
             crimes have been committed while an offender
                    sample was part of the backlog?
                                    2%
                                            16%



                                                          Yes

                                                          No

                                                          NR




                             82%




      The respondents who said Yes were asked to describe why. Of the
      seven comments provided by the respondents who said Yes, two gave
      examples of general crimes such as burglary, four provided examples
      of specific cases, and one comment talked about a specific case that
      was more an example of the ramifications of the casework backlog
      then the offender backlog.
13.   If you provided an example of a situation where your state’s
      backlogs hindered an investigation or allowed an offender to
      commit additional crime(s), did vendor problems (such as
      extended delays in getting results back) contribute to that
      specific situation?


             If your state's backlog hindered an investigation,
                did vendor laboratory problems contribute?

                                          10%



                                                          Yes

                      43%                                 No


                                                          NR

                                                 47%




      The respondents who said Yes were asked to describe why. The four
      comments provided by the respondents who said Yes said there were
      delays in processing samples by the vendor laboratories.
                                     PARTICIPATION

14.   For which of the following FY(s) has your laboratory applied for
      assistance through the Backlog Reduction Program, whether
      through direct funding or outsourcing funding? Check all that
      apply.


                                    Fiscal years laboratories
                                  applied for Program funding


                      08                                   44%
        Fiscal Year




                      07                                                  62%


                      06                                                  62%


                      05                                                  62%


                       0%   10%      20%     30%     40%      50%   60%         70%
                                        Percentage of Responses



      Ten of the 51 respondents said they did not apply for any funding
      during any of the FYs listed. Respondents who answered No to
      Question 14 were told to skip to Question 16. In addition, the
      respondents who said No to Question 14 were told not to answer
      Questions 18 to 31.
15.   For which of the following FY(s) had your laboratory applied
      for and received assistance through the Backlog Reduction
      Program, whether through direct funding or outsourcing
      funding? Check all that apply.


                             Percentage of laboratories that
                             received Program funding in the
                             fiscal year in which they applied

                      08                   86%
        Fiscal Year




                      07                                           100%

                      06                               94%

                      05                                           100%

                       75%   80%     85%         90%   95%       100%     105%
                                    Percentage of Applicants



      Respondents were given the following option to provide additional
      comments: If you applied for and did not receive assistance for any of
      the above FYs, please explain why. There were six respondents who
      applied for, but did not receive, funding through the Backlog Reduction
      Program; three of the six provided an explanation why and three did
      not.

      The explanations given are as follows: for one respondent, during
      FY 2006 their backlog grant was de-obligated; another respondent was
      denied assistance in FY 2008 due to un-obligated funds; and during
      FY 2006 one respondent did not have a backlog due to no collection
      mechanism.

16.   My laboratory did not apply for any assistance because:
      (please specify the FY(s) and select the primary reason(s))

      Respondents were asked to specify in which FYs they did not request
      funding, and could choose from a total of seven possible reasons for
      not requesting assistance. Two of the answers allowed for
      respondents to elaborate, and the last possible answer was an Other
      option.
1) Only 4 respondents listed a specific FY. Three listed FY 2008 and
   one listed FY 2007 and FY 2008.

2) 15 respondents said their laboratory did not apply for any
   assistance because their analysis and data-review offender backlog
   is negligible. Respondents who selected this answer were then
   asked to list the top three factors that assisted their laboratories in
   achieving a negligible backlog, and eight did so. The responses
   given are as follows:

   •   4 respondents said previous or current grant funds;

   •   2 respondents said state funds were sufficient (an option given
       in the question);

   •   1 respondent mentioned very specific technology
       implementations at their laboratory; and

   •   1 respondent said they did not have a backlog due to a limited
       number of qualifying offenses.

3) 8 respondents said their offender backlogs were being addressed
   with state funding (including state-funded staffing).

4) 2 respondents said their analysis and data-review offender
   backlogs were being addressed through other federal funding
   programs.

5) 4 respondents said they had a backlog, but knew that some point
   of qualification would exclude them from participating. These four
   respondents elaborated and selected the following responses:

   •   1 respondent specified “in-house capacity requirements”;

   •   2 respondents provided comments and stated: “Our backlog
       would not have met Backlog Reduction Program requirements”
       and “State & federal funds usage causing a supplanting issue”;
       and

   •   1 respondent specified “in house capacity requirements” and
       provided a comment stating: “relatively small number of
       samples, not worth the time to prepare proposal based on the
       minimal funding we would receive.”
      6) 1 respondent said they have a backlog, but lacked the resources
         (time or staff) to prepare an application to request funding;

      7) The last option given in Question 16 was Other. Two respondents
         selected the Other option; one respondent did not provide
         additional comment; and one stated “[W]e did not apply for federal
         FY08 funding. It was determined that federal funding from FY
         2006 and FY 2007 awards, along with state funding received in
         FY 2009 would cover analysis performed until the federal FY 2009
         funding was available.”

17.   In your opinion, based on your experience and observations
      when applying any funds to reduce offender backlogs, please
      rate the top three methods that you think produce the best
      return on investment. (use 1 as being the best, 2 the next
      best, and 3 the third best)

      Fifty out of 51 survey recipients responded to this question. To
      evaluate which method respondents believed produced the best return
      on investment we calculated the weighted average for each of the
      10 choices of methods presented to respondents. (A value of 1 was
      assigned to all responses of 1, a value of 2 was assigned to all
      responses of 2, and a value of 3 was assigned to all responses of 3.
      Any responses rated as 4 or lower were disregarded.)

      Based upon our analysis, the three highest rated methods were: the
      use of contractor assistance for analysis (with a weighted average
      rating of 1.6), increases in staffing (with a weighted average rating of
      1.7), and the implementation of robotics (with a weighted average
      rating of 1.7).

      Six respondents provided comments under Other laboratory or
      computer equipment upgrades or Other. Their comments were as
      follows:

         •   “BSD 3130xl, Excel Marcos for QC and data conversions,”

         •   “Change in lab[oratory] DNA analysis software,”

         •   “Update section computers [so] that data is processed quicker,”

         •   “All equipment needed to process samples in-house was
             purchased with NIJ grant funding,”
             •   “DNA platform upgrades,” and

             •   “Validation of single amp DNA kits.”

                                 RESPONSIVENESS

18.    Since October 1, 2005, how timely have you been receiving
       responses from Backlog Reduction Program staff or your
       specific OJP grant manager to questions or concerns you have
       had on the following issue areas:

       There were 39 respondents who had funding through the backlog
       Reduction Program. Of the respondents that reported having issues,
       the NIJ was usually timely in its response to all issue areas presented
       in the question on an average of 65 percent of the time, often timely
       on an average of 19 percent of the time, rarely timely an average of
       13 percent of the time, never timely an average of 3 percent of the
       time. The specific percentage responses for each category are shown
       in the table below.


           ISSUE AREAS YOU SOUGHT       A.           B.             C.            D.
                 RESPONSE FROM        NEVER        RARELY          OFTEN        USUALLY
                                                            4              5             6
                   NIJ/OJP:           TIMELY       TIMELY         TIMELY        TIMELY
           Guidance on allowable
                                       0%            3%             20%           77%
             uses of funds
           Changes to approved
                                       4%            7%             33%           56%
             uses of funds
           Quality problems with
                                       5%           26%             11%           58%
             vendor laboratory
           Productivity problems
                                       6%           25%             13%           56%
             with vendor laboratory
           Tracking of
                                       0%           12%             23%           65%
             performance/statistics
           Assistance with required
                                       0%            6%             15%           79%
             forms or reports




       4
         For the purposes of our survey a rarely timely response indicates that the NIJ did
not respond to the question or concern for more than 2 weeks.
       5
        For the purposes of our survey an often timely response indicates that the NIJ
responded to the question or concern within 2 weeks.
       6
        For the purposes of our survey a usually timely response indicates that the NIJ
responded to the question or concern in less than 1 week.
      Three respondents provided comments on an Other issue area. The
      issue given, along with the NIJ’s response time were:

           •   “Removal of NEPA special condition” 7 - A. never timely,

           •   “NEPA Requirements or GANS” - C. often timely (received within
               2 weeks), and

           •   “Changes to testing procedures” - B. rarely timely (delayed more
               than 2 weeks).

19.   a. In your opinion, if responses from the NIJ/OJP were
         untimely, how often did that limit your laboratory’s ability to
         accomplish the following:

           Eleven of the 19 responses to this question (58 percent) indicated
           that untimely responses from the NIJ rarely limited their
           laboratory’s ability to efficiently use grant funds and 8 of the
           19 respondents (42 percent) indicated that untimely responses
           from the NIJ rarely limited their laboratory’s ability to comply with
           grant funds. The specific responses are shown in the table below.

                                         VERY
                                         OFTEN        OFTEN     SOMETIMES   RARELY
            To comply with contract
                                           0            1               1     1
              requirements
            To process offender
                                           0            1               2     0
              samples




      7
          National Environmental Policy Act, 42 U.S.C. § 4321 (2006).
      b. What reasons do you attribute to the NIJ/OJP’s untimely
         responses? Check all that apply.


                      Reasons for NIJ / OJP's untimley responses

                                6%                A lack of understanding of the
                                     6%
                                                  urgency
                                                  A lack of understanding about the
                                                  implications of questions or concerns
              44%
                                            28%   Understaffing at NIJ/OJP


                                                  Timely responses are not a high
                                                  priority
                                                  Unsure what the cause could be

                                          11%
                                                  Other
                          28%




        Of the eight respondents who said Other, six provided a comment.
        Two of the six comments attributed the untimely responses to NEPA
        requirements, one attributed the untimely responses to changes
        within GMS, and two attributed the untimely response difficulty
        contacting managers due to a limited work schedule and staff
        changes.

20.   Based on your response to Question 18, where responses from
      the NIJ/OJP have been received within 2 weeks, to what
      degree did the responses address the following issue areas?

      There were 35 respondents who had responses from the NIJ
      addressing issues within 2 weeks. Of the respondents who reported
      receiving a response within 2 weeks, the NIJ’s response to all issue
      areas presented in the question fully addressed concerns on an
      average of 64 percent of the time, moderately addressed concerns on
      an average of 15 percent of the time, minimally addressed concerns
      on an average of 6 percent of the time, did not address concerns at all
      an average of 0 percent of the time. The specific percentage
      responses for each category are shown in the table below.
           ISSUE AREAS YOU SOUGHT
           RESPONSE FROM THE          NOT AT      MINIMALLY        MODERATELY
                                                             8                 9
           NIJ/OJP:                    ALL       ADDRESSED         ADDRESSED       FULLY
           Guidance on allowable
                                       0%             4%               12%          84%
             uses of funds
           Changes to approved
                                       0%             5%               15%          80%
             uses of funds
           Quality problems with
                                       0%             8%               25%          67%
             vendor laboratory
           Productivity problems
                                       0%            18%               18%          64%
             with vendor laboratory
           Tracking of
                                       0%             6%               28%          67%
             performance/statistics
           Assistance with required
                                       0%             4%               8%           88%
             forms or reports




       8
          For the purposes of our survey a “minimally addressed” response indicates that
significant aspects of the vendor laboratories’ concern were not addressed by the NIJ.
       9
        For the purposes of our survey a “moderately addressed” response indicates that
minor aspects of the vendor laboratories’ concern were not addressed by the NIJ.
21.   If any of the concerns you raised to the NIJ/OJP remain
      unaddressed, to what degree do you believe those concerns
      have the potential to undermine the achievement of the
      Backlog Reduction Program goals (i.e., the most efficient and
      effective reduction to the offender backlog possible)?

      Of the 10 respondents who reported having unaddressed concerns,
      2 reported that these concerns have very minimal potential to
      undermine Backlog Reduction Program goals, 1 reported minimal
      potential, 4 reported moderate potential, and 3 reported significant
      potential.


                       Impact unaddressed concerns have
                          on the goals of the Program

                                         20%

                 30%                                  Very minimal


                                                      Minimal degree
                                               10%

                                                      Moderate degree


                                                      Significant degree


                              40%
                             MANAGEMENT

22.   Does the NIJ provide sufficient guidance on complying with
      Backlog Reduction Program-specific requirements to ensure
      award recipients understand and comply with those
      requirements?


                 Does NIJ provide sufficient guidance on
               complying with general award requirements?

                          15%




                                                           Yes


                                                           No




                                            85%




      The respondents who answered No to Question 22 were asked to
      explain. The explanations provided were:

        •   training on managing grants is needed;

        •   requirements for the 2008 application were not stated in the
            application;

        •   confusion about special conditions;

        •   on the application, referenced rules did not seem to apply;
        •    grantee workshop does not focus on the grant process; and

        •    issues were not addressed until audit.

23.   Does the NIJ provide sufficient guidance on complying with
      Backlog Reduction Program-specific requirements as listed
      below on the use of funds to ensure award recipients clearly
      understand and comply with those requirements?

       BACKLOG REDUCTION                                 NO, THE NIJ DOES NOT
           PROGRAM             YES, THE NIJ PROVIDES      PROVIDE SUFFICIENT
            REQUIREMENTS        SUFFICIENT GUIDANCE           GUIDANCE
      Performance
                                       89%                      11%
      measurements
      Performance statistics           89%                      11%
      Backlog Reduction
      Program-specific                 86%                      14%
      restrictions


      The respondents who answered No to Question 23 were given the
      opportunity to explain why. The consistent explanation given for the
      three Backlog Reduction Program requirements were little to no
      guidance has been offered. In addition, one respondent who gave an
      Other response, stated “Award period,” and provided the following
      explanation: “NIJ directs states on what must be entered for the
      award period on their grant application while fully admitting that the
      funding will not be available or accessible in time. This prohibits the
      states from accurately assessing their needs for the actual time period
      when funding would be accessible.”
24.   Does the NIJ provide oversight (including monitoring) to
      ensure that Backlog Reduction Program participants comply
      with all applicable requirements?


                   Does NIJ provide oversight to ensure
                   Program participants comply with all
                        applicable requirements?
                               8%




                                                            Yes



                                                            No




                                        92%




      The respondents who said No were asked to explain. The responses
      varied and are as follows:

        •   “In the past, NIJ seemed more reactive than proactive;”

        •   “I have never been approached for monitoring purposes on these
            grants. Perhaps the monitoring is done at the outsource
            laboratory level” (NOTE: This respondent said Yes to Question
            30, Has your laboratory had a Grant Progress Assessment
            performed related to Backlog Reduction Program funding since
            October 1, 2005?); and

        •   “Analysis requirements from the vendor laboratory were changed
            and found acceptable by NIJ but our laboratory was not informed
            of the changes until a site-visit was conducted at the vendor
            laboratory.”
25.   If you answered Yes to Question 24; in your opinion, what do
      you think is the level of oversight that is provided by the NIJ?

      On average, respondents felt that a moderate level of oversight was
      appropriate.

26.   Do you believe the Backlog Reduction Program is
      accomplishing its mission of assisting the DNA community in
      reducing offender backlogs in the best manner possible?


                 Is the Program accomplishing its mission?




                  28%



                                                            Yes


                                                            No




                                                 72%




      The No option provided an area for respondents to comment on how
      the Backlog Reduction Program could better accomplish its mission.
      The comments provided were:

        •   “Provide full funding up front….”

        •   “Laboratories [need] to be able to support themselves.”

        •   “Increase staff and reduce turn-over.”

        •   “Outsourcing is a temporary fix….”

        •   “Let laboratories choose, control, and qualify vendors.”
        •   “Funds… need to be doled out more often than once a year.”

        •   “More timely awarding of contracts, and better screening of
            vendors.”

        •   “Laboratories could base a funding request on how many
            samples they could analyze during the funding period, regardless
            of what is backlogged as of day one.”

        •   “It would be better if the funding were a set amount like the
            casework grants.”

27.   How would you rate the overall effectiveness of the NIJ’s
      current management of the Backlog Reduction Program?

      On average, respondents rated the NIJ’s current management as
      good. Respondents were asked to provide an example relating to the
      rating they provided. Eleven respondents provided examples: two
      rated the effectiveness of the NIJ’s current management as fair, eight
      rated it good, and one rated it excellent. The examples provided by
      the two respondents who rated the NIJ’s effectiveness as fair
      mentioned problems with the proposal process, and that state
      laboratories have no input in the use of vendor laboratories.

      The overall trend of the comments from respondents who rated the
      NIJ’s current management of the Backlog Reduction Program as good
      and excellent was that management has improved with better
      communication and needs are currently being met. However,
      turn-over in the Backlog Reduction Program office has made
      communication challenging. In addition, respondents said Grant
      Managers were responsive and immediate assistance has been
      provided.
                    AUDITS & ASSESSMENTS

28.   Have NIJ-funded auditors conducted a QAS audit at your
      laboratory since October 1, 2005?


               Have NIJ-funded auditors conducted a QAS
              audit in your laboratory since October 1, 2005?



                    31%

                                                          Yes


                                                          No




                                               69%




      The respondents who said No were asked to explain and then skip to
      Question 30. The common explanations given were that their
      laboratory is part of an audit group or region that provides QAS
      auditors.

29.   a. Does your laboratory have any concerns with the NIJ-funded
         auditors who conducted the QAS audits at your laboratory
         since October 1, 2005?

        Of the 27 respondents who said Yes to Question 29, 4 said Yes they
        have concerns with the NIJ-funded auditors who conducted the QAS
        audits at their laboratory, 22 said they do not have any concerns,
        and 1 was unsure/not applicable based on limited experience.

      b. If Yes which of the following concerns does your laboratory
         have with the NIJ-funded auditors conducting the QAS
         audits? Check all that apply.
Since respondents were asked to check all the options that applied,
the four respondents selected multiple concerns. Of the four
respondents who said Yes to Question 29.a.:

  •   3 said their concerns included inconsistency of interpretations;

  •   3 said their concerns included the audit scope;

  •   2 said their concerns included the audit process;

  •   1 said their concerns included the audit approach; and

  •   1 said their concerns included a conflict of interest with the NIJ.

c. Which of these concerns has your laboratory raised to the
   NIJ? Check all that apply.

  One of the respondents said that the NIJ was told about concerns
  regarding the NIJ-funded auditors’ audit approach, audit scope, and
  inconsistency of interpretations, while another respondent said that
  the NIJ was told just about the respondents’ concerns regarding the
  NIJ-funded auditors’ audit approach and audit scope. The
  remaining two respondents said they raised no concerns with the
  NIJ and provided the following comments: “Auditor was not in line
  with FBI interpretations, but cleared up during audit with education
  and discussion” and “decided not to use NFSTC auditors in the
  future.”
30.   Has your laboratory had a Grant Progress Assessment (GPA)
      performed related to Backlog Reduction Program funding since
      October 1, 2005?


                      Has your laboratory had a GPA
                      performed related to Program
                      funding since October 1, 2005?
                                  3%




                                                          Yes


                                                          No




                                     97%


      The 3 percent (one respondent) who said No provided the following
      comment: “last GPA 12/2004.”
31.   Do you believe that GPAs collect the appropriate information to
      fairly reflect an award recipient’s use of Backlog Reduction
      Program funds?


                    Do you believe that GPAs collect the
                 appropriate information to fairly reflect an
                   award recipient's use of grant funds?


                          26%

                                                              Yes

                                                              No

                     3%                                       Unsure



                                                     71%




      The respondents that answered Yes were asked to explain how the
      GPAs collect the appropriate information. These respondents
      commented that the GPAs collect the appropriate information because
      the assessments are very thorough.

                      VENDOR PERFORMANCE

Instructions: If your laboratory did not use NIJ funding for outsourcing
             samples since October 1, 2005, please go to Question 36 at
             the end of the survey.

32.   Please provide information on the NIJ outsourcing vendors
      your laboratory has used from October 1, 2005, or after.

      Thirty respondents reported using Backlog Reduction Program funds
      for outsourcing samples. Thirteen of the 30 respondents used multiple
      vendors. Respondents reported using vendor laboratories to outsource
      912,179 samples. The breakdown of the number of samples sent to
      each vendor is listed in the following table:

        VENDOR                  NO. OF RESPONDENTS         SAMPLES OUTSOURCED
        LABORATORY               USING VENDOR
        Orchid                        14                       375,756
        Myriad                         7                       149,006
        Reliagene                      7                       111,552
        Lab Corp                       6                        50,900
        Identity Genetics              7                        76,820
        Bode                           8                       142,945
        Strand                         2                         5,200
               TOTAL                  51                       912,179


      Question 32 also asked the respondents to provide an overall rating of
      satisfaction with the vendors they have used. The average rating by
      respondents, for each vendor laboratory, is shown in the following
      table:

        VENDOR LABORATORY       AVERAGE RATING
        Orchid                  2.0 – Good
        Myriad                  2.1 – Good
        Reliagene               2.3 – Good
        Lab Corp                2.2 – Good
        Identity Genetics       3.4 – Fair
        Bode                    1.9 – Good
        Strand                  2.5 – Good to Fair


33.   a. Did you experience any problems with the quality of work
         produced by any of the NIJ outsourcing vendors your
         laboratory has used?

        Fifteen of the 30 respondents who outsourced said they did not
        experience quality problems, 13 respondents said they did, and
        2 were unsure. Specifically, of the 13 respondents who said they
        did experience problems with the quality of work produced by an
        outsourcing vendor:

           •   5 said they had quality problems with Orchid,

           •   2 said they had quality problems with Myriad,

           •   1 said they had quality problems with Reliagene,

           •   1 said they had quality problems with Lab Corp,

           •   4 said they had quality problems with Identity Genetics,

           •   1 said they had quality problems with Bode, and
           •   1 said they had quality problems with Strand.

        All 13 respondents who said they had experienced quality problems
        provided additional comments. The common quality problems
        identified in the comments concerned vendor laboratories having
        contamination problems, problems meeting appropriate standards,
        and having unqualified staff working at the vendor laboratories.

      b. If Yes please answer the following questions.

        1. Did you make the NIJ aware of these problems?

           Eleven respondents said Yes and two said No.

        2. Did the NIJ act to help resolve these problems?

           Seven respondents said Yes and five said No.

        3. Did the problems produce a lasting delay to your
           progress?

           Eleven respondents said Yes and 2 said No.

        4. Where you satisfied with how the problems were
           ultimately resolved?

           Eight respondents said Yes and five said No.

34.   a. Did you experience any problems with the volume of work
         produced by any of the NIJ outsourcing vendors your
         laboratory has used?

        Fifteen of the 30 respondents said they did not experience volume
        problems, 12 said Yes, and 3 were unsure. Specifically, of the
        12 respondents who said they did experience volume problems:

           •   3 said they had volume problems with Orchid;

           •   1 said they had volume problems with Reliagene;

           •   1 said they had volume problems with Lab Corp;

           •   4 said they had volume problems with Identity Genetics;
           •   1 said they had volume problems with Bode;

           •   1 said they had volume problems with Strand; and

           •   1 did not provide the name of the laboratory with which they
               had volume problems.

        All 12 respondents who said they had experienced volume problems
        provided additional comments. The volume problems identified in
        the comments concerned vendor laboratory contract
        noncompliance, instrumentation issues at the vendor laboratories,
        and batch size problems leading to increased review time by the
        offender laboratories.

      b. If Yes please answer the following questions.

        1. Did you make the NIJ aware of these problems?

           Ten respondents said Yes and 2 said No.

        2. Did the NIJ act to help resolve these problems?

           Nine respondents said Yes and two said No.

        3. Did the problems produce a lasting delay to your
           progress?

           Eleven said Yes and two did not respond.

        4. Were you satisfied with how the problems were
           ultimately resolved?

           Five respondents said Yes and three said No.

35.   a. Did you experience any problems with data compatibility of
         work produced by any of the NIJ outsourcing vendors your
         laboratory has used?

        Twenty-six of the 30 respondents said they did not experience any
        data compatibility problems, two were unsure, and two said they
        did experience data compatibility problems. Specifically, of the
        two respondents who said they did experience data compatibility
        problems:
           •   2 said they had data compatibility problems with Reliagene.

        The two respondents who said they had experienced data
        compatibility problems provided additional comments, and those
        comments were:

           •   “Several times the vendor sent data in packets that could not
               be opened.”

           •   “Data from the vendor is very time consuming to analyze.
               Partly due [to] the analysis software and partly due to [the]
               vendor.”

      b. If Yes please answer the following questions.

        1. Did you make the NIJ aware of these problems?

           Two respondents said No.

        2. Did the NIJ act to help resolve these problems?

           One respondent said No.

        3. Did the problems produce a lasting delay to your
           progress?

           One respondent said Yes and one said No.

        4. Where you satisfied with how the problems were
           ultimately resolved?

           One respondent said Yes.

36.   Do you have any suggestions for how the NIJ can better
      manage the outsourcing vendor aspects of the Backlog
      Reduction Program?

      Sixteen of the 51 respondents provided a suggestion for improvements
      to the Backlog Reduction Program. In general, respondents suggested
      that the outsourcing laboratories need to have more of an input in
      both selecting the vendor laboratories they are to use and putting
      together the contacts, and that funding should focus on in-house
      capacity requirements.
                                                            APPENDIX III

             CONSOLIDATED RESPONSES FOR THE
            OIG SURVEY OF VENDOR LABORATORIES

       The OIG initiated an audit of the NIJ’s management of the Outsourcing
Program. These responses were intended to be used to help understand
where opportunities for improvement might exist in the NIJ’s management
of the Outsourcing Program, and to collect as background information on the
scope of the national offender backlog. We asked for one completed survey
per offender laboratory, but we also encouraged laboratories to obtain input
from other qualified staff within their laboratory. We requested that
respondents not consult with people outside their laboratory, and used the
term “backlog” throughout the survey to refer to the analysis and data-
review portions of the offender DNA backlog. This term does not include the
collection portion of the backlog. Any reference to samples refers to
offender DNA samples.

Survey Results

                           DEMOGRAPHICS

1.   In what state is your laboratory located?

     The vendor survey was sent to all vendor laboratories that have
     outsourcing contracts with the NIJ. We received a response rate of
     100 percent.

2.   What is your primary role in the laboratory?

     Of the five responses received,

        •   2 were from Technical Leaders,

        •   2 were from Directors, and

        •   1 was from a Chief Operating Officer.
3.   How many staff are devoted primarily or entirely to the
     processing of offender samples from State laboratories?
     (Check one)


               Number of vendor laboratory staff processing
                 offender samples from SDIS laboratories

                       20%



                                                        more than 10 staff

                                                        3-4 staff

                                                        8-10 staff

                 20%                           60%




                             RESPONSIVENESS

4.   Since October 1, 2005, how timely have you been receiving
     responses from the Backlog Reduction Program staff to
     questions or concerns you have had on the following issue
     areas?

     All 5 respondents reported having issues requiring response from the
     NIJ. The NIJ was usually timely in its response to all issue areas
     presented in the question on an average of 43 percent of the time,
     often timely on an average of 43 percent of the time, rarely timely an
     average of 13 percent of the time, never timely an average of
     0 percent of the time. The specific percentage responses for each
     category are shown in the table below.
                                            NEVER        RARELY            OFTEN         USUALLY
                                                                  10               11             12
        ISSUE AREAS:                       TIMELY       TIMELY            TIMELY         TIMELY
        Contract Compliance                    0%         20%              40%             40%
        Assistance with required forms
                                               0%            0%            75%             25%
          or reports
        Payment delays                         0%        33.3%            33.3%           33.3%
        Problems with the states who
                                               0%            0%            25%             75%
          outsource offender samples


       One comment given under the Other option was that “[P]ayment of
       invoices has dramatically improved since 2005,” but the respondent
       marked that this issue area was not applicable.

5.     a. In your opinion, if responses from the NIJ were untimely,
          how did that limit your laboratory’s ability to accomplish the
          following:

            Three of the five respondents indicated the NIJ was untimely in
            responding to issues identified in Question 4. Their responses to
            Question 5.a. are as follows:

                                         VERY
                                         OFTEN        OFTEN            SOMETIMES        RARELY
            To comply with contract
                                           0             1                1               1
              requirements
            To process offender
                                           0             1                2               0
              samples


       b. What reasons do you attribute to the NIJ/OJP’s untimely
          responses? (Check all that apply)

            •   2 respondents indicated it was due to a “lack of understanding
                for the urgency”;

            •   2 respondents indicated it was due to a “lack of understanding
                about the implications of the questions or concerns”;



       10
          For the purposes of our survey a rarely timely response indicates that the NIJ did
not respond to the question or concern for more than 2 weeks.
       11
         For the purposes of our survey an often timely response indicates that the NIJ
responded to the question or concern within 2 weeks.
       12
        For the purposes of our survey a usually timely response indicates that the NIJ
responded to the question or concern in less than 1 week.
            •   1 respondent indicated “timely responses are not a high
                priority”;

            •   1 respondent indicated it was due to “understaffing at NIJ”;

            •   1 respondent indicated they were “unsure what the cause could
                be”; and

            •   1 respondent gave an Other response and indicated it was due
                to “communication breakdown between NIJ and OJP.”

6.     Based on your response to Question 4, where responses from
       the NIJ have been received within 2 weeks, to what degree did
       the responses address the following issue areas?

       Four of the five respondents who had answers from the NIJ addressing
       issues within 2 weeks reported that the NIJ’s response to all issue
       areas presented in the question fully addressed concerns on an
       average of 50 percent of the time, moderately addressed concerns on
       an average of 25 percent of the time, minimally addressed concerns
       an average of 25 percent of the time, and did not address concerns at
       all an average of 0 percent of the time. The specific percentage
       responses for each category are shown in the table below:

                                                    MINIMALLY       MODERATELY
                                                               13               14
             ISSUE AREAS:           NOT AT ALL     ADDRESSED        ADDRESSED         FULLY
       Contract Compliance             0%              0%              25%            75%
       Assistance with required
                                       0%              25%             25%                50%
          forms or reports
       Payment delays                  0%              50%             50%                0%
       Problems with the states
          who outsourced               0%              25%             0%                 75%
          offender samples


       One comment given to Question 6 was “Don’t recall receiving a
       response within 2 weeks.” Based on this respondent’s answers to
       Question 4, selecting “Not Applicable” would have been more
       appropriate.



       13
           For the purposes of our survey a minimally addressed response indicates that
significant aspects of the vendor laboratories’ concern were not addressed by the NIJ.
       14
         For the purposes of our survey a moderately addressed response indicates that
minor aspects of the vendor laboratories’ concern were not addressed by the NIJ.
7.   If any of the concerns you raised to the NIJ remain
     unaddressed, to what degree do you believe those concerns
     have the potential to undermine the achievement of the
     Backlog Reduction Program goals (i.e., the most efficient and
     effective reduction of the offender backlog possible)? (check
     one)

     The three vendor laboratories who responded to this question each
     gave a different answer. One indicated their unaddressed concerns
     have a significant degree of potential to undermine the achievement of
     the Backlog Reduction Program goals.

     Another respondent indicated their unaddressed concerns have a
     moderate degree of potential to undermine the achievement of the
     Backlog Reduction Program goals and the third respondent indicated
     their unaddressed concerns have a minimal degree of potential to
     undermine the achievement of the Backlog Reduction Program goals.

                             MANAGEMENT

8.   Does the NIJ provide sufficient guidance on complying with
     general contract requirements to ensure understanding and
     compliance with those requirements? (check one)

     Three of the five respondents indicated Yes and two of the five
     indicated No. Respondents who indicated No were asked to explain
     and are as follows:

        •   “Unsure whether NIJ is able to provide guidance for certain
            aspects of the contract requirements.”

        •   “As a vendor that has participated in the Backlog Reduction
            Program frequently over several years, we feel that we
            understand the requirements, but sometimes the state
            laboratories do not.”

9.   Does the NIJ provide oversight (including monitoring) to
     ensure vendor laboratories comply with all applicable contract
     requirements?

     All five respondents indicated Yes.
10. If you answered Yes to Question 9; in your opinion, what do
    you think is the level of the oversight that is provided by the
    NIJ? (check one)

    Three respondents indicated the NIJ provided moderate oversight;
    one respondent indicated the NIJ provided great oversight; and one
    respondent selected Other and provided the following explanation:
     “Yearly NIJ audit is sufficient.”

11. Do you believe the Outsourcing Program is accomplishing its
    mission of assisting the DNA community in reducing offender
    backlogs in the best manner possible? (check one)

    Four of the five respondents indicated No, and stated that the
    Outsourcing Program could accomplish its mission better if it would
    incorporate changes such as: more discussions between their
    laboratories and the state laboratories to help streamline the process,
    more standardization of contracts, and greater accountability of vendor
    laboratories not meeting the delivery requirements of the contracts.

12. How would you rate the over all effectiveness of the NIJ’s
    current management of the Outsourcing Program? (check one)

    Four of the respondents indicated Good and one respondent indicated
    Excellent. Respondents were asked to provide an example related to
    the rating they provided and two of the respondents did. Their
    examples are as follows:

       •   Excellent – “The NIJ program managers were instrumental in
           addressing and successfully resolving a procedural issue that
           developed in the initiation of a new contract. The program
           manager took immediate and effective action to ensure that both
           the state laboratory and the vendor laboratory understood the
           contract requirements. The issue was resolved and the contract
           moved forward.”

       •   Good – “We were able to modify one of our State projects to
           better meet the State’s needs without excessive delay or red
           tape.”
                    AUDITS & ASSESSMENTS

13. Have NIJ-funded auditors conducted a QAS audit at your
    laboratory since October 1, 2005? (check one)

    All five respondents indicated Yes and stated that the month and year
    all five audits took place was January 2008.

14. a. Does your laboratory have any concerns with the NIJ-funded
       auditors who conducted the QAS audits at your laboratory
       since October 1, 2005?

       Three of the five respondents indicated No; one respondent
       indicated they were “unsure/not applicable based upon
       limited experience”; and one respondent indicated Yes.

    b. If Yes, which of the following concerns does your laboratory
       have with the NIJ funded auditors who conducted the QAS
       audits?

       The one respondent who indicated Yes to Question 14.a. selected
       the following two concerns: “conflict of interest with the auditee”
       and “inconsistency of interpretations.”

    c. Which of these concerns has your laboratory raised to the
       NIJ? (check all that apply)

       The one respondent who indicated Yes to Question 14.a. indicated
       they raised their “inconsistency of interpretations” concern with the
       NIJ.

15. Has your laboratory had a Grant Progress Assessment (GPA)
    performed since October 1, 2005? (check one)

    All five respondents indicated Yes. One of the five did not provide a
    month or year and the other four indicated their GPAs took place in
    January 2008.
16. Do you believe that GPAs collect the appropriate information to
    fairly reflect a vendor’s compliance with contractual
    requirements? (check one)

    Four of the five respondents indicated Yes and one respondent
    indicated No. Two of the respondents who indicated Yes provided the
    following comments:

       •    “All outsourcing contracts, records, and reports were reviewed to
            assess compliance with the federal grant program.”

       •    “Evaluation of data from monthly progress reports is sufficient.”

    The respondent who answered No to Question 16 gave this comment:
    “[W]e are unsure if the GPAs look only at the bottom line of the
    number of samples completed or if they look into why the
    requirements have not been met.”

           INTERACTION WITH STATE LABORATORIES

17. Please provide information on the state laboratories that have
    outsourced offender samples to you from October 1, 2005, or
    after.

    Respondents stated that the five vendor laboratories had received
    approximately 489,382 offender samples since October 1, 2005, and
    they had processed approximately 464,600 offender samples during
    the same time. Specifically, the vendor laboratories in:

       •    North Carolina received approximately 18,211 and processed
            approximately 13,483;

       •    Indiana received approximately 2,955 and processed
            approximately 1,134;
   •            South Dakota received approximately 78,820 and processed
                approximately 71,179;

   •            Virginia received approximately 157,396 and processed
                approximately 156,804; and

   •            Tennessee received approximately 232,000 and processed
                approximately 222,000.

The graph below shows the breakout of samples received and analyzed
by the vendor laboratories since October 1, 2005.

                             Number of offender samples received and
                                processed since October 1, 2005

                       250,000
  Number of Offender




                       200,000                                    Approximate number
                                                                  of offender samples
      Samples




                       150,000                                    received

                       100,000
                                                                  Approximate number
                        50,000                                    of offender samples
                                                                  processed
                            0
                                 NC     IN    SD     VA      TN
                                      Vendor Lab Locations



Of the 22 state laboratories that have outsourced offender samples to
the 5 vendor laboratories (3 state laboratories outsourced to more
than 1 vendor laboratory so the rating totals will be 5 higher then the
number of state laboratories that outsourced):

   •            13 were rated as Excellent;

   •            8 were rated as Good;
       •   2 were rated as Fair; and

       •   4 were rated as Poor.

    Of the four state laboratories rated as Poor, one outsourced to more
    than one vendor laboratory and the other two vendor laboratories
    rated the same state laboratory as Excellent and Good.

    Of the two rated as Fair, one outsourced to more than one vendor
    laboratory and the other two vendor laboratories rated the same state
    laboratory as Excellent and Good.

    The third laboratory that outsourced to more than one vendor
    laboratory was rated Good by one vendor laboratory and Excellent by
    the other vendor laboratory.

18. a. Did you experience any problems with the volume of work
       submitted by any of the state laboratories?

       Three of the five vendor laboratory respondents indicated they had
       volume problems with the samples submitted by the state
       laboratories. Two respondents indicated they did not have volume
       problems. Based on the comments given by the respondents, the
       volume problems had to do with sample shipments being delayed
       and not as many samples being shipped as expected.

    b. If Yes please answer the following questions.

       1. Did you make the NIJ aware of these problems?

           The three vendor laboratories that had volume problems
           indicated they brought the problems to the NIJ's attention.

       2. Did the NIJ act to help resolve these problems?

           Two of the three laboratories that brought the problem to the
           NIJ’s attention indicated the NIJ acted to help resolve these
           problems, while one respondent indicated the NIJ did not act to
           help resolve these problems.

       3. Did the problems produce a lasting delay to your
          progress?
              One of the two laboratories that indicated the NIJ acted to help
              resolve the problems also indicated Yes, the problem produced a
              lasting delay, while the other two laboratories indicated the
              problems did not produce a lasting delay in their progress of
              meeting the goals and objectives of the contract.

            4. Were you satisfied with how the problems were
               ultimately resolved?

              All three vendor laboratories that had volume problems indicated
              they were satisfied with how the problems were ultimately
              resolved.

19. a. Did you experience any problems with the quality of samples
       submitted by any of the state laboratories?

            Four of the vendor laboratory respondents indicated they had
            quality problems with samples submitted by the state laboratories,
            and one respondent indicated they did not have quality problems.
            Based on the comments given by the respondents, the quality
            problems had to do with the type of FTA cards used and the
            transferring of the sample to the FTA cards. 15

       b. If Yes please answer the following questions.

            1. Did you make the NIJ aware of these problems?

              Of the four laboratories that had quality problems, three made
              the NIJ aware of the problems and one did not.

            2. Did the NIJ act to help resolve these problems?

              Two of the three laboratories indicated the NIJ acted to help
              resolve the problems, while one respondent indicated the NIJ did
              not act to resolve the problem.

            3. Did the problems produce a lasting delay to your
               progress?



       15
          FTA paper is specially treated to bind and protect from degradation; nucleic acids;
blood, plant and animal tissue extracts; and other sources. For analysis, a small disc is
punched from the FTA paper containing the DNA sample of interest, washed, dried and used
for polymerase chain reaction (PCR).
         Three of the four vendor laboratories indicated the problem
         produced a lasting delay in their progress, while one respondent
         indicated it did not.

      4. Were you satisfied with how the problems were ultimately
         resolved?

         Two of the four laboratories indicated they were satisfied with
         how the problems were ultimately resolved, while two
         respondents indicated they were not satisfied.

20. Do you have any suggestions for how the NIJ can better
    manage the outsourcing aspects of the Outsourcing Program?

    All five respondents provided a comment to Question 20. The
    comments concerned: (1) more standardization in the reports and the
    sample type; (2) factors other than pricing should be used in awarding
    new contracts; and (3) communication between the NIJ, state
    laboratory, and vendor laboratory should increase, post award.
                                                                 APPENDIX IV

              FACTORS INFLUENCING THE BACKLOG

      According to the NIJ’s DNA Task Force, several major factors influence
the productivity of DNA laboratories across the country. Consequently, if a
laboratory’s productivity cannot keep pace with analysis demand, a backlog
of samples awaiting analysis occurs. The following list focuses on those
general factors that affect a laboratory’s ability to analyze incoming offender
samples.

Potential Resource Issues

      A laboratory’s ability to keep pace with incoming convicted offender
samples are greatly affected by resource issues. Examples of resource
issues include:

   •   Capacity: Our nation’s crime laboratories do not have the capacity to
       take full advantage of DNA forensic technology because of inadequate
       equipment, cramped laboratory space, outdated information systems,
       and growing casework demands.

   •   Funding: Crime laboratories face rapidly increasing workloads and
       lack the funds to purchase and maintain new equipment and hire
       qualified personnel. They continue to be deluged with DNA analysis
       requests, and these requests will only increase as more States enact
       statutes authorizing the collection of samples from more categories of
       offenders and arrestees. As states continue to expand the categories
       of offenders required to provide DNA samples, crime laboratory
       personnel lack the resources to analyze all convicted offender DNA
       samples in a timely manner. In addition, legislatures in many states
       have passed “unfunded mandates” (i.e., a law that requires the
       implementation of a convicted offender database without providing
       funding for that implementation).

   •   Personnel: State and local crime laboratories lack sufficient numbers
       of trained forensic scientists. State and local governments with
       shrinking budgets lack adequate resources to hire trained scientists.
       Even when funds are available, there is an insufficient pool of qualified
       forensic scientists to hire. Consequently, productivity can be greatly
       influenced by personnel issues.
State Legislation

      State legislation issues are discussed in detail in the Introduction
section of this report, and unfunded mandates are covered by the Funding
section above. These legislative issues combine to provide a challenging
environment in which convicted offender databasing laboratories must work,
and an environment that may not permit a productivity level that keeps pace
with incoming samples.

Role of Sample Collection Agencies

       Various agencies external to the laboratory are often charged by the
legislation to oversee the collection of the convicted offender samples and
the safe transfer of those samples to the possession of the laboratory.
These agencies can include prison facilities, local jails, sheriff’s departments,
and probation and parole offices. These external agencies face similar
hurdles such as the laboratory, including limited resources, unfunded
mandates, and political issues. Also, the collection process makes the
laboratories dependent on accuracy and thoroughness on the part of these
external agencies. The collection agencies must ensure that the correct
people are giving samples and that full and accurate identifying and criminal
history information is sent to the laboratory with the sample.
                                                                             APPENDIX V

                  METHODOLOGY USED TO ESTIMATE
                  IMPACT OF ARRESTEE LEGISLATION

      We analyzed the FBI’s Uniform Crime Reporting (UCR) data on arrests
by state. 16 We made the following assumptions from the data presented by
the FBI for our analysis:

   •   The categories of violent crime and property crime contain offenses
       that are felonies in all states; 17 and

   •   The arrests reported in these two categories represent all felony
       arrests within a state.

       Thirty-one percent is a national estimate of the overall conviction rate
for violent felonies, which include murder, rape, robbery, and aggravated
assault, as reported by the Bureau of Justice Statistics. 18 We made the
following assumptions regarding this estimate:

   •   The overall conviction rate for violent felonies is the same as the
       conviction rate for all felonies; and

   •   The felony conviction rate is the same in all states.

      We then multiplied the arrests reported for qualifying offenses based
on the DNA database laws of each state as of July 2008 in the UCR by the
conviction rate of 31 percent to obtain a current level of convicted offenders
by state. 19 For states that already included arrestees, those numbers were
added to the current workload total.


       16
            The Uniform Crime Reporting (UCR) Program was conceived in 1929 by the
International Association of Chiefs of Police to meet a need for reliable, uniform crime
statistics for the nation. In 1930, the FBI was tasked with collecting, publishing, and
archiving those statistics. Today, several annual statistical publications are produced from
data provided by nearly 17,000 law enforcement agencies across the United States.
       17
          Violent crimes are offenses of murder and non-negligent manslaughter, forcible
rape, robbery, and aggravated assault. Property crimes are offenses of burglary,
larceny-theft, motor vehicle theft, and arson.
       18
          Bureau of Justice Statistics, Felony Sentences in State Courts, 2004, NCJ 215646
(July, 2007), 3.
       19
          National Conference of State Legislatures, “State Laws on DNA Data Banks,” July
2008, http://www.ncsl.org/programs/cj/dnadatabanks.htm (accessed September 1, 2008).
      To estimate the increase in workload created by the addition of felony
arrests, we then added the remaining arrestees to the current workload and
calculated the percent increase over the current workload.

       The estimate of 112 percent is an estimate of the impact of arrestee
legislation nationwide. The impact of expanding legislation to include
arrestees in an individual state that did not previously have an arrestee
collection law is estimated to be an increase of 223 percent over the current
workload. These estimates are different because some states already have
arrestee legislation in place.

      It is important to note that the number of samples that are reported
are used to calculate the baseline workload and the percentage increase
above the baseline workload and should not be used as current estimates of
states’ convicted offender workload or the number of arrestees they should
expect to receive. Instead, to calculate the impact of legislation on the
additional receipt of arrestees in a particular state that does not already
include arrestees, the rate of 223 percent should be multiplied by the
current workload.
                                                                          APPENDIX VI

   COMPONENTS OF THE CONVICTED OFFENDER BACKLOG

       The convicted offender DNA backlog can be broken down into four
basic components: (1) samples that are “owed” but have not been
collected; (2) samples that have been collected but have not been analyzed;
(3) samples that have been analyzed but have not been technically
reviewed; and (4) samples that have been analyzed and reviewed but have
not yet been uploaded to NDIS.

COMPONENTS OF CONVICTED OFFENDER BACKLOG
                         Samples Not Yet Collected
                                         Samples Awaiting Analysis
 Convicted Offender Backlog
                                         Samples Awaiting Technical Review
                                         Samples Awaiting Upload to NDIS
Source: OIG

       One component of the convicted offender backlog is those samples
that an individual is required by law to provide, but for various reasons the
samples have not yet been collected. The most common reason for a
collection backlog is new legislation making the collection of DNA samples
from convicted offenders retroactive and thus suddenly increasing the
backlog of samples that need to be collected in individual states. 20

       In 2003, the NIJ estimated that the number of samples not yet
collected to be between 500,000 and 1 million nationwide. The NIJ based its
estimate on anecdotal discussions with crime laboratory directors and
information from state correctional administrators as well as a comparison of
BJS felony conviction data to NDIS upload data.

     However, in a statement before the Senate Subcommittee on Crimes
and Drugs in May of 2002, the former Director of the NIJ stated,

       [T]he number of samples that require analysis has been, and is
       likely to continue to be, in a state of flux as more states move to
       20
           New York expanded DNA collection legislation in June 2006 to require the
retroactive collection of DNA samples from individuals convicted of any one of the 18
misdemeanors who were still serving sentences at the time the law was passed. As a
result, the state of New York needed to collect 30,000 retroactive samples the day the law
was passed, immediately placing a large number of samples in backlog status. As of June
2007, New York estimated that only 6,200 retroactive samples remained to be collected
under the new law.
      collect samples from all convicted felons. Therefore, there is no
      reliable estimate of the number of offender samples that are
      required by state or federal statute, but which are yet to be
      collected, but several hundred thousand owed samples are likely.

      We attempted to obtain an updated estimate of the number of samples
not yet collected and found that there is still no reliable method of
estimating this number for the following reasons:

  •   The local and state laboratories are not responsible for collecting the
      samples from convicted offenders, and generally do not have any
      reliable method of tracking this data because it is not within their
      control; and

  •   Many different correctional institutions, parole and probation offices,
      and law enforcement agencies within each state may be required to
      collect DNA samples from convicted offenders, and these agencies may
      or may not have a coordinated or comprehensive method for tracking
      whether these samples are collected.

       While we acknowledge that the owed but uncollected convicted
offender samples could potentially have an impact on the overall backlog, we
focused our audit on the backlog of DNA samples that have been collected
from convicted offenders but are awaiting analysis. The NIJ’s Convicted
Offender DNA Backlog Reduction Program specifically funds only those
samples that have been collected by the states pursuant to applicable laws.
Therefore, for the purposes of this audit, the convicted offender DNA backlog
shall be those samples that have been collected but not uploaded into
CODIS.
                                                               APPENDIX VII

                 NIJ RESPONSE TO THE DRAFT REPORT



MEMORANDUM TO:         Glenn A. Fine
                       Inspector General
                       United States Department of Justice

THROUGH:               Raymond J. Beaudet
                       Assistant Inspector General for Audit
                       Office of the Inspector General
                       United States Department of Justice

FROM:                  Laurie O. Robinson
                       Acting Assistant Attorney General

SUBJECT:               Response to Office of the Inspector General’s Draft
                       Audit Report, Convicted Offender DNA Backlog
                       Reduction Program

This memorandum provides a response to the recommendations directed to
the Office of Justice Programs (OJP) included in the Office of the Inspector
General’s (OIG’s) draft audit report entitled, Convicted Offender DNA
Backlog Reduction Program.

The Office of Justice Programs has reviewed the draft audit report and finds
all of the recommendations posed by the OIG to be reasonable and
justifiable. Many of the findings and recommendations identified by the OIG
were already recognized as issues by the National Institute of Justice (NIJ)
before the audit was initiated. Corrective actions for many of the
recommendations had already been identified and initiated prior to the
release of this report. The Office of Justice Programs has proposed
attainable corrective actions in response to each of the recommendations
posed by the OIG. The Office of Justice Programs is confident that the
implementation of these corrective actions will further strengthen the impact
of the Convicted Offender and/or Arrestee DNA Backlog Reduction Programs
on reducing the backlog of convicted offender and/or arrestee DNA samples.

The draft audit report contains 11 recommendations and no questioned costs
directed to OJP. For ease of review, these recommendations are stated in
bold and are followed by OJP’s response.

1. Provide state laboratories improved guidance on reporting the
   performance information required in performance reports.
The Office of Justice Programs agrees with this recommendation. NIJ has
or will institute the following corrective actions:

 A. New awards: NIJ developed the fiscal year (FY) 2009 Program
    solicitation to address these issues. The revised solicitation was
    posted on March 3, 2009 on the OJP website at
    http://ncjrs.gov/pdffiles1/nij/sl000868.pdf. Providing better
    guidance and structure for data reporting from the outset of the FY
    2009 Program will allow NIJ to provide consistent guidance on the
    collection and reporting of the data during the remainder of the
    project and program, thereby reducing confusion and increasing the
    quality of data received. The following components have been
    enhanced or modified in the FY 2009 Program:

     1) Requirement of a Data Collection Plan: Applicants for federal
       assistance under the FY 2009 Program are required to submit a
       Data Collection Plan (Plan) with their applications, which describes
       the applicant’s plan for the collection of the data required for
       performance measures. NIJ staff will use an internal checklist to
       review each application and the checklist will be uploaded to the
       Grants Management System (GMS) upon completion of the review
       process. Additionally, any application that does not include a Plan
       or fails to describe a data collection method, which clearly
       facilitates reporting accurate and verifiable performance measure
       data, will be returned to the applicant for an opportunity to revise
       and resubmit their application. Awards will not be made without
       the inclusion of an adequate Plan. NIJ program managers will
       provide feedback and communicate with applicants to ensure that
       the Plan is reasonable and achievable.


    2) Clarification of “Backlog”: In order to further clarify how
       applicants should calculate the backlog samples and cost per
       sample, NIJ has added language to the FY 2009 Program
       solicitation that states, “[c]alculate the eligible backlog of DNA
       database samples by adding the current backlog existing at the
       time of application to the anticipated receipt of samples through
       March 31, 2010, then reducing this number by the number of
       samples that will be analyzed using existing State or local funding
       sources and/or other Federal assistance. The number of samples
       that can be analyzed during the project period should reflect the
       laboratory’s known or anticipated capacity at the time of project
       initiation and the total eligible estimated backlog. Applicants
       should base the amount of their requests under this solicitation

                                   2
   on their actual cost estimates, but may not request more than
   $35.00 per sample analyzed (or per sample processed if no
   profile is generated but reasonable attempts were made)” (see
   page 4 in the FY 2009 Program solicitation). By better
   understanding the calculation of the backlog proposed for analysis
   at the outset of the project, NIJ and the award recipient will have
   a better foundation for future discussions regarding how to
   calculate the performance measure data required in performance
   reports.

3) Semi-annual Performance Measure Data to be Included in Semi-
annual Progress Reports:
  This corrective action has been completed by NIJ. The FY 2009
  Program solicitation advises applicants that the submission of
  semi-annual performance measurement data will be required as
  part of the mandatory semi-annual progress report submission in
  the GMS (see pages 10-11 in the FY 2009 Program solicitation).
  By eliminating the requirement for quarterly data submitted semi-
  annually, NIJ has removed a major cause of confusion associated
  with the reporting of performance measure data. Additionally, NIJ
  has added a clarifying statement to the solicitation that states,
  “[p]erformance measure data must be submitted semi-annually
  with progress reports. The performance measure of CODIS hits
  resulting from Convicted Offender funds are those CODIS hits
  resulting from DNA analyses of database (convicted offender and
  arrestee) samples and review of DNA profiles (from convicted
  offender and arrestee samples) that are funded under this
  solicitation.”

4) Clarified Performance Measure Data Descriptions:
  This corrective action has been initiated and is anticipated to be
  completed by December 31, 2009, to correspond with the end of
  the first semi-annual progress reporting period for FY 2009
  awards.

  The GMS “Performance Metrics” module is a part of the GMS
  “Grant Reports” module. Recipients of awards under Convicted
  Offender [and/or Arrestee] DNA Backlog Reduction programs are
  required to submit performance measure data through these
  modules at the end of each semi-annual reporting period (January
  1 through June 30 and July 1 through December 31). The GMS
  “Performance Metrics” module will contain new performance
  measure data collection language for FY 2009 awards. The
  objectives of the new language are to simplify previous years’

                              3
language (due to the change in the requirement to submit
quarterly performance measure data with semi-annual progress
reports described above in Section 2); and expand the clarification
of what is required for each dataset, see Figure 1: FY 2009
Performance Measure Language.

Figure 1: FY 2009 Performance Measure Language


            At the beginning of the award period, what was the
Performance
            number of DNA database samples awaiting DNA
Measure 1
            analysis?

            At the end of the semi-annual reporting period, what
            was the number of DNA database samples analyzed
            using funds from this award? (Note: The value should
Performance only represent the samples analyzed within the six
Measure 2   months of the reporting period. If this is a Final
            Report, please provide the cumulative metric for the
            entire project period – and note this is the total for the
            entire award period.)

            At the end of the semi-annual reporting period, what
            was the number of DNA database profiles entered into
            CODIS as the result of funds provided under this
            award? (Note: The value should only represent the
Performance
            CODIS entries made within the within the six months
Measure 3
            of the reporting period. If this is a Final Report, please
            provide the cumulative metric for the entire project
            period – and note this is the total for the entire award
            period.)

            At the end of the semi-annual reporting period, what
            was the number of CODIS hits attributable to analyses
            funded under this award?
Performance (Note: The value should only represent the CODIS hits
Measure 4   made within the six months of the reporting period. If
            this is a Final Report, please provide the cumulative
            metric for the entire project period – and note this is
            the total for the entire award period.)

Source: National Institute of Justice




                              4
B. Active awards: NIJ has made changes to the methods of providing
   guidance specifically to the points of contact assigned to active
   awards made under the Convicted Offender [and/or Arrestee] DNA
   Backlog Reduction programs in FYs 2005-2008.

   1) Clarified Performance Measure Data Descriptions: This corrective
      action has been initiated and is anticipated to be completed by
      December 31, 2009, to correspond with the next semi-annual
      progress reporting period for active projects funded by awards
      made under the Convicted Offender [and/or Arrestee] DNA
      Backlog Reduction programs in FYs 2005-2008.

     In September 2008, NIJ changed the language in the GMS
     “Performance Metrics” module in an attempt to better clarify what
     is being requested from recipients of active awards, see Figure 2:
     Modification to Performance Measure Language. Due to
     restrictions on the number of allowable characters in the GMS
     “Performance Metrics” module, the clarifying language is not
     entirely legible in GMS, and thus NIJ has since sent templates in
     Word format via email containing the modified performance
     measure data collection language to all active award points of
     contact in the Convicted Offender [and/or Arrestee] DNA Backlog
     Reduction programs. Award recipients can upload the completed
     templates as attachments to their progress reports, or simply cut
     and paste the material into the performance measures or
     narrative section of the progress report in GMS. OJP is continuing
     to work with GMS developers on improving the Performance
     Metrics and Grants Report modules in GMS, in order to provide
     clearer guidance on how to report performance measurement data
     in the system for NIJ active awards. However, if the restrictions
     on the number of allowable characters in GMS cannot be resolved,
     the NIJ program managers will continue to email the templates to
     all active award points of contact.


     Figure 2: Modification to Performance Measure Language

     Original        At the beginning of the award period, what was the
     Performance     number of DNA database samples awaiting DNA
     Measure 1       analysis?
     Modified        Required: At the beginning of the award period, what
     Performance     was the number of DNA database samples awaiting DNA
     Measure 1       analysis?


                                5
Original    At the end of the prior quarterly reporting period, what
Performance was the number of DNA database samples analyzed
Measure 2   using funds from this award?
            At the end of the first three months of this reporting
Modified    period, what was the number of DNA database samples
Performance analyzed using funds from this award? (Note: The value
Measure 2   should only represent the samples analyzed within the
            first three months of the reporting period.)
Original    At the end of the current quarterly reporting period,
Performance what was the number of DNA database samples analyzed
Measure 3   using funds from this award?
            At the end of the last three months of this reporting
            period, what was the number of DNA database samples
            analyzed using funds from this award?
Modified
            (Note: The value should only represent the samples
Performance
            analyzed within the last three months of the reporting
Measure 3
            period. If this is a Final Report, please provide the
            cumulative metric for the entire project period – and
            note this is the total for the entire award period.)
            At the end of the prior quarterly reporting period, what
Original
            was the number of DNA database profiles entered into
Performance
            CODIS as the result of funds provided under this award?
Measure 4
            At the end of the first three months of this reporting
            period, what was the number of DNA database profiles
Modified
            entered into CODIS as the result of funds provided under
Performance
            this award? (Note: The value should only represent the
Measure 4
            CODIS entries made within the first three months of the
            reporting period.)
            At the end of the current quarterly reporting period,
Original
            what was the number of DNA database profiles entered
Performance
            into CODIS as the result of funds provided under this
Measure 5
            award?
            At the end of the last three months of this reporting
            period, what was the number of DNA database profiles
            entered into CODIS as the result of funds provided under
Modified    this award?
Performance (Note: The value should only represent the CODIS
Measure 5   entries made within the last three months of the
            reporting period. If this is a Final Report, please provide
            the cumulative metric for the entire project period – and
            note this is the total for the entire award period.)
Original       At the end of the prior quarterly reporting period, what

                          6
   Performance was the number of CODIS hits attributable to analyses
   Measure 6   funded under this award?
               At the end of the first three months of this reporting
   Modified    period, what was the number of CODIS hits attributable
   Performance to analyses funded under this award? (Note: The value
   Measure 6   should only represent the CODIS hits made within the
               first three months of the reporting period.)
   Original    At the end of the current quarterly reporting period,
   Performance what was the number of CODIS hits attributable to
   Measure 7   analyses funded under this award?
               At the end of the last three months of this reporting
               period, what was the number of CODIS hits attributable
               to analyses funded under this award?
   Modified
               (Note: The value should only represent the CODIS hits
   Performance
               made within the last three months of the reporting
   Measure 7
               period. If this is a Final Report, please provide the
               cumulative metric for the entire project period – and
               note this is the total for the entire award period.)
   Source: National Institute of Justice

2) Data Collection Plan: This corrective action has been initiated and
   will be ongoing throughout the life of previously awarded active
   projects.

   NIJ has been working with and plans to continue to work with
   recipients of awards under the Convicted Offender [and/or
   Arrestee] DNA Backlog Reduction programs in the nascent stages
   of the funded projects to better define baseline performance
   measure data, the measurement of data produced using existing
   funding sources, and the method of calculating data produced
   using federal funds provided under each award. NIJ will continue
   to review previously awarded active awards to confirm that
   adequate performance measure data is being submitted with
   progress reports. Where performance measure data are not
   consistent with project objectives and/or appear to be inaccurate,
   NIJ will contact award recipients to implement a retroactive data
   collection plan.

   In instances where award funds are utilized for the purchase of
   laboratory supplies and consumables, NIJ will be able to determine
   the direct correlations in money spent to samples processed. In
   some instances, the measurement of the direct impact a purchase
   using award funds has on the number of samples additional to


                                 7
     what could be accomplished using existing funding sources,
     requires a more detailed plan.

     NIJ recognizes the increased difficulty that the award recipient
     faces in relating capacity enhancement projects to quantifiable
     increases in samples analyzed, and accordingly removed capacity
     enhancement activities as an allowable cost from the FY 2009
     Program solicitation (see pages 8-9 in the above-referenced
     solicitation). NIJ anticipates this modification to the solicitation
     will result in projects with direct relationships between funds
     expended and samples analyzed using award funds. It is
     expected that by limiting this program to projects with direct
     relationships, NIJ can ensure better outcomes.

C. Additional Guidance to Grantees: The implementation of these
   corrective actions has been completed, and the activities will be
   ongoing throughout the duration of the programs.

   1) Grant Oversight
      At the midpoint of FY 2009, the DNA Backlog Reduction programs
      (including the Convicted Offender [and/or Arrestee] DNA Backlog
      Reduction programs) are now managed by two Program
      Managers (for the “In-House” programs, divided geographically)
      and one Program Operations Specialist (for the “Outsourcing”
      program). Additionally, NIJ has added two contract support staff
      to assist with managing the programs, see Figure 3 below, DNA
      Backlog Reduction Programs Support Staff (as of March 4, 2009).
      NIJ will continue to monitor the personnel resources assigned to
      the management and support of these programs, and will
      consider adjustments to staffing levels and/or assignments as
      necessary.




                                 8
Figure 3: DNA Backlog Reduction Programs Support Staff
(as of March 23, 2009):

         DNA Backlog Reduction Programs
                     [Total – 5]
      [3 Federal and 2 Contract Support Staff]




                                                           1 - Federal
                                                    Senior Program Manager
                                                        (Southern States)




                                                          1 - Federal
                                                       Program Manager
                                                        (Northern States)




                                                           1 - Federal
                                                  Program Operations Specialist
                                        Convicted Offender Outsourcing Contracts Program




                                                             2 - Contractors




        Program Manager


        Senior Program Manager




Source: National Institute of Justice



                                         9
     2)    Outreach Newsletters:
          Newsletters are made available online at
          http://www.nfstc.org/programs/index.htm so that award
          recipients may access this information at any time. NIJ plans to
          send a newsletter describing the changes to the FY 2009
          performance measure data expectations, by March 31, 2009.

     3)    Training:
          A Grant Management Summit for 2009 is being planned at this
          time, and NIJ intends to continue holding the Grants Management
          Summit on an annual basis

2. Develop a reliable and reasonable method for award recipients in
   the In-House Program to determine the number of samples
   analyzed using In-House Program funds.

  The Office of Justice Programs agrees with this recommendation.

  This corrective action has been initiated and is partially completed. NIJ
  anticipates using the next semi-annual progress reporting period to
  continue to provide feedback and guidance to award recipients.
  Additionally, an internal document will be drafted for use as a reference
  guide for NIJ staff for providing guidance to award recipients on how to
  develop reliable and reasonable methods for determining the number of
  samples analyzed using In-House Program funds. It is anticipated that
  this document will be created by December 31, 2009, to coincide with the
  end of the next reporting period. The oversight portion of the action will
  be ongoing throughout the duration of previously awarded active projects.

  A. Develop and disseminate a clear definition of “backlog”: NIJ has
     added language to the FY 2009 Program solicitation to more clearly
     define what a “backlog” is in regards to the Program for new awards.
     The solicitation states, “[c]alculate the eligible backlog of DNA
     database samples by adding the current backlog existing at the time of
     application to the anticipated receipt of samples through March 31,
     2010, then reducing this number by the number of samples that will
     be analyzed using existing State or local funding sources and/or other
     Federal assistance. The number of samples that can be analyzed
     during the project period should reflect the laboratory’s known or
     anticipated capacity at the time of project initiation and the total
     eligible estimated backlog” (see page 4 in the FY 2009 Program
     solicitation). By incorporating the improved definition directly into the


                                     10
  solicitation language, NIJ is able to quickly disseminate this information
  to all applicants for federal assistance under this program in FY 2009.

B. Develop and disseminate improved guidance on how to
   calculate goal data: Once the applicable backlog, as discussed
   above, has been defined, the applicant may calculate the number of
   samples that will be analyzed which will then be the goal of the funded
   project. Applicants are now also required to base project costs on
   actual per cost estimates.

  In order to further clarify how to calculate the goal and how it relates
  to funds requested, NIJ has added language to the FY 2009 Program
  solicitation that states, “[t]he number of samples that can be analyzed
  during the project period should reflect the laboratory’s known or
  anticipated capacity at the time of project initiation and the total
  eligible estimated backlog. Applicants should base the amount of their
  requests under this solicitation on their actual cost estimates, but may
  not request more than $35 per sample analyzed (or per sample
  processed if no profile is generated but reasonable attempts were
  made).” By better understanding the calculation of the backlog, the
  goal for sample analysis, and the estimated costs proposed at the
  outset of the project, NIJ and the award recipient will have a better
  foundation for future discussions regarding how to calculate the
  performance measure data related to the number of samples analyzed
  using award funds. By incorporating the improved definition directly
  into the solicitation language, NIJ is able to quickly disseminate this
  information to all applicants for federal assistance under this program
  in FY 2009. Additionally, NIJ will continue to include this topic at its
  Grant Management Summit, held annually,. as previously stated in our
  response to Recommendation Number 1.

C. Provide improved guidance on how to calculate the baseline
   performance measure data: NIJ provided additional guidance to
   States in January 2009 with the progress report template previously
   mentioned that included additional language as follows, “[a]t the
   beginning of the award period (October 1 of the year corresponding to
   the award number), what was the number of DNA database samples
   awaiting DNA analysis? This number should never change from one
   progress report to the next for this award.”

D. Utilizing these key components NIJ and the award recipients
   can develop a reliable and reasonable method for award
   recipients in the In-House Program to determine the number of
   samples analyzed using In-House Program funds: Using the

                                  11
above key components, an award recipient may now utilize basic
mathematical formulas in order to determine the number of samples
analyzed using Convicted Offender and/or Arrestee DNA Backlog
Reduction Program funds.

For new and future awards, NIJ will utilize the application review stage
to assess the reliability and reasonableness of a project’s proposed
method of determining the number of samples analyzed using award
funds. Starting with the FY 2008 awards, all application reviews were
documented using an internal checklist, which was uploaded to GMS
upon completion of the review process. For FY 2009, the application
review checklist has been amended to include a review of applications
to determine if a reliable and reasonable method for determining the
number of samples analyzed using award funds is included in the
application. Applications with deficiencies identified during review will
be returned for an opportunity to revise and resubmit. NIJ program
managers will continue to provide feedback and communicate with
applicants to ensure that all applications are complete; and that the FY
2009 applications contain a reliable and reasonable method for
determining the number of samples analyzed using award funds.

For active awards made prior to FY 2009, NIJ will continue to review a
project’s semi-annual progress report to confirm that performance
measure data accurately reflect the number of samples analyzed using
In-House Program funds. NIJ has been working on capturing
retroactive and real-time performance measure data (see our response
to Recommendation Number 4 below). This information is now being
captured in real-time during the review of submitted progress reports.
By collecting and viewing the reported performance measure data in
comparison to previously reported performance measures, NIJ staff is
able to assess:

     If baseline performance measure data is consistent with
      previously reported data;
     If the number of samples analyzed has increased as would be
      expected in light of project goals and timelines; and
     If the reported performance measure data appears to be
      accurate. If the numbers do not appear to be consistent, NIJ
      staff will closely examine the data and may question the award
      recipient regarding whether data has been captured correctly
      and/or reported accurately.

Where performance measure data are not consistent with project
objectives and/or appear to be inaccurate, NIJ will contact award

                                12
    recipients to retroactively develop reliable and reasonable methods to
    determine the number of samples analyzed using In-House Program
    funds.

    In instances where award funds are utilized for the purchase of
    laboratory supplies and consumables, direct correlations can be made
    between award funds expended and samples analyzed. In some
    instances, the development of a method for award recipients to
    determine the number of samples analyzed using program funds
    requires more structure. NIJ understands that projects that do not
    have straightforward correlations between award funds expended and
    samples analyzed require more hands-on communication with awards
    recipients in order to ensure reliable and reasonable methods for the
    calculation of samples analyzed using program funds.

    As stated previously in our response to Recommendation Number 1,
    NIJ recognizes the increased difficulty of relating capacity
    enhancement projects to quantifiable increases in samples analyzed
    and has removed capacity enhancement activities from the FY 2009
    Program solicitation.

3. Ensure that performance reports are submitted in a timely
   manner and include all required performance measurement data
   for the Outsourcing Program.

  The Office of Justice Programs agrees with this recommendation. In
  response to this recommendation, NIJ has initiated the following
  corrective actions:

  A. Outsourcing Program: The target completion date for this
     corrective action is to have documentation in place and information
     disseminated to points of contacts at the state laboratories
     participating in the Outsourcing Program prior to and no later than the
     award of any new FY 2009 contracts under the Outsourcing Program.

    By September 30, 2009, NIJ will develop and implement written
    procedures aimed at addressing this recommendation. Procedures will
    include timed activities such as:
          1) NIJ will send a reminder to award recipients with active
    contracts in the Outsourcing Program 15 days prior to the designated
    due date of each performance report.
          2) Due dates for performance measures are at the end of each
    calendar quarter.


                                    13
           3) If the performance reports are not received within 1 week of
     the due date, NIJ will contact the participating State to address the
     noncompliance with the contract requirements to offer technical
     assistance to the participating State
           4) If the performance reports are not received within 15 days of
     the designated due date, NIJ will determine why the reports are
     delinquent.
           5) Based on the determination, NIJ may require the participating
     State to provide, and follow, a written plan to ensure that future
     reports are submitted by the designated due date
           6) In extreme cases, NIJ may recommend the cancellation of
     the contract for the State’s convicted and/or arrestee samples to the
     OJP’s Office of Administration, Acquisition Management Division (AMD).

     To ensure that the performance reports include all required
     performance measurement data for the Outsourcing Program, NIJ will
     include in its documented procedures a requirement that NIJ carefully
     review each performance report and address any issues with the
     performance measurement data with the award recipient. Procedures
     for ensuring that these reports include all required performance
     measurement data will also include timed activities such as, if
     performance measurement data correction requests are not satisfied
     within 15 days of the request, NIJ will determine why the request has
     not been satisfied by the designated due date. Based on the
     determination, NIJ may require the participating State to provide, and
     follow, a written plan to ensure that future performance measurement
     data correction requests are satisfied by the designated due date. In
     extreme cases, NIJ may recommend the cancellation of the contract
     for the State’s convicted and/or arrestee samples to AMD.

4. Summarize the performance information reported by state
   laboratories to report on the effectiveness of the Backlog
   Reduction Program as a whole.

  The Office of Justice Programs agrees with this recommendation. In
  response to this recommendation, NIJ has initiated the following
  corrective actions:

  A. Retroactively collect performance information reported by
     State laboratories: This corrective action has been completed.

     NIJ has retroactively collected the cumulative performance measure
     data reported for all awards made under Convicted Offender [and/or


                                    14
     Arrestee] DNA Backlog Reduction programs for which the reporting of
     performance measure data was required.

  B. Collect performance measure data reported by State
     laboratories: The implementation of this corrective action has been
     completed and the action will be performed semi-annually and as
     necessary throughout the duration of this program as long as the
     submission of performance measure data is required.

     NIJ will continue to collect performance measure data in real-time
     (semi-annually) as reports are submitted for active projects.

  C. Summarize the performance measure data to report on the
     effectiveness of the Backlog Reduction Program as a whole:
     This corrective action has been initiated and will be ongoing
     throughout the duration of this program as long as the submission of
     performance measure data is required. The target date for the
     completion of the first internal evaluation report is at the beginning of
     FY 2010 (October 2009) to coincide with the anticipated completion of
     all FY 2005 and additional FY 2006 Convicted Offender and/or Arrestee
     DNA Backlog Reduction Program funded projects. Dissemination of
     information to award recipients will occur after the completion of the
     internal report and the target date for this will be December 2009.

     Summary data for the program, regardless of year funded, will be
     evaluated in order to report on the effectiveness of the Convicted
     Offender and/or Arrestee DNA Backlog Reduction Program as a whole.
     NIJ anticipates utilizing these reports for internal evaluation as well as
     disseminating information to award recipients in order to provide
     feedback and foster an open dialog on the overall progress of the
     program.

5. Utilize the performance information reported by State laboratories
   to evaluate the effectiveness of individual awards and contracts
   funded under the Backlog Reduction Program, and to follow up on
   any poor performance.

  The Office of Justice Programs agrees with this recommendation. In
  response to this recommendation, NIJ initiated the following corrective
  action. The format for data collection and evaluation will be finalized by
  the end of the next progress-reporting period (December 31, 2009). The
  corrective action will be ongoing throughout the duration of the program
  as long as the submission of progress reports containing performance
  information and performance measure data is required.

                                      15
  NIJ intends to create a process for the real-time capture of performance
  measure data on a semi-annual basis. Having all previously reported
  performance measure data visible during the review of submitted reports
  allows NIJ staff to assess the reported progress, or lack thereof, of each
  project at the time of report submission. By collecting and viewing the
  reported performance measures in comparison to previously reported
  performance measures, NIJ staff is able to evaluate and provide feedback
  on whether:

  •   Baseline performance measure data are consistent with previously
      reported data;
  •   The number of samples analyzed has increased as would be expected
      in light of project goals and timelines; or
  •   The reported performance measure data appear to be accurate. If the
      numbers do not appear to be consistent, NIJ staff will closely examine
      the data and may question the award recipient regarding whether data
      have been captured correctly and/or reported accurately.

  Currently, NIJ is providing feedback to award recipients during the
  progress report review in instances where performance measure data are
  obviously reported inaccurately or inconsistently. It is anticipated that the
  implementation of the real time mechanism for performance measure
  data collection and visibility will allow NIJ staff to identify more instances
  of inadequate performance measure data reporting or project progress.

6. Ensure that financial and programmatic activities are monitored
   to determine if Backlog Reduction Program funds are being
   utilized in a timely manner.

7. Follow up with award recipients that have not demonstrated any
   progress toward completion of the objectives of the In-House
   Program award to determine whether the recipients have
   encountered difficulties in implementing the award, and provide
   assistance as necessary.

  The Office of Justice Programs agrees with these recommendations.
  Corrective actions have been implemented, and the monitoring activities
  will continue for the duration of all active awards.

  The need for better tools for program managers to assess award
  recipient’s financial and programmatic activities was recognized by the
  OJP, and in late 2007, the OJP made available the Enterprise Reporting
  Tool (ERT), which allows program managers to receive critical

                                      16
programmatic and financial information on an award in a single report
that pulls data directly from GMS as well as other databases at the OJP.

In January 2008, NIJ’s DNA Backlog Programs division started utilizing
this report, which allows program managers to review all awards that
they manage from a single award recipient. Critical financial and
programmatic data recovered include the award number, grant start and
end dates, the submission date of the last financial and progress report
submitted, an indication of whether the report submitted was a regular or
final report, award amount, unobligated funds, and balance available after
draw downs had occurred. The NIJ’s DNA Backlog Programs staff
manually added to this report fields that captured the percent of
unobligated funds for each award, the percentage of funds drawn down,
and manually added information from GMS to the spreadsheet of any
special conditions pending that withheld funds. During 2008, NIJ program
managers worked with the ERT software engineers to further refine this
data so that the percentage calculations were automatically generated by
ERT, special conditions were automatically extracted from GMS, and
contact information for the grant point of contact (POC) and the financial
point of contact (FPOC) were added.

The utility of this system is that a program manager can quickly extract
vital programmatic and financial information from a single software
program that allows for a rapid assessment of all the awards that they
manage for a particular award recipient.

That utility is further enhanced by the fact that NIJ program managers
can create a list of comments or action items resulting from their review
of this data. Program managers are then sending this review to the
award recipients.

The use of the ERT reports and the transmission of these reports to award
recipients is one way that NIJ is using to meet the recommendations of
the OIG. As a corrective action to Recommendation Numbers 7 and 8,
NIJ intends to send these ERT reports to award recipients every quarter,
after the final due date for the quarterly financial reports, in order to
ensure that financial and programmatic activities are monitored to
determine if Backlog Reduction Program funds are being utilized in a
timely manner. NIJ program managers can utilize the “Comment” fields of
the report to provide feedback to award recipients that have not
demonstrated any progress toward completion of the objectives of the
award. These reports are intended to initiate an open dialog between NIJ
and award recipients in order to determine whether the recipients have
encountered difficulties in implementing the award, and for NIJ staff to

                                   17
provide assistance as necessary. While NIJ intends to use this tool as a
method of reminding and encouraging award recipients to use awarded
funds in a timely fashion; they have no control over the speed that the
award recipient can utilize funds to reduce their backlogs (i.e. there may
be State procurement issues that are out of the control of NIJ).

Additionally, NIJ intends to continue holding the annual Grants
Management Summit as a second corrective action in response to these
recommendations. In late 2006, a new program manager recognized the
need for training for grant managers in State and local DNA labs with
respect to programmatic and financial matters related to the management
of their awards. In February 2007, NIJ paid for all DNA POCs to attend a
two-day DNA Summit in Washington, DC. Covered topics included a
financial seminar by a senior trainer from the OJP’s Office of the Chief
Financial Officer (OCFO), GMS training by the GMS engineers,
presentations by the Grant Progress Assessment (GPA) team on the
program and how it works, and presentations by NIJ’s DNA Backlog
Program Office personnel on the programmatic requirements (allowable
costs, progress reports, performance metrics, etc). In August 2008, a
second Grant Management Summit was presented to all DNA and
Coverdell (base recipient) grant POCS in Clearwater, Florida. The same
topics were covered in the 2008 Summit, but a great deal of emphasis
was placed on the very issues raised in these recommendations.
Additionally, NIJ is also planning a Grant Management Summit in 2009.

Another method that NIJ has been using since 2005 is the Grant Progress
Assessment (GPA) Program. Each DNA award recipient is visited biennially
to assess programmatic and financial progress on their awards. Although
the assessment is not the equivalent of a financial audit, the GPA
assessors do track expenditures, or lack thereof, in each budget category.
NIJ is currently working with the OJP’s Office of Audit, Assessment, and
Management (OAAM) to make the necessary modifications to the Program
in order to upgrade the GPA assessments to the equivalency of a site
visit. NIJ program managers have referred several award recipients to the
OCFO for on-site financial monitoring, as a result of GPA reports received.
 As part of its annual monitoring plan, the OCFO also conducts desk
reviews and on-site financial monitoring of OJP award recipients as well.
Programmatic issues raised during the GPA assessments are handled by
the individual program managers of the award.

NIJ program managers also conduct site visits to award recipients they
feel could benefit from technical assistance. In 2008, the site visits by
program managers were assigned to high-priority award recipients based


                                   18
  on the results of the newly designed Grant Assessment Tool developed by
  OAAM.

  In summary, NIJ recognized that oversight of the Convicted Offender
  [and/or Arrestee] DNA Backlog Reduction programs awarded in 2005 and
  2006 needed improvement, and in 2007 started taking steps to improve
  the oversight of these awards. The oversight initiatives that were
  implemented in 2007 have benefited from the OIG audit of the convicted
  offender program in that additional refinements have been added to the
  existing oversight based on suggestions and comments received from the
  OIG.

  The OJP believes that the actions NIJ has already taken and those
  planned for this year (upgrading of the GPA Program) will ensure that
  financial and programmatic activities are monitored and award recipients
  demonstrate progress toward completion of the objectives of the In-
  House Program are implemented.

8. Ensure that award funds are de-obligated and the awards are
   closed if award recipients are unable to use Backlog Reduction
   Program funds in a timely manner.

9. Ensure that award recipients substantially accomplish the
   objectives of an award before any new awards are funded.

  The Office of Justice Programs agrees with these recommendations. The
  corrective action for these recommendations has been initiated and will
  have two completion dates. The first date will occur on September 30,
  2009, which is the anticipated award date for new awards made from the
  FY 2009 Program solicitation. The second closure date will begin on
  September 30, 2009, when all FY 2005 awards will end, and the final
  closure date will be December 31, 2009, which is when all the FY 2005
  awards are expected to be closed out by NIJ.

  The Convicted Offender Backlog Reduction Program was first offered in
  2005. That same year, NIJ placed a withholding special condition on all
  awards to ensure that award recipients met the requirements of the
  National Environmental Protection Act (NEPA). This new requirement
  delayed all award recipients’ access to program funds for an average of
  six months and had a ripple effect that spread to later years; a problem
  that only exacerbated the timely use of funds reported by award
  recipients that were having procurement issues within their own agencies.
   In 2007, NIJ became concerned about the lack of timely usage of


                                    19
program funds by some award recipients, as the NEPA ripple effect should
have disappeared.

NIJ intends to continue to limit the access to new funds for agencies that
are not expending their awards in a timely fashion. In late 2007, NIJ
sought and received approval to include the following statement into the
FY 2008 Convicted Offender and Arrestee DNA Backlog Reduction
Program solicitation, “NIJ may reject applications from applicants with
prior awards for convicted offender (and/or arrestee) in-house analysis
that remain entirely unobligated as of the posting date of this
solicitation.”

Prior to the posting of the FY 2008 Convicted Offender and Arrestee DNA
Backlog Reduction Program solicitation, NIJ program managers contacted
agencies that had prior awards of totally unobligated funds and informed
them of the notice they could expect in the FY 2008 solicitation. Only one
of the agencies that were contacted made an application for assistance in
FY 2008, and that application was denied. Unlike the awards made in FY
2005 and FY 2006, NIJ officials considered the fact that some award
recipients had just received their FY 2007 funds in October 2007. NIJ
officials made a decision not to reject requests for assistance from any
agency that had totally unobligated FY 2007 funds. The grant application
period overlaps the award period by about 6 months and it was deemed
unwise to penalize States who had not yet accessed their FY 2007 funds
because they hadn’t quite finished their work on a prior year’s award.

It was noted in this draft audit report that NIJ made awards in FY 2008 to
agencies that had unobligated prior year funds. NIJ concedes that this is a
true statement; however, this was not due to accidental oversight on the
part of NIJ staff. NIJ intentionally did not consider
FY 2007 awards due to the overlap in the application dates and the award
period for the reasons mentioned above. In order to clarify this
requirement, NIJ has modified the language included in the FY 2009
solicitation to read, “NIJ may reject applications from applicants with
awards for convicted offender (and/or arrestee) in-house analysis from FY
2005-2007 that remain entirely unobligated as of the posting date of this
solicitation,” (see page 15 of the FY 2009 Program solicitation); thereby
clarifying exactly which prior year awards must be entirely unobligated.

NIJ will work closely with the award recipients to ensure they obligate
funding promptly. NIJ will consider the deobligation of uncompleted
convicted offender backlog reduction awards only as a last resort. NIJ
believes that an unexpected loss of award funds through an NIJ mandated
deobligation would directly and negatively impact a State’s ability to

                                   20
  reduce their reported backlog of samples awaiting analysis and CODIS
  entry. NIJ is aware that many States have reported serious issues with
  timely procurement, have significant staffing issues, and other justifiable
  reasons why they are not utilizing funds in a timely fashion.

  During the exit conference, the suggestion was made to NIJ that the
  program managers should document offers of technical assistance,
  problems reported by States in implementing their awards, and NIJ’s
  awareness of these issues. NIJ has adopted these suggestions. As a
  result, NIJ has implemented a real-time collection and analysis method
  for performance measures and a notes feature to include documentation
  of technical assistance and impediments.

  In summary, NIJ plans to limit access to new funds for States that have
  fallen behind in their expenditure of existing awards. If necessary, NIJ will
  consider mandating the closure of awards and deobligation of the
  associated unexpended funds.

10. Require award recipients to establish a mechanism that is both
  valid and auditable for tracking performance data required under
  the In-House Program.

  The Office of Justice Programs agrees with this recommendation. The
  corrective action for this recommendation has been completed for new
  awards and has been initiated for active awards. NIJ anticipates using
  the next semi-annual progress reporting period to continue to provide
  feedback and guidance to award recipients, and completion of this will
  occur on December 31, 2009, to coincide with the end of the next
  reporting period. Additionally, internal written guidelines for NIJ staff to
  use in providing guidance to award recipients on how to develop valid and
  auditable mechanisms for tracking performance data will be created by
  December 31, 2009, to coincide with the end of the next reporting period.
   Monitoring will be ongoing throughout the duration of the funded
  projects.

  A. New Awards: As previously mentioned in our response to
     Recommendation Number 1, NIJ now requires that applicants for
     federal assistance under the FY 2009 Program solicitation include a
     Data Collection Plan with their applications. During the application
     review process, NIJ staff will review the proposed data collection plans.
     Applications that do not include a plan will be returned to applicants for
     an opportunity to revise and resubmit their application. Plans that do
     not describe a data collection method that will clearly facilitate
     reporting accurate and verifiable performance measure data will also

                                      21
     be returned to applicants for revision. Awards will not be made without
     the inclusion of an adequate Data Collection Plan. NIJ program
     managers will provide feedback and communicate with applicants to
     ensure that data collection plans are reasonable and achievable.

  B. Active and Existing Awards: NIJ has been working with, and plans
     to continue to work with, recipients of awards under the Convicted
     Offender [and/or Arrestee] DNA Backlog Reduction programs in the
     nascent stages of the funded projects to better define baseline
     performance measurement data, the measurement of data produced
     using existing funding sources, and the method of calculating data
     produced using federal funds provided under each award. In instances
     where award funds are utilized for the purchase of laboratory supplies
     and consumables, direct correlations can be made in money spent to
     samples processed. In some instances, the measurement of the direct
     impact a purchase using award funds has on the number of samples,
     in addition to what could be accomplished using existing funding
     sources, requires a more detailed plan.

  C. All Awards: NIJ proposes to utilize the mechanism for review of
     performance measure data described in our response to
     Recommendation Number 5 in order to ensure reported performance
     measure data is valid. Instances of inadequate performance measure
     data reporting will be followed up by NIJ staff to ensure that the
     mechanism for tracking performance data is valid and auditable.
     Additionally, NIJ plans to continue to include this topic at its annual
     Grant Management Summit, to be held later in FY 2009.

11. Develop policies and procedures to facilitate pre-contract
  discussions as well as ongoing contract monitoring between state
  and vendor laboratories, to ensure that contract expectations are
  clear and that problems are identified, discussed, and resolved in
  a timely manner.

  The Office of Justice Programs agrees with this recommendation. The
  corrective action for this recommendation will be coordinated by NIJ and
  AMD and is in progress.

  A. NIJ: NIJ will be working with States requesting assistance through
     the Outsourcing Program to:

         Determine what assistance is needed;
         Insert States specific needs into the standardized Request for
          Quote/ Statement of Work, and

                                     22
       Provide funds to AMD to cover the contracts developed.

  The primary communication with the vendor laboratories eligible to
  provide assistance through the Outsourcing Program will be the
  responsibility of AMD.

  The States notify the NIJ program manager and the Contracting Officer
  Technical Representative (COTR) when changes are needed in the
  contract, or when problems arise. The NIJ program manager/COTR
  then notifies the contracting officer in AMD of the issue, who is
  responsible for making the contract modifications or settling the
  dispute. If the contract dispute is technical in nature, then the NIJ
  program manager/COTR and AMD can seek scientific or technical
  assistance from the NIJ DNA program managers.

  The net result is that AMD is primarily communicating with the vendors
  and NIJ primarily with the States. NIJ supports AMD’s response (see
  below). Additionally, NIJ will work with AMD to develop a written
  protocol describing the roles and responsibilities of the program
  manager, COTR, and States, with reference to requests for changes in
  the contracts and problems that arise, if any. The target completion
  date for this corrective action is to have documentation in place and
  information disseminated to points of contacts at the OJP and the state
  laboratories participating in the Outsourcing Program prior to and no
  later than the award of any new FY 2009 contracts under the
  Outsourcing Program.

  NIJ has provided States with a Post Award Package Notebook, and
  most recently with electronic copies of the documents related to the
  Outsourcing Program, which includes materials to assist the State’s
  convicted offender sample processing. NIJ will continue to provide this
  material to States that participate in the Outsourcing Program.

B. AMD Response: AMD will implement actions to establish and sustain
   communications with the States, the vendor laboratories, and OJP key
   personnel. Specifically:

     By June 30, 2009, AMD will host an annual Vendor Laboratory
      Industry Day to facilitate pre-contract discussions, respond to
      questions, and provide clarification about the solicitation process,
      the DNA Backlog Program, etc. The industry day will be held within
      two weeks after issuance of the solicitation being competed in that
      given year. Additionally, AMD will require any vendor laboratory


                                  23
          interested in competing for new contracts to attend the annual
          Vendor Laboratory Industry Day.

         Upon award, AMD will issue to the awarded vendor, a contract
          award notification that will include the contract award, contract
          requirements, key deliverables, performance schedule, and will
          identify and explain the responsibilities of the contracting parties,
          which include NIJ, AMD, Vendor Laboratory, and the State
          Representative. Shortly thereafter, AMD and NIJ will host a
          contract award kick-off meeting with the vendor laboratory and
          State to review the information in the award notification letter to
          ensure there is no misunderstanding of the requirements by the
          vendor laboratory or State.

         NIJ will host quarterly conference calls between the vendor
          laboratory, the State, and AMD to discuss apparent obstacles,
          workload, and performance issues, if any. Additionally, NIJ will
          continue dialog between vendor laboratory and the States to obtain
          feedback on services being provided and to identify obstacles.

         AMD and NIJ will continue ongoing discussions regarding the
          program and vendor laboratory performance in meeting contract
          requirements. The agency will continue to monitor monthly reports
          to assess program performance and identify and issues of concern.

Thank you for your continued cooperation. If you have any questions
regarding this response, please contact LeToya Johnson, Deputy Director of
the Audit and Review Division, Office of Audit, Assessment, and
Management, on (202) 514-0692.

cc:   Beth McGarry
      Deputy Assistant Attorney General
        for Operations and Management

      Kristina Rose
      Acting Director
      National Institute of Justice

      Maureen A. Henneberg
      Director
      Office of Audit, Assessment, and Management

      Marcia K. Paull
      Chief Financial Officer

                                        24
Phillip Merkle
Director
Office of Administration

LeToya A. Johnson
Deputy Director, Audit and Review Division
Office of Audit, Assessment, and Management

Richard A. Theis
Assistant Director, Audit Liaison Group
Justice Management Division




                                25
                                                        APPENDIX VIII

              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to OJP NIJ. The NIJ
response is incorporated in Appendix VII of this final report. The following
provides the OIG analysis of the response and summary of actions necessary
to close the report.

Summary of Actions Necessary to Close Report

1.   Resolved. The NIJ concurred with our recommendation. This
     recommendation can be closed when the NIJ provides documentation
     supporting that it has fully implemented all parts of its corrective
     action plan to provide state laboratories improved guidance on
     reporting the performance information required in performance
     reports.

2.   Resolved. The NIJ concurred with our recommendation. This
     recommendation can be closed when the NIJ provides documentation
     supporting that it has fully implemented all parts of its corrective
     action plan to develop a reliable and reasonable method for award
     recipients to determine the number of samples analyzed using
     In-House Program funds.

3.   Resolved. The NIJ concurred with our recommendation. This
     recommendation can be closed when the NIJ provides documentation
     supporting that it has developed and implemented written procedures
     to ensure that that performance reports are submitted in a timely
     manner and include all required performance measurement data for
     the Outsourcing Program.

4.   Resolved. The NIJ concurred with our recommendation. This
     recommendation can be closed when the NIJ provides documentation
     supporting that it has completed its summary report on the
     effectiveness of the Backlog Reduction Program as a whole.

5.   Resolved. The NIJ concurred with our recommendation. This
     recommendation can be closed when the NIJ provides documentation
     supporting that it has fully implemented its corrective action plan to
      utilize the performance information reported by state laboratories to
      evaluate the effectiveness of individual awards and contracts funded
      under the Backlog Reduction Program, and to follow up on any poor
      performance.

6.    Resolved. The NIJ concurred with our recommendation. This
      recommendation can be closed when the NIJ provides documentation
      supporting that it has fully implemented the use of the modified
      Enterprise Reporting Tool reports to ensure that financial and
      programmatic activities are monitored to determine if Backlog
      Reduction Program funds are being utilized in a timely manner.

7.    Resolved. The NIJ concurred with our recommendation. This
      recommendation can be closed when the NIJ provides documentation
      supporting that it has fully implemented the use of the modified
      Enterprise Reporting Tool reports to follow up with award recipients
      that have not demonstrated any progress toward completion of the
      objectives of the In-house Program award and provide assistance as
      necessary.

8.    Resolved. The NIJ concurred with our recommendation. This
      recommendation can be closed when the NIJ provides documentation
      supporting that it has fully implemented its corrective action plan for
      Recommendation No. 6.

9.    Closed.

10.   Resolved. The NIJ concurred with our recommendation. This
      recommendation can be closed when the NIJ provides documentation
      supporting that it has fully implemented its corrective action plans for
      Recommendation Nos. 1 and 5.

10.   Resolved. The NIJ concurred with our recommendation. This
      recommendation can be closed when the NIJ provides documentation
      supporting that it has fully implemented all parts of its corrective
      action plan to develop policies and procedures to facilitate pre-contract
      discussions as well as ongoing contract monitoring between state and
      vendor laboratories, to ensure that contract expectations are clear and
      that problems are identified, discussed, and resolved in a timely
      manner.
